      Department of Homeland Security




         Effectiveness of the Infrastructure Security
      Compliance Division's Management Practices to
      Implement the Chemical Facility Anti-Terrorism
                     Standards Program




OIG-13-55                                        March 2013




                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                       March 25, 2013

MEMORANDUM FOR:                The Honorable Rand Beers
                               Undersecretary
                               National Protection and Programs Directorate


FROM:                          Charles K. Edwards
                               Deputy Inspector General

SUBJECT:                       Effectiveness of the Infrastructure Security Compliance
                               Division’s Management Practices to Implement the
                               Chemical Facility Anti-Terrorism Standards Program

Attached for your information is our final report, Effectiveness of the Infrastructure
Security Compliance Division’s Management Practices to Implement the Chemical
Facility Anti-Terrorism Standards Program. We incorporated the formal comments from
the National Protection and Programs Directorate in the final report.

The report contains 24 recommendations aimed at improving the Chemical Facility Anti-
Terrorism Standards Program. Your office concurred with 19 recommendations,
partially concurred with 1 recommendation, and did not concur with 4
recommendations. Based on information provided in your response, we consider
Recommendations 1, 2, 3, 4, 5, 6, 7, 8, 9, 10, 11, 12, 13, 14, 15, 16, 17, 18, 20, 21, 22, 23,
24, and 25 to be open and resolved; however, Recommendation 19 is open and
unresolved.

As prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for the Office of Inspector General Report Recommendations, within 90
days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3)
target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the
current status of the recommendation. Until your response is received and evaluated,
the recommendations will be considered resolved and open.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.
�


                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


Please call me with any questions, or your staff may contact
Deborah L. Outten-Mills, Acting Assistant Inspector General for Inspections, at
(202) 254-4015, or Marcia Moxey Hodges, Chief Inspector, at (202) 254-4202.

Attachment




                                              2

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1


Background ......................................................................................................................... 3


Results of Review .............................................................................................................. 13


           CFATS Program Tools Need Modification To Improve Efficiency, Effectiveness, 

           3H




           and Utility.............................................................................................................. 13 

           Recommendations ................................................................................................ 15 

           0H




           Management Comments and OIG Analysis .......................................................... 16 

           1H




           SSP Review Process Has Hindered CFATS Program Progress ............................... 17 

           4H




           Recommendations .....................................................................................23, 25, 27 

           Management Comments and OIG Analysis ...............................................23, 25, 27 


           Management of the Personnel Surety Program Resulted in Premature

           5H




           Expenditure of Funds ............................................................................................ 27 

           Recommendation.................................................................................................. 31 

           Management Comments and OIG Analysis .......................................................... 31 


           Congress Provided ISCD Additional Chemical Security Regulatory 

           Responsibility ........................................................................................................ 31 

           Recommendations ................................................................................................ 33 

           Management Comments and OIG Analysis .......................................................... 33 


           Confusing Terminology and Absence of Appropriate Metrics Led To 

           6H




           Misunderstandings of CFATS Program Progress .................................................. 34 

           Recommendation.................................................................................................. 39 

           Management Comments and OIG Analysis .......................................................... 39 


           IP, NPPD, Congress, and DHS OIG Provided Limited Oversight of ISCD and the 

           7H




           CFATS Program...................................................................................................... 40 

           Recommendation.................................................................................................. 43 

           Management Comments and OIG Analysis .......................................................... 43 


           Overall Coordination, Communication, and Actions Taken To Address Facility 

           8H




           Tiering Methodology Errors Were Ineffective, and Concerns Remain That Tiering 

           Is Still Flawed......................................................................................................... 46 

           Recommendations ................................................................................................ 50 




www.oig.dhs.gov                                                                                                         OIG-13-55

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


           Management Comments and OIG Analysis .......................................................... 50 


           Pressure To Implement the CFATS Program Led ISCD To Rely on Contractor 

           9H




           Support.................................................................................................................. 51 

           Recommendation.................................................................................................. 54 

           Management Comments and OIG Analysis .......................................................... 55 


           ISCD Struggles To Provide Employees With Appropriate Training ....................... 55 

           10H




           Recommendation.................................................................................................. 57 

           Management Comments and OIG Analysis .......................................................... 57 


           Inability To Follow Sound Government Practices Has Resulted in Noncompliance 

           1H




           and Wasted Resources.......................................................................................... 58 

           Recommendations .....................................................................................62, 71, 76 

           Management Comments and OIG Analysis ...............................................62, 71, 76 


           Dysfunctional Culture Contributed to Perceptions of Retaliation and Suppression 

           21H




           of Nonconforming Opinions Within ISCD ............................................................. 78 

           Recommendations ................................................................................................ 79 

           Management Comments and OIG Analysis .......................................................... 80 


           NPPD Has a Process To Report Allegations, but DHS OIG Contact Information Is 

           13H




           Outdated ............................................................................................................... 80 

           Recommendation.................................................................................................. 81 

           Management Comments and OIG Analysis .......................................................... 81 


           Industry Supports the CFATS Program, but Challenges Remain and Corrective 

           14H




           Action Is Necessary ............................................................................................... 82 

           Recommendation.................................................................................................. 84 

           Management Comments and OIG Analysis .......................................................... 84 


Conclusion......................................................................................................................... 85 

2H                                                                                                                                     15H




Appendixes
B0




                 Appendix A:    Objectives, Scope, and Methodology............................................ 86 
                    16H




                 Appendix B:    Recommendations......................................................................... 88 
          17H




                 Appendix C:    Management Comments to the Draft Report ............................... 92 
                           18H




                 Appendix D:    ISCD Field Locations, Staff, and Regulated Facilities ................... 109 
                  91H




                 Appendix E:    F1 Factor Timeline of Events........................................................ 110 
       20H




                 Appendix F:    F1 Communication to IP Leadership and NPPD Staff................... 111 
                        21H




www.oig.dhs.gov                                                                                                         OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


      Appendix G: Designation of Leadership Positions in IP .................................... 112 
   2H




      Appendix H: Major Contributors to This Report............................................... 113 
 23H




      Appendix I: Report Distribution ...................................................................... 114
                                                                                                         24H




Abbreviations
B1




      ASP               Alternative Security Program
      AUO               Administratively Uncontrollable Overtime
      CAV               Compliance Assistance Visit
      CFATS             Chemical Facility Anti-Terrorism Standards
      COI               Chemical of Interest
      CSAT              Chemical Security Assessment Tool
      DHS               Department of Homeland Security
      FPS               Federal Protective Service
      FRC               Federal Review Center
      FY                fiscal year
      GAO               Government Accountability Office
      GS                General Schedule
      IP                Office of Infrastructure Protection
      ISCD              Infrastructure Security Compliance Division
      NPPD              National Protection and Programs Directorate
      OCS               Office of Compliance and Security
      OGC               Office of General Counsel
      OIG               Office of Inspector General
      OPM               Office of Personnel Management
      RBPS              risk-based performance standards
      SSP               Site Security Plan
      SVA               Security Vulnerability Assessment
      TSA               Transportation Security Administration
      TSDB              Terrorist Screening Database
      TSC               Terrorist Screening Center
      TWIC              Transportation Worker Identification Credential
      USCG              U.S. Coast Guard




www.oig.dhs.gov                                                                                   OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Department of Homeland Security Appropriations Act of 2007 established the
Chemical Facility Anti-Terrorism Standards Program, which allows the Department of
Homeland Security (DHS) to regulate chemical facilities that may present a high-level
security risk. Within the Department’s National Protection and Programs Directorate
(NPPD) Office of Infrastructure Protection, the Infrastructure Security Compliance
Division is responsible for implementing the Chemical Facility Anti-Terrorism Standards
Program.

In December 2011, a limited distribution internal memorandum was leaked to news
media. This document disclosed allegations of employee misconduct and inadequate
performance, as well as misuse of funds and ineffective hiring within DHS’ Chemical
Facility Anti-Terrorism Standards Program. In February 2012, former Chairman Lungren,
of the House Committee on Homeland Security, Subcommittee on Cybersecurity,
Infrastructure Protection and Security Technologies, requested that we review these
issues. In April 2012, Ranking Member Waxman, of the House Committee on Energy
and Commerce, also requested that we review the challenges facing the program. We
consolidated both requests into one review.

We assessed DHS’ efforts to implement the Chemical Facility Anti-Terrorism Standards
Program from inception to the end of fiscal year 2012. Specifically, we reviewed
whether: (1) management controls are in place and operational to ensure that the
Chemical Facility Anti-Terrorism Program is not mismanaged; (2) NPPD and
Infrastructure Security Compliance Division leadership misrepresented program
progress; and (3) nonconforming opinions of program personnel have been suppressed
or met with retaliation.

Program progress has been slowed by inadequate tools, poorly executed processes, and
insufficient feedback on facility submissions. In addition, program oversight had been
limited, and confusing terminology and absence of appropriate metrics led to
misunderstandings of program progress. The Infrastructure Security Compliance
Division still struggles with a reliance on contractors and the inability to provide
employees with appropriate training. Overall efforts to implement the program have
resulted in systematic noncompliance with sound Federal Government internal controls
and fiscal stewardship, and employees perceive that their opinions have been
suppressed or met with retaliation. Although we were unable to substantiate any
claims of retaliation or suppression of nonconforming opinions, the Infrastructure
Security Compliance Division work environment and culture cultivates this perception.
Despite the Infrastructure Security Compliance Division’s challenges, the regulated
community views the Chemical Facility Anti-Terrorism Standards Program as necessary



www.oig.dhs.gov                             1                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


in establishing a level playing field across a diverse industry. We are making 24
recommendations to correct these deficiencies and attain intended program results and
outcomes. The Infrastructure Security Compliance Division concurred with 19
recommendations, partially concurred with 1 recommendation and did not concur with
4.




www.oig.dhs.gov                           2                                 OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Background
        Chemical Facility Anti-Terrorism Standards Program History

        After the 2001 terrorist attacks, the Nation developed a greater awareness of
        potential terrorist targets. For example, chemical facilities became viewed as
        potentially attractive to terrorists because these facilities could be sabotaged
        and materials released, stolen, or used as weapons of mass destruction.

        Even an accidental chemical release can be disastrous, as illustrated in January
        2005, when two trains collided and derailed in Graniteville, SC. This accident
        caused one railcar carrying 90 tons of chlorine gas to rupture, resulting in nine
        deaths and displacing 5,400 people for 2 weeks. In October 2012, a hydrochloric
        acid leak created a vapor cloud that drifted over the population of Texas City, TX,
        injuring nine people. Both accidents occurred in lightly populated areas; an
        intentional terrorist release of toxic gas in a densely populated area could result
        in potential catastrophic death and injury. Recognizing this risk, many chemical
        companies initiated security programs and made significant capital investments
        to address security concerns. In addition, several States adopted measures to
        enhance the security of chemical facilities under their jurisdiction.

        Congressional Action and Placement of Regulatory Authority Within DHS

        To address these concerns, Congress, in Section 550 of the Department of
        Homeland Security Appropriations Act of 2007, Public Law 109-295, granted DHS
        authority to regulate the security of high-risk chemical facilities. 1 DHS assigned
                                                                                     0 F




        this responsibility to NPPD. NPPD is responsible for leading the national effort to
        protect and enhance the resilience of the Nation’s physical and cyber
        infrastructure.

        Within NPPD, the Office of Infrastructure Protection (IP) leads the coordinated
        national program to reduce risks to the Nation’s critical infrastructure. This
        infrastructure is defined as the assets, systems, and networks, whether physical
        or virtual, so vital to the United States that their incapacitation or destruction
        would have a debilitating effect on security, national economic security, public
        health, or safety. In October 2006, IP’s Assistant Secretary established the

1
 Facilities exempt from this act are those regulated by the United States Coast Guard pursuant to the
Maritime Transportation Security Act, drinking water and wastewater treatment facilities as defined by
Section 1401 of the Safe Water Drinking Act and Section 212 of the Federal Water Pollution Control Act,
and facilities owned or operated by the Departments of Defense and Energy, as well as certain facilities
subject to regulation by the Nuclear Regulatory Commission.


www.oig.dhs.gov                                      3                                         OIG-13-55

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Chemical Security Working Group to perform the regulatory, organizational, and
           resource planning necessary to implement the legislative mandate of regulating
           the Nation’ s chemical facilities. This working group established the Chemical
           Security Compliance Project to develop the regulatory framework and associated
           tools and procedures to implement and ensure facility compliance.

           Developing the Program’s Regulatory Framework and Structure

           In February 2007, IP’s Assistant Secretary established the Chemical Security
           Compliance Division. The mission of the Chemical Security Compliance Division
           was to achieve initial operating capability of the Chemical Security Compliance
           Project and to reach full operating capability by October 2009. In November
           2007, the division was renamed the Infrastructure Security Compliance Division
           (ISCD), but the mission did not change.

           To comply with the requirements of the Appropriations Act of 2007, DHS
           published the Chemical Facility Anti-Terrorism Standards (CFATS) Interim Final
           Rule in the Federal Register on April 9, 2007. 2 The Interim Final Rule established
                                                                  1 F




           the program’s risk-based performance standards (RBPS) that all facilities must
           satisfy; however, measures sufficient to meet these standards are more rigorous
           for facilities that present higher levels of risk. Table 1 lists the 18 RBPS.

           Table 1: CFATS Program RBPS and Descriptions
                 Risk-Based Performance                                  Descriptions
                        Standards
             1     Restrict Area Perimeter          Secure and monitor the perimeter of the facility.

             2     Secure Site Assets               Secure and monitor restricted areas or
                                                    potentially critical targets within the facility.
             3     Screen and Control Access        Control access to the facility and to restricted
                                                    areas within the facility by screening and/or
                                                    inspecting individuals and vehicles as they enter.
             4     Deter, Detect, and Delay         Deter, detect, and delay an attack, creating
                                                    sufficient time between detection of an attack
                                                    and the point at which the attack becomes
                                                    successful.
             5     Shipping, Receipt, and           Secure and monitor the shipping, receipt, and
                   Storage                          storage of hazardous materials for the facility.
             6     Theft and Diversion              Deter theft or diversion of potentially dangerous
                                                    chemicals.
             7     Sabotage                         Deter insider sabotage.

2
    Chemical Facility Anti-Terrorism Standards; Interim Final Rule, 72 FR 17688, April 9, 2007.


www.oig.dhs.gov                                         4                                         OIG-13-55
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


             Risk-Based Performance                           Descriptions
                    Standards
        8      Cyber                       Deter cyber sabotage, to include preventing
                                           unauthorized onsite or remote access to critical
                                           process controls.
        9     Response                     Develop and exercise an emergency plan to
                                           respond to security incidents internally and with
                                           assistance of local law enforcement and first
                                           responders.
        10    Monitoring                   Maintain effective monitoring, communications,
                                           and warning systems.
        11    Training                     Ensure proper security training, exercises, and
                                           drills of facility personnel.
        12    Personnel Surety             Perform appropriate background checks on and
                                           ensure appropriate credentials for facility
                                           personnel, and as appropriate, for unescorted
                                           visitors with access to restricted areas or critical
                                           assets.
        13    Elevated Threats             Escalate the level of protective measures for
                                           periods of elevated threat.
        14    Specific Threats,            Address specific threats, vulnerabilities, or risks
              Vulnerabilities, or Risks    identified by the Assistant Secretary for the
                                           particular facility at issue.
        15    Reporting of Significant     Report significant security incidents to the
              Security Incidents           Department and to local law enforcement
                                           officials.
        16    Significant Security         Identify, investigate, report, and maintain records
              Incidents and Suspicious     of significant security incidents and suspicious
              Activities                   activities in or near the site.
        17    Officials and Organization   Establish official(s) and an organization
                                           responsible for security and for compliance with
                                           these standards.
        18    Records                      Maintain appropriate records.
      Source: May 2009 Risk-Based Performance Standards Guidance, CFATS.

      The Interim Final Rule went into effect on June 8, 2007, but allowed for further
      public comment on the proposed appendix A. This appendix included a tentative
      list of Chemicals of Interest (COIs) that DHS identified as having the potential to
      create significant human life and/or health consequences if released, stolen or
      diverted, and/or contaminated. DHS revised appendix A, which includes the final
      comprehensive list of COIs and a screening threshold quantity for each COI,
      which when present at a facility requires an initial submission of site information
      for CFATS Program consideration. Appendix A went into effect on
      November 20, 2007.


www.oig.dhs.gov                               5                                       OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      Determining Facility Risk

      To determine risk, the CFATS Program considers a number of factors, including
      the chemicals possessed by the facility, the quantity of those chemicals, the
      manner in which those chemicals are possessed, and the geographic location of
      the facility. Based on these factors, the Department determines whether a
      facility is high risk, and if so, the facility is then placed in one of four risk-based
      tiers, with Tier 1 containing the highest-risk facilities and Tier 4 containing
      lowest-risk facilities. Figure 1 represents the CFATS regulatory process.




www.oig.dhs.gov                               6                                     OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         Figure 1: CFATS Regulatory Process3




         Source: Office of Inspector General (OIG) analysis.



3
 Facilities register and submit their Top Screens, Security Vulnerability Assessments (SVAs), and Site
Security Plans (SSPs) or Alternative Security Programs (ASPs) online through the Chemical Security
Assessment Tool (CSAT) for ISCD review and approval.


www.oig.dhs.gov                                      7                                          OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           To determine tier placement, the presence of a COI in quantities above the
           screening threshold quantity at a facility requires the facility to submit a Top
           Screen. A Top Screen solicits answers to a series of questions regarding COI
           manufacture, storage, use, and quantities, among other things. Top Screen
           results assist CFATS in determining whether a facility presents a high-level
           security risk. After processing a Top Screen, the CFATS Program assigns the
           facility a preliminary tier or determines that the facility does not meet the
           criteria for CFATS regulation. A facility that is not determined to be high-risk is
           considered unregulated, but must submit a new Top Screen if it later possesses
           another COI at or above the applicable screening threshold quantity.

           When a facility receives a preliminary tier assignment notification, it must
           prepare a Security Vulnerability Assessment (SVA) within 90 calendar days. The
           SVA requires a facility to identify onsite assets; apply specified threat scenarios
           to each asset to quantify the consequences if an attack succeeded; and apply
           threat scenarios to each asset in light of the security measures in place and
           evaluate the likelihood and the degree to which the attack could succeed. Tier 4
           facilities may submit an Alternative Security Program (ASP) in lieu of an SVA. An
           ASP may be based on a third-party or industry organization program, a local
           authority, State or Federal Government program, or any element thereof, that
           IP’s Assistant Secretary has determined meets CFATS requirements.4 After
           reviewing the SVA or ASP, the CFATS Program determines a facility’s final tier
           assignment or that the facility is not high risk.

           Facility Requirements After Receiving a Risk Tier Assignment

           When a facility receives a final tier assignment notification, it is required to
           submit a Site Security Plan (SSP) within 120 calendar days. The SSP must identify
           and describe measures the facility will employ to address each vulnerability area.
           Focusing on those vulnerable areas, the SSP must then address specific potential
           terrorist attack modes and how each would be deterred or otherwise addressed.
           In addition, the SSP must identify how layered security measures selected by the
           facility address the RBPS. In lieu of an SSP, facilities may submit an ASP.2




           The CFATS Program reviews the SSPs and ASPs to determine whether the plans
           satisfy the RBPS and should be authorized or whether the facility needs to take
           further action. Chemical Security Inspectors conduct an Authorization Inspection
           at a facility to validate an authorized SSP or ASP. Following this inspection, the
           CFATS Program determines whether to approve or disapprove the SSP or ASP.
           DHS can disapprove a plan that does not address the vulnerability assessment

4
    6 CFR Subpart A, § 27.105.


www.oig.dhs.gov                                  8                                        OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        and RBPS; however, DHS cannot be prescriptive and disapprove a plan based on
        the presence or absence of a particular security measure. Once an SSP or ASP is
        approved, inspections are conducted at the facility to assess compliance with
        CFATS; the frequency of Compliance Inspections may vary according to a
        facility’s tier level. The regulation then requires that Tier 1 and 2 facilities submit
        new Top Screens every 2 years. Facilities in Tiers 3 and 4 must resubmit Top
        Screens every 3 years.

        Facilities are also required to resubmit a Top Screen when there are changes to
        operations or sites, referred to in the CFATS regulation as “material
        modifications,” within 60 days of completion. 5 Based on this information, the
                                                              3 F




        CFATS Program will determine the need for updated SVAs and SSPs. A facility
        may seek a redetermination by filing a request with IP’s Assistant Secretary. 6           4F




        The regulation requires the Department to send the facility a decision within 45
        days.

        Tools Used To Submit Facility Information to CFATS

        To implement the CFATS Program, ISCD began working with the Department of
        Energy’s national laboratories in Fall 2006 to create an online submission tool,
        the Chemical Security Assessment Tool (CSAT). Facilities register and submit
        their Top Screens, SVAs, and SSPs or ASPs through the CSAT for ISCD review and
        approval.

        CFATS Program Management

        ISCD manages and implements the CFATS Program to identify and assess high-
        risk chemical facilities, promote effective security planning, and help facilities
        reduce security risk. The ISCD Director and Deputy Director oversee five
        branches that assist in implementing ISCD’s mission and operations, as shown in
        figure 2.




5
 Chemical Facility Anti-Terrorism Standards; Interim Final Rule, 72 FR 17702, April 9, 2007.
6
 A redetermination may occur when a regulated facility materially alters operations and seeks a decision
regarding its inclusion in the CFATS Program.


www.oig.dhs.gov                                     9                                         OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


    Figure 2: ISCD Organization Chart 





    Source: NPPD.

      After our fieldwork ended in October 2012, ISCD was implementing a divisional
      realignment. This has changed the names of the Plans and Policy Branch to
      Policy and Rulemaking, the Risk Analysis and Data Branch to Information
      Technology, the Operations Support Branch to Mission Support, and Inspections
      & Enforcement Branch to Field Operations. Figure 2 reflects those changes;
      however, in this report we reference the branch names that were in use during
      our fieldwork.

      Chemical Security Inspectors within the Inspections & Enforcement Branch are
      the primary representatives of ISCD to the regulated community and the
      Chemical Sector. They are responsible for managing, coordinating, and


www.oig.dhs.gov                           10                               OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        conducting inspections, compliance assistance, and outreach activities. Chemical
        Security Inspectors are located in 10 regional areas within three districts across
        the Nation, and interact with 4,403 regulated and numerous unregulated
        facilities. Appendix D shows the ISCD regional locations, number of field staff,
        and CFATS-regulated facilities as of October 2012.

        CFATS Program Budget

        ISCD has received almost $443 million to develop and implement the CFATS
        Program and Ammonium Nitrate Security Program. 7 These funds have been
        used for personnel, training, travel, information technology systems, and
        equipment, among other things. Table 2 shows the CFATS budget by fiscal year.

        Table 2: CFATS Budget by Fiscal Year
           Fiscal                                  Training, Systems,
                         Personnel Costs                                      Total Funding
           Year                                    Program Support
           2007                          $0               $22,000,000             $22,000,000
           2008                   5,632,000                44,368,000              50,000,000
           2009                  11,219,000                66,781,000              78,000,000
           2010                  33,495,000                69,868,000             103,363,000
           2011                  33,428,000                62,502,000              95,930,000
           2012                  32,965,000                60,383,000              93,348,000
           Total               $116,739,000              $325,902,000            $442,641,000
        Source: ISCD budget data.

        Challenges Implementing CFATS and Internal Reviews of ISCD

        ISCD has experienced significant challenges in implementing the CFATS Program,
        such as high turnover among senior leadership, numerous organizational
        realignments, shifting mission focus, and a large increase in human capital
        resources without appropriate office facilities. As a result, in 2011 NPPD’s Under
        Secretary and IP leadership requested that the NPPD Office of Compliance and
        Security (OCS) conduct an inspection of ISCD. OCS is responsible for factfinding
        inquiries regarding misconduct allegations within NPPD. OCS’ inspection was
        conducted from April to September 2011, and highlighted a number of
        deficiencies within ISCD functional areas, including fleet management, purchase
        card administration, travel management, property management, human
        resources/performance management, and facilities planning.

7
 Section 563 of the FY 2008 DHS Appropriations Act, Public Law 110-161, authorizes DHS to “regulate the
sale and transfer of ammonium nitrate by an ammonium nitrate facility…to prevent the misappropriation
or use of ammonium nitrate in an act of terrorism.”


www.oig.dhs.gov                                   11                                        OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      In July 2011, NPPD’s Under Secretary requested newly hired ISCD leadership to
      review the division and the CFATS Program because of continued programmatic
      concerns. In November 2011, ISCD leadership provided the results of its review
      to the Under Secretary in an internal limited distribution memorandum. The
      memorandum identified three high programmatic priorities: approving SSPs;
      preparing for compliance inspections; and developing and implementing RBPS-
      12, Personnel Surety, and the Ammonium Nitrate Security Program.

      In addition, the memorandum identified challenges having the greatest affect on
      the program’s progress: inadequate training capability; overreliance on external
      experts for mission-essential tasks; no transition plan for new hires; no long-term
      or permanent program authorization; and the introduction of a union prior to
      the program’s full establishment and maturation. As a result of the review
      findings, a corrective action plan was drafted with items relating to team,
      mission, and administrative issues. This action plan included the findings from
      the OCS inspection. In December 2011, the internal memorandum was leaked to
      news media, and several media outlets published articles with direct quotes
      from the memorandum.

      In response to congressional requests after the internal memorandum was
      leaked, we assessed ISCD’s efforts to implement the CFATS Program.
      Specifically, we reviewed whether: management controls are in place and
      operational to ensure that the CFATS Program was not mismanaged; NPPD and
      ISCD leadership misrepresented CFATS Program progress; and nonconforming
      opinions of CFATS Program personnel were suppressed or met with retaliation.

      The scope of our review covers CFATS Program implementation from October
      2006 through October 2012. After ISCD issued its November 2011 internal
      memorandum, program officials began efforts to complete items identified in
      the memorandum’s action plan. Our review, however, did not focus on ISCD’s
      efforts to address action plan items. Rather, at the request of Congress, the
      Government Accountability Office performed a review of ISCD’s management
      and its progress to implement the action plan.

      Many interviewees provided only general timeframes and frequently said that
      they could not recall the details of areas under review. Some interviewees’
      testimony was contrary to documents in official reports and email messages we
      received. In addition, some interviewees said they had documentation on
      specific events, but after we requested these documents, interviewees were
      frequently unable to provide requested information or provided insufficient
      information for a full analysis of issues raised.



www.oig.dhs.gov                           12                                   OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Results of Review
As of October 2012, the CFATS Program has not yet been fully implemented, and
concerns remain over whether it can achieve its mission, given the challenges the
program continues to face. ISCD tried frequently to progress the program without fully
addressing numerous issues, such as the CSAT tools and the SSP review process. A
common explanation by program officials for the challenges is that CFATS is a new
program. However, it has been more than 5 years since the program was created,
almost $443 million has been appropriated, and no facility has gone through the entire
CFATS regulatory process.

Program progress has been slowed by inadequate CSAT tools, poorly executed
processes, and insufficient feedback on chemical facility submissions. In addition,
program oversight had been limited, and confusing terminology and absence of
appropriate metrics led to misunderstandings of program progress. ISCD struggles with
a reliance on contractors and the inability to provide employees with appropriate
training. Overall program implementation efforts have resulted in a systematic
noncompliance with sound Federal Government internal controls and fiscal
stewardship, and employees perceive that their opinions have been suppressed or met
with retaliation. Although we were unable to substantiate any claims of retaliation or
suppression of nonconforming opinions, the ISCD work environment and culture
cultivates this perception. Despite ISCD’s challenges, the chemical industry views CFATS
Program regulation as necessary to establish a level playing field across a diverse
industry.

       CFATS Program Tools Need Modification To Improve Efficiency, Effectiveness,
       and Utility

       Most industry officials believe the CFATS regulation is sound and the
       performance-based philosophy is appropriate. However, ISCD needs to modify
       its CSAT tools to make them more efficient, effective, and easier to use.
       Currently, facilities enter information into the CSAT, but industry officials said
       results are of limited use.

       SSP Tool Concerns Led Industry To Develop an ASP Template

       ISCD initially solicited input from chemical industry representatives to develop
       the CFATS Interim Final Rule, RBPS, Top Screen, and SVA. Several industry
       representatives recalled an opportunity to test the Top Screen and to provide
       comments. However, when the SSP was developed, industry officials said that




www.oig.dhs.gov                             13                                   OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      they were not consulted. Industry officials are unsure of the reason but
      mentioned that ISCD changed contractors prior to SSP development.

      According to industry officials, the SSP tool does not require facilities to provide
      all information necessary for ISCD to complete the SSP review process. The SSP
      tool is primarily a list of yes or no questions with some short answer questions.
      The tool also includes a number of text boxes that provide facilities with the
      option to include additional information. It is not a security plan and is of limited
      use to facilities. Many industry officials described filling out the SSP tool as time
      and resource intensive. Yes or no questions do not always allow facilities to
      account for unique site characteristics, such as a natural security barrier. For
      example, a facility may have fencing on three sides but a cliff on the fourth. ISCD
      officials assumed that industry would use the optional text boxes to expand
      upon its answers in the SSP to describe security measures. This assumption
      limited ISCD’s ability to make an informed decision regarding a facility’s capacity
      to meet the RBPS without physically observing the facility.

      Industry officials raised additional concerns about redundancies in Top Screen,
      SVA, and SSP questions. They said ISCD should modify the CSAT to allow for
      prepopulation of data from the Top Screen, to the SVA and the SSP as applicable.

      In contrast to the CFATS Program, industry representatives applauded some IP
      voluntary programs and recommended that these be used to assist the CFATS
      Program. For example, IP’s Protective Security Advisor Program has a field cadre
      that specializes in public and private outreach and activities to reduce security
      risks of critical infrastructure and key resources across all sectors. In addition,
      many industry members use IP’s Voluntary Chemical Assessment Tool, which
      allows owners/operators to identify current facility risk levels using an all-
      hazards approach and also facilitates a cost-benefit analysis. The Voluntary
      Chemical Assessment Tool has been adapted into some private industry security
      programs, and industry officials said it is a simple tool that could have easily
      been adapted for CFATS. However, since CFATS Program development, ISCD
      management has separated the IP voluntary and regulatory programs. This
      action impedes ISCD’s ability to identify and apply best practices across
      programs.

      Because both industry and ISCD experienced challenges with the SSP tool,
      industry representatives noted that other regulatory programs already accept
      ASPs as an alternative way to meet regulatory requirements. For example, while
      implementing the Maritime Transportation Security Act, the U.S. Coast Guard




www.oig.dhs.gov                            14                                    OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        (USCG) worked closely with industry to develop ASPs. 8 This ASP process allows
                                                                        6 F




        industry to develop one plan for several vessels of similar size and purpose,
        which cut the number of plans submitted from 10,000 to 3,000. This process
        saves industry and USCG resources, time, and funds, while also improving the
        relationship between the Federal Government and regulated industry.

        ISCD is trying to address SSP tool concerns by working closely with the American
        Chemistry Council in support of its efforts to develop an ASP template.
        According to ISCD staff, as of July 2012 there are more than 425 ASPs queued to
        the CFATS Program out of approximately 4,000 total plans for review.

        Most industry representatives we spoke with said they have submitted or plan to
        submit ASPs for their CFATS-regulated facilities. Although ISCD may not approve
        an ASP template, it can inform each facility whether its ASP is appropriate, and
        then industry can distribute an unofficial template. In the summer 2012, a
        chemical facility in Michigan conducted an ASP pilot. A similar test is pending at
        a facility in Indiana. ISCD is also discussing ASP templates with other trade
        associations, such as the Society of Chemical Manufacturers and Affiliates. ISCD
        leadership was unsure whether facilities will shift to the ASP, since ISCD plans to
        modify the SSP tool as well. ISCD officials said that they have had discussions
        with industry about all CFATS tools, including making each more intuitive, which
        should lead to an easier to use and more useful end product.

        Recommendations

        We recommend that the Director of the Infrastructure Security Compliance
        Division:

        Recommendation #1:

        Modify Chemical Security Assessment Tools to capture facility data efficiently
        and ensure that the tools provide meaningful end products for industry users
        and ISCD.




8
  The Maritime Transportation Security Act of 2002 (P.L. 107-295) was enacted to ensure greater security
for U.S. seaports.


www.oig.dhs.gov                                    15                                         OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Recommendation #2:

      Document engagement with Office of Infrastructure Protection and DHS
      regulatory and voluntary programs to identify and implement existing tools and
      processes that can be leveraged to make Top Screen, Security Vulnerability
      Assessments, and the Site Security Plan tools more efficient, effective, and easier
      to use for the CFATS Program.

      Management Comments and OIG Analysis

      We evaluated NPPD’s written response and have made changes to the report
      where we deemed appropriate. In their written response, NPPD said that our
      recommendations address areas already identified in ISCD’s action plan. We,
      however, conducted an independent assessment of the CFATS Program. The
      report includes CFATS Program progress in multiple areas; much achieved as a
      result of ISCD’s action plan. A summary of NPPD’s written response to the report
      recommendations and our analysis of the response follows each
      recommendation. A copy of NPPD’s response, in its entirety, is included as
      appendix C.

      In addition, we received technical comments from NPPD and incorporated these
      comments into the report where appropriate. NPPD concurred with 19
      recommendations, partially concurred with 1 recommendation and did not
      concur with 4 recommendations in the report. We appreciate NPPD’s comments
      and contributions.

      Management Response to Recommendation #1: NPPD officials concurred with
      Recommendation 1. In its response, NPPD said that improving the CSAT is one of
      ISCD’s top priorities for FYs 2013 and 2014. In addition, input received to date
      from both the regulated community as well as internal ISCD users of the outputs
      of the CSAT applications, ISCD has identified a number of potential
      improvements that should help make all three of the primary CSAT
      applications—the Top-Screen, the SVA, and the SSP—more user-friendly, more
      efficient, and more effective.

      Also to revalidate and formalize suggestions for improving CSAT and to identify
      any additional potential improvements, ISCD launched a “CSAT re-engineering
      and optimization” effort in 2012. ISCD is also soliciting input from members of
      the regulated community with which ISCD interacts on a regular basis and has
      scheduled three roundtables with members of the regulated community in
      various locations around the United States.



www.oig.dhs.gov                           16                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 1,
      which is resolved and open. This recommendation will remain open pending our
      receipt of documentation that the modified CSAT is implemented.

      Management Response to Recommendation #2: NPPD concurred with
      Recommendation 2. In its response, NPPD said they agree that documenting
      engagement between DHS regulatory and voluntary programs to identify and,
      where appropriate, implement existing tools and processes that can be
      leveraged to make the CFATS Program more efficient and effective is a
      worthwhile goal, and they are committed to doing so. However, NPPD strongly
      disagree that the voluntary and regulatory programs have not previously
      collaborated and our claim that ISCD management has separated the IP
      voluntary and regulatory programs in a manner that impedes ISCD’s ability to
      identify and apply best practices for its program.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 2,
      which is resolved and open. This recommendation will remain open pending our
      receipt of dates, times, attendees, and meeting minutes for collaboration
      between voluntary and regulatory programs. In addition, NPPD should provide
      us documentation showing how this collaboration has resulted in leveraging pre-
      existing tools and processes for the CFATS Program.


      SSP Review Process Has Hindered CFATS Program Progress

      Despite ISCD receiving thousands of SSPs from facilities since July 2009, the first
      SSP was not approved until September 2012. Initial SSP submissions did not
      provide sufficient information for authorization and approval. In addition,
      ineffective communication within headquarters and with Chemical Security
      Inspectors complicated and delayed the review process. As a result, an SSP
      backlog developed, and ISCD staff perceived pressure to authorize and approve
      SSPs. ISCD leadership acknowledged the challenges with the SSP review process
      and established a working group to modify it.

      Issues With SSP Quality and Ineffective Communication Within ISCD

      During our fieldwork, the Federal Review Center (FRC) within ISCD’s Compliance
      Branch reviewed SSPs and ASPs. Three groups composed the FRC: chemical
      security, cyber security, and physical security. Once a facility submitted an SSP
      through the CSAT, Oak Ridge National Laboratory sent the SSP with a workbook
      to ISCD. The workbook contained a protective measure index for each RBPS,
      against which ISCD evaluated the SSP. ISCD established a scoring system for SSPs


www.oig.dhs.gov                            17                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      that ranges from 1 to 100; SSPs receiving below a certain numeric threshold are
      considered “unfavorable.” When reviewing initial SSPs received, the FRC was
                                F




      unable to make any favorable determinations because of insufficient information
      in the SSPs.

      To address poor SSP quality and unique site characteristics of facilities, ISCD
      created the Pre-Authorization Inspection in 2010. During this inspection,
      Chemical Security Inspectors visited facilities to inform owners/operators how to
      submit SSPs properly. ISCD employees said that the pre-authorization inspection
      improved subsequent SSP submissions, but many were still not adequate for
      authorization. While the CFATS Interim Final Rule does not require a Pre-
      Authorization Inspection, ISCD used it as a means to assist facilities improve the
      information and quality of their submissions. With this information, ISCD would
      be in a better position to move forward with authorizing SSPs. Many ISCD
      employees said that ISCD should have stopped the review process and revised
      the CSAT after identifying problems with SSPs, because ISCD could not authorize
      inadequate SSPs.

      Another issue in the SSP review process was inefficient communication within
      ISCD and between ISCD and facilities. Although the FRC subject matter experts
      were tasked with reviewing facility SSPs, it was ISCD practice that the FRC not
      contact facilities directly. When there were questions concerning a facility’s SSP
      submission, direct communication with the facility was limited to headquarters
      compliance case managers and field Chemical Security Inspectors. As a result,
      some FRC officials used internet searches to find facility information, and then
      contacted the Chemical Security Inspectors when additional information was
      required.

      Perceived Pressure To Approve SSPs

      ISCD employees felt pressured to determine SSPs as favorable. SSPs that are
      determined unfavorable by the FRC are sent to a technical panel, the Quality
      Assurance Quality Control group, and then to the compliance case manager, and
      require a consultation with DHS’ Office of General Counsel (OGC) representatives
      to NPPD. ISCD employees described instances when the Quality Assurance
      Quality Control group returned unfavorable SSP determinations to the technical
      panel for additional review, which ISCD employees interpreted as pressure to
      overturn the determination and declare the SSP favorable. Quality Assurance
      Quality Control group members were not technical experts, and multiple ISCD
      employees questioned the documentation for overruling unfavorable
      determinations. ISCD employees thought it would be better to deem the SSP
      unfavorable during the FRC review than at a Chemical Security Inspector


www.oig.dhs.gov                           18                                   OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         Authorization Inspection. Informing facilities of SSP issues during the review
         process allows for corrections to be made prior to Authorization Inspections,
         which saves time and resources for both the industry and ISCD.

         Leadership Acknowledged SSP Review Challenges and Proposed New Processes

         When the Compliance Branch started receiving SSPs in July 2009, there were no
         formal policies or procedures, and only one official directed all subordinates and
         branch activities. Personality issues resulted in differences of opinion on how to
         review and authorize SSPs. For example, this same official thought every facility
         had to pass each RBPS metric, which was contrary to the CFATS regulation. As a
         result, ISCD used a metric-by-metric approach and was unable to authorize most
         SSPs received, which contributed to a backlog.

         Addressing SSP Backlog

         IP leadership said it was made aware of SSP review status and associated backlog
         challenges in June 2010; however, the extent of the backlog was not conveyed to
         them. Designing a long-term SSP review process became an action item on the
         November 2011 internal ISCD memorandum’s action plan. ISCD established an
         SSP Working Group in March 2012 to develop a long-term review process that is
         consistent, defensible, and timely. The working group encountered challenges in
         analyzing the SSP review process since only a few SPPs had been authorized or
         conditionally authorized as of June 2012. Conditional authorization is a caveat
         created in 2011 to move SSPs forward by adding specific technical conditions
         that must be addressed during a Chemical Security Inspector facility
         Authorization Inspection.

         The RBPS guidance for authorizing SSPs makes it difficult for reviewers to decide
         whether the level of security is appropriate at the tiered facility. As a result, the
         SSP Working Group replaced the metric-by-metric approach with a holistic
         approach in June 2012. Under the holistic approach, SSPs have to satisfy all
         applicable RBPS only to a degree commensurate with their assigned tier. The
         SSP Working Group drafted a report in June 2012, which proposed an SSP and
         ASP Long-Term Review Process. 9 The report described the thousands of pending
                                               8 F




         SSPs as a “tsunami headed right for a process that has been documented to be
         slow to mature and confusing to many of the active participants.” In its analysis

9
 This document analyzes ways and means to execute SSP review, authorization, and inspection as
required by the CFATS regulation. The key objectives of this analysis were to (1) identify courses of action
to achieve an effective and efficient long-term SSP and ASP review process; and (2) using the long-term
process as a framework, provide near-term solutions to the current SSP review backlog.


www.oig.dhs.gov                                      19                                          OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      of the existing process, the SSP Working Group estimated that the rate of SSPs
      advancing to the authorization stage is less than 120 per year, requiring 70 years
      to complete all SSP reviews.

      According to the June 2012 report, with existing field personnel and using an
      average of three Chemical Security Inspectors per inspection, ISCD would be able
      to complete 813 inspections per year. With the requested addition of 32
      Chemical Security Inspectors in fiscal year (FY) 2014 and 32 more in FY 2015, the
      estimated date to complete the backlog would be FY 2018. However, these
      requests were not approved and the CFATS Program did not receive the
      additional inspectors.

      Modifying SSP Review Process

      In June 2012, the SSP Working Group also proposed a new SSP review process to
      include a Standardization & Evaluation Group, which was described as a
      compilation of representatives from the technical panel, Quality Assurance
      Quality Control Group, policy, and Chemical Security Inspectors. Compliance
      case managers will guide facilities through the CFATS process from Top Screen to
      SSP final approval. ISCD leadership said that in the long term, ISCD will probably
      start assigning compliance case managers to the field to enhance working
      relationships. Figure 3 shows the steps of the SSP authorization process.




www.oig.dhs.gov                           20                                   OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Figure 3: SSP Authorization Process 





Source: OIG Analysis of ISCD Data.





www.oig.dhs.gov                                21                   OIG-13-55

                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           To develop the new SSP review process, the SSP Working Group compared how
           regulatory programs at other departments and agencies, such as the
           Transportation Security Administration (TSA) and USCG, review and approve
           security plans. This review determined that most plans are generally approved
           at the regional level, with headquarters elements providing guidance, policy, and
           oversight. Most personnel are in the field, with only a small support staff at
           headquarters.

           Several Chemical Security Inspectors said that SSP reviews should begin in the
           field to determine whether plans are sufficient for headquarters review. One
           field employee said that inspectors reviewing the SSPs would provide greater
           consistency, and inspectors could reduce the backlog because of the number of
           staff spread across 10 regions. As of October 2012, there were 114 Chemical
           Security Inspectors and nine support personnel dedicated to field operations.
           However, concerns about the consistent application of ISCD processes across
           field regions remain and undermine the viability of this option. In addition, the
           SSP Working Group determined that ISCD is not currently structured, and does
           not have established policies or Chemical Security Inspectors trained, to support
           decentralized program implementation. 10      9 F




           In addition, the June 2012 report recommended that a cross-training program be
           established within ISCD to facilitate integration of the two levels—headquarters
           to region and region to headquarters—to be based on personnel development
           requirements. 11 Several inspectors agreed that rotational assignments to the
                           10 F




           FRC would provide the FRC with the personnel and field perspective needed to
           review the SSPs.

           As of October 15, 2012, ISCD has authorized or conditionally authorized 95 SSPs
           and conditionally approved 3 SSPs. Compliance Inspections for facilities with
           conditionally approved SSPs should begin in the fourth quarter of FY 2013. ISCD
           has begun to define processes and procedures for the Compliance Inspections
           and to train inspectors accordingly. ISCD leadership hopes to start conducting 40
           Authorization Inspections per month in January 2013. ISCD continues to work on
           developing new procedures for SSP reviews and plans to have all Tier 1 and Tier
           2 facilities approved by April or May 2014.




10
     SSP and ASP Long Term Process Review, June 2012 Draft Report (FOUO), p. 28.
11
     Ibid, p. 31.


www.oig.dhs.gov                                     22                             OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Recommendations

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #3:

      Provide evidence of how the revised long-term Site Security Plan review process
      has reduced the Site Security Plan backlog for all tiers.

      Recommendation #4:

      Define, develop, and implement processes and procedures for Compliance
      Inspections, and train CFATS personnel to conduct Compliance Inspections.

      Management Comments and OIG Analysis

      Management Response to Recommendation #3: NPPD officials concurred with
      Recommendation 3. In its response, NPPD said the updated SSP authorization,
      inspection, and approval rates currently occurring demonstrate that the updated
      SSP review process is reducing the SSP backlog for all tiers, beginning with Tiers 1
      and 2. During the first half of 2012, ISCD clarified some of the policies regarding
      SSP reviews, finalized the development of a new SSP review process, trained SSP
      reviewers on the new process, developed a CFATS Inspections Standard
      Operating Procedure, and trained the entire CFATS Chemical Security Inspector
      Cadre on the new inspections procedures.

      From October 2012 through January 2013, ISCD completed its review of all Tier 1
      facility SSPs and authorized an average of 36 SSPs per month, with a high total of
      47 authorizations in January 2013. ISCD is projecting authorizations to hold at
      this pace, with 40 to 50 authorizations expected each month for the remainder
      of the fiscal year. ISCD is projecting a steady increase in the number of approvals
      going forward, with 30 to 50 per month expected starting in March 2013. ISCD
      intends to continue to track and report on these statistics, and believes the
      statistics clearly demonstrate the revised SSP process and other improvements
      have dramatically increased SSP throughput and are reducing the SSP backlog.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 3,
      which is resolved and open. This recommendation will remain open pending our
      receipt of monthly statistics on the number of conditional authorizations,
      authorizations, and approvals for FY 2013. Each monthly report should include
      the total number of outstanding SSPs.


www.oig.dhs.gov                            23                                   OIG-13-55

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Management Response to Recommendation #4: NPPD officials concurred with
           Recommendation 4. In its response, NPPD said it agrees that it is imperative to
           ensure that processes and procedures for scheduling and performing all CFATS
           inspections, including Compliance Inspections, are well documented and that
           CFATS personnel who conduct inspections are trained on how to properly
           conduct inspections. To that end, ISCD has developed a Standard Operating
           Procedure for Inspections of CFATS Covered Facilities, which defines the
           different types of inspections conducted by ISCD, enumerates roles and
           responsibilities related to inspections, and details processes and standard
           operating procedures for pre-inspection, inspection, and post-inspection
           activities.

           During the summer of 2012, all of ISCD’s CFATS Inspectors participated in one of
           five, 2 week training sessions on the new ISCD Inspection protocols. NPPD
           officials said that many of the lessons taught during the 2 week sessions are
           equally applicable to Compliance Inspections. NPPD intends to provide
           additional training more specific to Compliance Inspections to all of its Chemical
           Security Inspectors prior to their beginning to conduct those inspections in
           September 2013.

           OIG Analysis: We consider NPPD’s actions responsive to Recommendation 4,
           which is resolved and open. This recommendation will remain open pending our
           receipt of training materials and implementation schedules specific to
           Compliance Inspections.


           Facility Submissions Are Not Processed Timely

           According to the preamble to the CFATS Interim Final Rule, “DHS expects that it
           will complete its review of the Top Screen, SVA, and SSP within 60 days” after
           submission. 12 Table 3 shows an analysis of 619 Tier 1 and Tier 2 facility
                          1 F




           submissions and ISCD response time. DHS completed its review of less than 10
           percent of the 619 facilities within the 60 day timeframe. In addition, some Tier
           1 and 2 facilities have not had a Compliance Assistance Visit (CAV), Pre-
           Authorization Inspection, or Authorization Inspection since submitting SSPs to
           the CFATS Program in September 2009.




12
     Chemical Facility Anti-Terrorism Standards; Interim Final Rule, 72 FR 17704, April 9, 2007.


www.oig.dhs.gov                                         24                                         OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


      Table 3: ISCD Response Times to Facility Submissions

                                                                Longest Observed Time
           Type of Facility        Average Time To Receive
                                                                   To Receive Tier
             Submission                Tier Assignment
                                                                     Assignment
        Initial Top Screen               4.8 months                  12 months
        Updated Top Screen               6.9 months                  30 months
        SVA                              7.5 months                  18 months
      Source: OIG analysis.

      Although ISCD has developed a new long-term process for reviewing SSPs,
      industry remains concerned about the time it takes to provide facilities with tier
      assignments. The data in table 3 represent only the 619 Tier 1 and 2 facilities;
      however, the CFATS Program must also regulate 3,784 Tier 3 and Tier 4 facilities.
      While ISCD officials said CFATS is primarily focused on Tier 1 and Tier 2 facilities,
      the program should be mindful that it must regulate facilities in all tiers for being
      high-risk.

      Recommendation

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #5:

      Identify and implement a process to improve the timeliness of ISCD
      determinations for all facility submissions.

      Management Comments and OIG Analysis

      Management Response to Recommendation #5: NPPD officials concurred with
      Recommendation 5. In its response, NPPD said it recognizes that responding to
      facility submissions in a timely fashion is important for the credibility of the
      program and continues work to reduce response times.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 5,
      which is resolved and open. This recommendation will remain open pending our
      receipt of monthly reports on ISCD response times to facility submissions for FY
      2013.




www.oig.dhs.gov                             25                                   OIG-13-55

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Facility Resubmissions and Requests for Redeterminations Are Not Addressed
           Properly or Timely

           Some facilities change their use and quantities of certain COIs; material changes
           require resubmissions to ISCD. Facilities must resubmit a Top Screen when there
           are material changes to operations or sites, referred to in the CFATS regulation
           as material modifications, and changes in ownership. 13 The regulation also
                                                                            12 F




           requires resubmission of Top Screens, SVAs, and SSPs at 2- or 3-year intervals,
           depending on tier level. In addition, a facility may seek a redetermination of its
           tier level by filing a request with IP’s Assistant Secretary. Because the chemical
           industry is dynamic, the CFATS Program should not employ static processes.

           According to the CFATS regulation, facilities may request a redetermination,
           which ISCD should address within 45 days. Industry officials were submitting
           redetermination requests, but in many cases ISCD did not act or respond within
           the 45 days required. For example, in November 2010, an ISCD employee went
           to Oak Ridge National Laboratory to discuss redetermination requests and
           discovered hundreds of pending requests. After a review, ISCD identified a
           backlog of 656 requests that developed after several ISCD senior staff decided
           that facilities should not be allowed to “tier out” of the CFATS Program based on
           a redetermination. The prevailing mindset was that facilities would try to
           manipulate the CFATS process to circumvent regulation. ISCD senior staff
           continued to view these facilities as high risk despite changes in processes.

           ISCD officials told ISCD staff that the CFATS Program was not built to address
           multiple requests from one facility. Therefore, when a facility submits its Top
           Screen, it is on one track throughout the CFATS process, since ISCD did not have
           the resources to open a second track. As a result, Chemical Security Inspectors
           visited facilities that were either abandoned, had been purchased by another
           company, or had removed the COI entirely. This occurred because ISCD was
           using determinations based on original facility submissions, some dating back to
           2009, which was an inefficient use of time and resources for both industry and
           ISCD. Once staff in the Compliance Branch discovered the issue, they spent from
           Fall 2010 until Summer 2011 trying to clear the backlog. As of October 2012, the
           program was still experiencing a backlog.




13
     Chemical Facility Anti-Terrorism Standards; Interim Final Rule, 72 FR 17702, April 9, 2007.


www.oig.dhs.gov                                         26                                         OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Recommendation

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #6:

      Develop a strategy and implement a plan to address facility resubmissions and
      requests for redetermination as prescribed in the CFATS regulation.

      Management Comments and OIG Analysis

      Management Response to Recommendation #6: NPPD officials concurred with
      Recommendation 6. In its response, NPPD said that ISCD has established draft
      procedures and policies for receiving, reviewing, and responding to facility
      resubmissions and requests for redetermination. ISCD also has provided
      guidance to facilities on how to properly request a redetermination and file a
      resubmission, established criteria for how to effectively process the requests,
      and determined appropriate review and analysis channels. Each request is
      reviewed to determine whether the resubmission significantly affects the
      facility’s processes and chemicals, or only has minor impacts. This determination
      allows ISCD to identify the appropriate next steps involving the facility, which
      may include a CAV, new tiering determination, updated SVA, updated SSP,
      and/or other action.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 6,
      which is resolved and open. This recommendation will remain open pending our
      receipt of finalized standard operating procedures and policies for receiving,
      reviewing, and responding to facility resubmissions and requests for
      redetermination.


      Management of the Personnel Surety Program Resulted in Premature
      Expenditure of Funds

      RBPS-12, Personnel Surety, requires regulated facilities to perform background
      checks and ensure credentials for facility personnel, and for unescorted visitors
      with access to restricted areas or critical assets. This includes measures designed
      to (1) verify and validate identity; (2) check criminal history; (3) verify and
      validate legal authorization to work; and (4) identify people with terrorist ties.
      Regulated chemical facilities are required to address how they will comply with
      RBPS-12 in their SSP. However, identifying individuals with terrorist ties is an


www.oig.dhs.gov                           27                                   OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


         inherently governmental function and requires the use of information in the
         Federal Government watchlist. The watchlist is sensitive but unclassified, and is
         unavailable to regulated chemical facilities. To allow for RBPS-12 compliance,
         NPPD is developing the Personnel Surety Program.

         Personnel Surety Checks

         Through the Personnel Surety Program, NPPD is proposing to conduct terrorist
         screening using information submitted by facilities about “affected
         individuals.” 14 Once affected individuals are identified, regulated facilities will
                         13 F




         then submit the required information to NPPD through CSAT. Table 4 shows the
         information that facilities must submit.

         Table 4: Personnel Surety Submission Data
            Data Elements Submitted to CFATS                 U.S. Persons           Non-U.S. Persons

          Full Name                                                          Required

          Date of Birth                                                      Required

          Gender                                            Must provide                 Optional
                                                            Citizenship or
          Citizenship                                           Gender                   Required
          Passport Information and/or
                                                                  N/A                    Required
          Alien Registration Number
          Aliases                                                            Optional

          Place of Birth                                                     Optional

          DHS Redress Number 15    14 F                                      Optional
         Source: May 2011 DHS Privacy Impact Assessment for Personnel Surety.

         Once the information is submitted, NPPD sends the facility a verification of the
         submission. NPPD is then responsible for vetting affected individuals’
         information against the Terrorist Screening Database (TSDB). The Terrorist
         Screening Center (TSC) maintains the TSDB, which contains “information about



14
   The May 2011 DHS Privacy Impact Assessment for the Personnel Surety Program defines affected
individuals as facility personnel and unescorted visitors with access to restricted areas or critical assets.
15
   The Redress Control Number is the record identifier for people who apply for redress through DHS
Traveler Redress Inquiry Program. This program is a single point of contact for individuals who have
inquiries or seek resolution regarding difficulties they experienced during their travel screening at
transportation hubs or crossing U.S. borders.


www.oig.dhs.gov                                        28                                           OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


        individuals known or appropriately suspected to be or have been engaged in
        conduct constituting, in preparation for, in aid of, or related to terrorism.…” 16          15 F




        The TSC is staffed with employees from the various Federal departments and
        agencies it supports. DHS components authorized to be assigned to the TSC
        include staff from USCG, TSA, U.S. Immigration and Customs Enforcement, U.S.
        Customs and Border Protection, U.S. Citizenship and Immigration Services, U.S.
        Secret Service, and OGC. According to ISCD staff, TSC officials offered NPPD
        officials the opportunity to place a detailee in the TSC to conduct CFATS TSDB
        vetting at no cost. Despite this offer, ISCD decided to use TSA to conduct CFATS
        TSDB vetting. ISCD officials said one reason they decided to use TSA so that ISCD
        could ensure situational awareness when there is a positive match at a chemical
        facility. However, ISCD has no authority or ability to investigate a chemical
        terrorist threat, and it cannot identify individuals with terrorist ties without TSC
        information.

        NPPD intends to leverage other DHS component TSDB vetting results on affected
        individuals by collecting information to verify that the affected individual is
        currently enrolled in a DHS program that also requires a TSDB check equivalent
        to the planned CFATS Personnel Surety Program. These DHS programs are—

             •   Transportation Worker Identification Credential (TWIC™) 17           16F




             •   Hazardous Material Endorsement 18         17F




             •   Trusted Traveler Programs, including
                    o NEXUS 19    18
                                  F




                    o Free and Secure Trade 20       19F




16
   Homeland Security Presidential Directive-6, Integration and Use of Screening Information to Protect
Against Terrorism (September 16, 2003).
17
   The TWIC™ program is a TSA and USCG initiative that provides a tamper-resistant biometric credential
to maritime workers requiring unescorted access to secure areas of facilities and vessels regulated under
the Maritime Transportation Security Act, and all USCG credentialed merchant mariners. To obtain a
TWIC™, an individual must pass a TSA security threat assessment.
18
   TSA conducts a security threat assessment for any driver seeking to obtain, renew, or transfer a
hazardous materials endorsement on a State-issued commercial driver’s license.
19
   The NEXUS program allows prescreened travelers expedited processing by U.S. and Canadian officials
through dedicated processing lanes at designated northern border ports of entry, at NEXUS kiosks at
Canadian Preclearance airports, and at marine reporting locations.
20
   The Free and Secure Trade program is a commercial clearance program for known low-risk shipments
entering the United States from Canada or Mexico. This program allows for expedited processing of
commercial carriers who have completed background checks and fulfill certain eligibility requirements.


www.oig.dhs.gov                                     29                                         OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                     o Secure Electronic Network for Travelers Rapid Inspection 21          20 F




        NPPD Is Paying TSA To Vet Names Although No Names Have Been Submitted 


        In April 2010, ISCD management conducted an analysis of alternatives and
        decided to use TSA’s services for CFATS vetting capabilities. Since April 2010,
        even though the Personnel Surety Program is not in effect, NPPD has paid TSA
        more than $7.7 million to conduct TSDB vetting. ISCD leadership said that funds
        are paid to TSA to establish and then maintain the vetting capability at TSA;
        cover an appropriate portion of the underlying vetting infrastructure costs at
        TSA; conduct some vetting; and provide future positive match support. Funds
        were provided prior to the CFATS Personnel Surety Program implementation so
        that TSA would have adequate time to establish the specific CFATS vetting
        capabilities, and be ready to support CFATS as soon as the Personnel Surety
        Program went live. NPPD also has an interagency agreement with U.S. Customs
        and Border Protection, which provided $67,500 to verify that an affected
        individual is enrolled in one of the Trusted Traveler programs. Some ISCD staff
        said they wanted to identify alternate ways to conduct TSDB searches, but were
        prohibited from doing so. TSC officials offered NPPD officials the opportunity to
        place a detailee in the TSC to conduct CFATS TSDB vetting. However, the DHS
        Integrated Planning Guide FYs 2011-2015 directs DHS programs to use TSA’s
        enterprise vetting service for all transportation/private sector programs, which
        would include the CFATS Program.

        ISCD is still in the early stages of developing the Personnel Surety Program. In
        July 2011, ISCD submitted the program’s Information Collection Request to the
        Office of Management and Budget for review and approval; however, ISCD
        withdrew its request in July 2012. 22 ISCD leadership said thinking evolved on the
                                                2 F




        Personnel Surety Program since the initial request and ISCD wanted to ensure
        that more vigorous conversation with stakeholders took place. As of October
        2012, ISCD leadership said that they expect to resubmit the Information
        Collection Request to the Office of Management and Budget.




21
   The Secure Electronic Network for Travelers Rapid Inspection provides expedited U.S. Customs and
Border Protection processing to preapproved, low-risk travelers for travel between the United States and
Mexico. Applicants undergo a thorough biographical background check against criminal, law
enforcement, customs, immigration, and terrorist indices.
22
   An Information Collection Request is a set of documents that describe reporting, record keeping,
survey, or other information collection requirements imposed on the public by DHS or any other Federal
agency. Each request must approved by the Office of Management and Budget before a collection begins.


www.oig.dhs.gov                                       30                                           OIG-13-55

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Recommendation

           We recommend that the Director of the Infrastructure Security Compliance
           Division:

           Recommendation #7:

           Limit funding for Personnel Surety Program vetting until the Office of
           Management and Budget has approved the program’s Information Collection
           Request.

      Management Comments and OIG Analysis
      B2




      Management Response to Recommendation #7: NPPD officials non-concurred
      with Recommendation 7. In its response, NPPD said they will continue to
      perform careful and deliberate analysis prior to the expenditure of any funds
      related to the CFATS Personnel Surety Program, and will only allocate funding
      when deemed appropriate given all relevant factors. The status of the
      Information Collection Request is simply one of those factors, albeit an
      important one. Consequently, the Department cannot concur with limiting
      funding to the Personnel Surety Program based solely on the status of the
      Information Collection Request without considering all of the other factors that
      go into the determination of how and when to fund the CFATS Personnel Surety
      Program.

      OIG Analysis: Although NPPD did not concur, we consider NPPD’s actions
      responsive to Recommendation 7, which remains resolved and open. This
      recommendation will remain open pending our receipt of documentation that
      the Office of Management and Budget has approved the Personnel Surety
      Program Information Collection Request and that ISCD has sent names to TSA for
      vetting.


      Congress Provided ISCD Additional Chemical Security Regulatory Responsibility

      Section 563 of the FY 2008 DHS Appropriations Act, Public Law 110-161, amends
      the Homeland Security Act of 2002, and authorizes DHS to “regulate the sale and
      transfer of ammonium nitrate by an ammonium nitrate facility…to prevent the
      misappropriation or use of ammonium nitrate in an act of terrorism.” Congress
      directed NPPD to “provide a plan to implement this new provision, including an
      analysis of the resources required to do so, and a proposal for reallocating
      funding within the NPPD for doing so.”


www.oig.dhs.gov                              31                                OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



      Ammonium nitrate is a chemical that exists in multiple concentrations and
      physical forms, and each concentration or form may have different security
      implications. Ammonium nitrate is generally used as a fertilizer; however, it is
      widely used as an explosive particularly in mining operations. The Department is
      primarily concerned with its use as an explosive. When combined with fuel oil in
      the proper proportions it can create an explosive mixture. Ammonium nitrate
      explosive mixtures are regulated by the Bureau of Alcohol, Tobacco, Firearms,
      and Explosives, and the Department of Transportation, which regulates
      explosives for the purpose of preventing incidents during transportation.
      Ammonium nitrate was used in the 1995 attack on the Alfred P. Murrah Federal
      Building in Oklahoma City, OK, and was one of the chemicals used in the May
      2010 attempted Times Square bombing in New York, NY.

      ISCD has been given responsibility to develop and implement the Ammonium
      Nitrate Program. The following categories are expected to be included in the
      program:

          •   Registration activities, including TSDB checks,
          •   Seller verification of purchaser’s registration and identity,
          •   Record keeping,
          •   Reporting theft and loss of ammonium nitrate,
          •   Inspections and audits, and
          •   Civil penalties and adjudications.

      As of October 2012, the Ammonium Nitrate Program is still in the rulemaking
      process. A small team within ISCD is developing the Ammonium Nitrate
      Program; however, they have determined it difficult to build the program
      without clear guidance. ISCD is moving forward with a dual-functioning
      inspector cadre and will be hiring up to 18 inspectors for the Ammonium Nitrate
      Program and cross-training them on the CFATS Program. The ultimate goal is to
      have the Ammonium Nitrate Program start in FY 2014.

      Recommendations

      We recommend that the Director of the Infrastructure Security Compliance
      Division:




www.oig.dhs.gov                             32                                OIG-13-55

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Recommendation #8:

           Develop an action plan and guidance for implementing the Ammonium Nitrate
           Program, which incorporates lessons learned from CFATS Program challenges.

           Recommendation #9:

           Develop and implement a curriculum and timeline for training inspectors to
           perform both Ammonium Nitrate and CFATS Program duties and responsibilities.

      Management Comments and OIG Analysis
      B3




      Management Response to Recommendation #8: NPPD officials concurred with
      Recommendation 8. In its response, NPPD said the Ammonium Nitrate Security
      Program is a proposed regulatory program, its development is guided in large
      part by the regulations and procedures set forth in the Administrative Procedure
      Act, the authorizing statute, and Office of Management and Budget guidance
      with respect to rulemaking activities. NPPD has been working within the
      parameters established by those items to develop a final rule, action plan, and
      guidance for implementing the final rule. NPPD/IP has recently assigned a
      member of the Senior Executive Service to oversee the development and
      implementation of the proposed Ammonium Nitrate Security Program.

      Throughout the rulemaking and planning process, ISCD has been evaluating
      lessons learned from the CFATS Program and incorporating them into the
      development of the Ammonium Nitrate Security Program rulemaking activities
      and implementation planning. In particular, ISCD believes there are a number of
      programmatic similarities between the proposed Ammonium Nitrate Security
      Program and the proposed CFATS Personnel Surety Program. NPPD intends not
      only to apply lessons learned from CFATS Personnel Surety efforts to the
      Ammonium Nitrate Security Program, but also to take advantage of
      relationships, processes, information technology, and other aspects of the CFATS
      Personnel Surety Program to the maximum extent possible.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 8,
      which is resolved and open. This recommendation will remain open pending our
      receipt of an action plan with milestones for implementing the Ammonium
      Nitrate Security Program and its accompanying guidance.

      Management Response to Recommendation #9: NPPD officials concurred with
      Recommendation 9. In its response, NPPD said that ISCD is committed to
      ensuring that all personnel receive and maintain the appropriate level and scope


www.oig.dhs.gov                             33                                OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      of mission-specific training in support of CFATS and Ammonium Nitrate Security
      Program implementation. This includes training not only for inspectors, but also
      for those individuals performing compliance, policy, and other activities in
      support of CFATS. Training for these personnel will be developed and executed
      over the next 2 years in a prioritized manner that best ensures ISCD’s ability to
      complete its mission.

      In support of this effort, ISCD will develop, implement, update, and maintain
      training programs as required, using the Analysis, Design, Development,
      Implementation, and Evaluation model of Instructional System Design as the
      baseline framework. ISCD officials said this framework will ensure that any
      training content is instructionally sound and adheres to DHS and Federally
      approved technology standards and regulations.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 9,
      which is resolved and open. This recommendation will remain open pending our
      receipt of the training curriculum and implementation timelines.


      Confusing Terminology and Absence of Appropriate Metrics Led to
      Misunderstandings of CFATS Program Progress

      When Congress granted DHS the authority to regulate high-risk chemical
      facilities, it required that an interim final rule be issued within 6 months. While
      DHS met this deadline when it published the CFATS Interim Final Rule in 2007,
      there appeared to be confusion throughout ISCD about the 6-month
      requirement. Some ISCD employees interpreted the statute as a mandate to
      stand up and implement the CFATS Program within 6 months.
      Misinterpretations of congressional intent may have put unnecessary pressure
      on ISCD to develop and implement the CFATS Program, resulting in poor
      management oversight and internal controls, personnel issues, and missed
      milestones.

      ISCD Used Ambiguous Language To Describe CFATS Program Progress

      Representing CFATS Program progress accurately is complicated because ISCD
      has used confusing terminology. For example, there are various interpretations
      within ISCD of what actually constitutes a chemical facility inspection. The
      introduction of Pre-Authorization Inspections in 2010 allowed ISCD to
      demonstrate results toward compliance, although the described objective of a
      Pre-Authorization Inspection is nearly identical to a CAV. Some ISCD employees
      view these as separate activities; in a CAV, inspectors learn about a facility during


www.oig.dhs.gov                            34                                    OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        a site visit, whereas a Pre-Authorization Inspection focuses more on inspectors
        fine-tuning an SSP during a site visit.

        In several congressional briefings, ISCD officials counted the Pre-Authorization
        Inspection and CAV as separate activities, with Pre-Authorization Inspections
        under the inspections category and CAVs under enforcement. ISCD leadership
        identified this issue and stopped referring to these activities as Pre-Authorization
        Inspections and instead included them under the CAV terminology. However,
        the terms “pre-authorization” or “preliminary” inspection continue to be used by
        ISCD staff and in congressional briefings. While these activities are productive,
        none are required under the CFATS regulation and should not be used as a
        primary source for portraying program progress.

        As shown in table 5, ISCD has completed 1,293 Authorization Inspections, Pre-
        Authorization Inspections, and CAVs. At most, these activities represent less
        than one-third of the total 4,403 CFATS-regulated facilities, because Chemical
        Security Inspectors performed CAVs and Pre-Authorization Inspections at some
        of the same facilities where they conducted Authorization Inspections.

        Table 5: Inspections and Compliance Visits by Fiscal Year
           Fiscal      Authorization       Pre-Authorization          Compliance
                                                                                            Totals
           Year         Inspections           Inspections           Assistance Visits
           2008             N/A                    N/A                     99                 99
           2009             N/A                    N/A                     90                 90
           2010              3                     119                     107               229
           2011              6                      61                     534               601
           2012              10                    N/A                     264               274
           Totals            19                    180                    1,094             1,293
        Source: ISCD, August 29, 2012.

        Department officials testifying before Congress frequently used ambiguous
        terms when discussing CFATS Program progress. For example, in a congressional
        hearing on March 6, 2012, NPPD’s Under Secretary said that ISCD will “finish the
        site security plan reviews for the Tier 1 facilities in the next several months.” It is
        unclear, however, whether “reviews” refers to the processing and basic review
        of an SSP or the actual SSP authorization. 23 In addition, the terms “authorized,”
                                                         23 F




23
   U.S. House Committee on Homeland Security, Subcommittee on Cyber Security, Infrastructure
Protection and Security Technologies, The Chemical Facility Antiterrorism Standards Program: Addressing
its Challenges and Finding a Way Forward, Hearing, March 6, 2012.


www.oig.dhs.gov                                   35                                        OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


             “conditionally authorized,” and “approved” are sometimes used interchangeably
             during congressional testimony, which leads to even greater confusion.

             By simplifying the program into a 12-step process, Department officials also used
             confusing terminology that led to misunderstandings of CFATS Program progress.
             For example, during a hearing on March 6, 2012, NPPD’s Under Secretary
             testified that ISCD was in the 10th step of this process and said that NPPD “has
             come a long way from the beginning of the program.” 24 As shown in figure 4,
                                                                    24 F




             Step 10 is the facility submission of an SSP and an ASP, which has been occurring
             since July 2009. In addition, Steps 1, 2, and 3 are administrative steps to initiate
             the CFATS process, and should not be counted toward program progress. This
             flowchart has been used in congressional briefings since 2010. Further, Steps 11
             and 12 include multiple activities that could be broken down further, which
             would be consistent with how previous steps are presented. The flowchart does
             not explain what occurs following SSP approval or disapproval, and does not
             articulate the CFATS Program compliance cycle accurately.




24
     Ibid.


www.oig.dhs.gov                                   36                                   OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         Figure 4: ISCD CFATS 12 Step Process 25       25 F




         Source: ISCD briefings to Congress. 





25
  In Step 1, STQ refers to the Screening Threshold Quantity; there is a Screening Threshold Quantity for
each COI, which when present at a facility requires the completion and submission of a Top Screen. In
Step 2, CVI refers to Chemical-terrorism Vulnerability Information, which may reveal current
vulnerabilities or other details of a chemical facility’s security capabilities that could be exploited by
terrorists. DHS sets rules for the protection of Chemical-terrorism Vulnerability Information.


www.oig.dhs.gov                                      37                                          OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


      ISCD Has Difficulty Measuring CFATS Program Performance

      Initial CFATS Program milestones were the number of facilities covered under
      the regulation and how many Top Screen, SVA, and SSP submissions were
      received and reviewed. Due to limited inspection activities, the Department
      counts the number of facilities that have reduced or withdrawn the levels of COIs
      required for regulation under CFATS as proof of the program’s progress. While
      this is a positive occurrence, it is not the purpose of the CFATS Program. CFATS
      was created to ensure the security of facilities. Relying on “fewer regulated
      facilities” as a measure of success does not reflect the program’s added value in
      reducing risks at regulated facilities.

      Projections for achieving CFATS Program milestones are not realistic. For
      example, in a 2011 response to Chairman Shimkus of the House Energy and
      Commerce, Subcommittee on Environment and the Economy, NPPD stated that
      the “Department is committed to meeting the goal of completing Tier 1 SSP
      reviews and issuing for each Tier 1 facility within calendar year 2011 either (1) a
      conditional authorization letter followed by the scheduling of an Authorization
      Inspection, or (2) a warning letter informing the facility that its SSP submission
      does not contain security measures that are adequate to meet applicable risk-
      based performance standards.” However, as of October 2012, these actions
      have not been completed, even though they have been communicated to
      Congress and were described in project management plans for the program.

      Further, the majority of inspector activities consist of noninspection work, such
      as outreach to State and local emergency services, and facility meet and greets.
      As a result, it is challenging to measure the benefit of outreach and engagement
      activities. Table 6 shows facility outreach activities as provided by ISCD. While
      building relationships with industry and governmental partners is important, it is
      not an effective measure for determining progress in a regulatory program.

      Table 6: Facility Outreach Activities by Fiscal Year
         Fiscal                                         Stakeholder
                    Meet/Greet        Presentations                       Total
         Year                                            Outreach
         2008                    29               161               8         198
         2009                   136               147         no data         283
         2010                   385               102           1,634       2,121
         2011                 1,124               131           2,644       3,899
         2012                 2,310               116           1,604       4,030
       Source: ISCD data. 





www.oig.dhs.gov                              38                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      There is also the concern that inspector outreach activities are similar to those
      activities performed by IP’s Protective Security Advisors.

      Recommendation

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #10:

      Develop and implement program metrics that measure CFATS Program value
      accurately and demonstrate the extent to which risk has been reduced at
      regulated facilities.

      Management Comments and OIG Analysis

      Management Response to Recommendation #10: NPPD officials concurred
      with Recommendation 10. In its response, NPPD said that during FY 2012, the
      ISCD Program Management Office developed an Annual Operating Plan
      containing CFATS Program performance metrics for FY 2013 and beyond,
      including defined milestones, performance measures, and data points that will
      be tracked to monitor program performance. The performance metrics
      recognize both current and projected measurement start dates, as some
      business processes do not start until FY 2014 or later. These measures are
      subject to quarterly reviews and updates.

      Additionally, ISCD recently updated its Government Performance and Results Act
      of 1993 metric to reflect program progress better. Specifically, the CFATS
      Program developed a performance measure based on its RBPS with defined FY
      performance targets that measure the degree of covered facilities’ compliance
      with the CFATS regulation. The new measure tracks and reports on the
      percentage of applicable RBPS that are confirmed through the SSP/ASP approval
      process as having been met by Tier 1 and Tier 2 covered facilities. Tier 3 and Tier
      4 targets are planned to be defined in late FY 2013. This performance measure is
      reflective of the CFATS regulation’s value and impact on regulated facilities’ risk
      reduction. This measure has been approved as the reporting metric for the
      Government Performance and Results Act by both DHS leadership and the Office
      of Management and Budget.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 10,
      which is resolved and open. This recommendation will remain open pending our



www.oig.dhs.gov                            39                                   OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      receipt of the ISCD Program Management Office Annual Operating Plan and
      updated Government Performance and Results Act metrics.


      IP, NPPD, Congress, and DHS OIG Provided Limited Oversight of ISCD and the
      CFATS Program

      Despite initial warning signs of challenges within ISCD, the CFATS Program was
      provided limited oversight to effect sound management practices and internal
      control. IP and NPPD leadership accepted updates from ISCD officials at face
      value, and in good faith that the CFATS Program was making progress. IP and
      NPPD officials responsible for briefing Congress on CFATS provided updates that
      reflected leadership’s perception of program progress. This resulted in Congress
      applying less scrutiny over CFATS Program implementation.

      It was not until late 2010, with the identification of an error in calculating field
      personnel pay, that a heightened level of oversight was necessary to address
      issues within ISCD. Although ISCD and IP officials reported several additional
      issues to DHS OIG, OIG referred the majority of those reports back to NPPD for
      review and investigation. When more CFATS Program challenges were made
      public in 2011 and 2012, Congress applied greater program scrutiny and
      oversight.

      NPPD Oversight Was Limited During CFATS Program Development and
      Implementation

      IP leadership was not always proactive about problems within ISCD, although a
      new regulatory program should have been a priority. ISCD employees said that
      former leadership was not actively engaged in managing ISCD, and there was
      limited situational awareness of daily activities.

      In December 2009, the Office of Management and Budget requested NPPD to
      provide a report that described plans for full CFATS Program development and
      maturation. The May 2010 ISCD draft report said that the CFATS Program was
      not at final operational capability. However, ISCD was issuing final tier
      determinations, reviewing SSPs, and briefing Congress on initiating inspections.
      In addition, the report warned that excessive ISCD mission growth would hinder
      the proper execution of the CFATS Program. This report was never finalized or
      sent to the Office of Management and Budget.

      In late 2010, an error in calculating Chemical Security Inspector pay was
      identified. In retrospect, the NPPD Under Secretary told us this was his “first


www.oig.dhs.gov                             40                                    OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        notion that the program wasn’t all it was made up to be.” Prior to that, the
        NPPD Under Secretary said that there had been some questions about the
        program not being where it should be—including questions about when the final
        tiering would be done. The pay issue led to an overall management review of
        ISCD, due to concerns that it was not the only problem. Between 2010 and
        2012, multiple changes in ISCD leadership resulted in constant modification of
        the CFATS Program.

        In 2012, IP and NPPD leadership received anonymous memoranda and emails
        from ISCD staff describing concerns with ISCD, such as unqualified staff and
        inaccurate tiering methodology. We were unable to determine actions taken to
        address the issues in those messages, but leadership expressed concern about
        where the documents originated. At a congressional hearing in March 2012,
        NPPD’s Under Secretary expressed confidence in the new ISCD leadership’s
        ability to manage the program. He added that NPPD has the clear intention to
        give ISCD leadership “full support—not that we didn’t before, but we didn’t
        realize how much support was necessary.” 26       26 F




        Previous IP leadership has not always trusted staff to report programmatic
        issues, as leadership did not always believe staff was providing all the necessary
        facts concerning CFATS Program progress.

        Congress Applied Less Oversight Based on Information Conveyed by
        Department Officials

        After establishing the CFATS Program, Congress was concerned with enhancing
        the program’s mission by debating initiatives such as Inherently Safer
        Technology and Personnel Surety Program. 27 Members of Congress frequently
                                                                 27 F




        said that they thought DHS has done a responsible job of establishing the CFATS
        Program. In its FY 2010 appropriations proceedings, Congress required monthly
        updates from ISCD on its hiring status and quarterly reports on the coordination
        of Federal chemical security efforts.

        While a May 2011 letter from Chairman Shimkus to DHS about the CFATS
        Program did note that the pace at which SSPs for chemical facilities are reviewed
        and approved is a constant concern, it was not until after the internal ISCD

26
   U.S. House Committee on Homeland Security, Subcommittee on Cyber Security, Infrastructure
Protection and Security Technologies, The Chemical Facility Antiterrorism Standards Program: Addressing
its Challenges and Finding a Way Forward, Hearing, March 6, 2012.
27
   Inherently Safer Technology is a philosophy applied to the design and operation life cycle, including
manufacture, transport, storage, use, and disposal to eliminate or reduce hazards to avoid or reduce the
consequences of incidents.


www.oig.dhs.gov                                    41                                        OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        memorandum leak that Congress heightened scrutiny and oversight. Some ISCD
        employees said they were glad that the internal memorandum was leaked,
        because it called attention to program issues and forced IP and NPPD leadership
        to address challenges.

        Once Congress focused more attention on CFATS Program oversight, members
        began asking industry why it never reported these issues. However, a
        September 2011 American Chemistry Council survey of 139 representatives
        involved in managing more than 800 CFATS-covered facilities described industry
        concerns with the slow progress of CFATS implementation and the absence of
        clear guidance on tiering and compliance. 28 Despite concerns raised in the
                                                         28 F




        survey, most respondents supported the CFATS Program and its extension.
        Some industry representatives said that there needs to be more transparency
        through progress updates to the industry and Congress. We determined,
        however, that regular updates were provided, but did not convey CFATS
        Program challenges. Following the internal ISCD memorandum leak, industry
        representatives said that Congress became more interested in the money spent
        on ISCD vehicles and miscalculated inspector pay as raised in the leaked
        memorandum, rather than the steps and measures industry was taking to make
        chemical facilities more secure.

        Congress Has Not Provided a Long-Term Authorization for the CFATS Program

        Section 550 of the Department of Homeland Security Appropriations Act of 2007,
        Public Law 109-295, originally authorized DHS to regulate chemical security for 3
        years. The 3-year authorization was set to expire at the end of FY 2009;
        however, the FY 2010 appropriations extended the authority by 1 year. This
        authority has been extended each year since FY 2010, despite calls for a long-
        term authorization from NPPD, industry, and members of Congress. The FY 2013
        Continuing Resolution (H.J. Res. 117) provides ISCD’s funding and authority to
        implement the CFATS Program through March 27, 2013. ISCD employees said
        that the absence of a permanent authorization causes additional uncertainty
        about job security.

        Members in both chambers of Congress have proposed legislation that would
        extend the CFATS Program until 2018. In certain cases, proposed legislation
        expands and revises the CFATS Program as it currently exists. None of these bills
        have been passed into law as of October 2012.


28
  A Survey of CFATS Progress in Securing the Chemical Sector, American Chemistry Council,
September 6, 2011.


www.oig.dhs.gov                                    42                                       OIG-13-55

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Despite the challenges that DHS has had in implementing the CFATS Program,
           chemical industry representatives said that Congress should allow the program
           to mature rather than introduce new or revised statutory requirements.
           Industry representatives said that the extension of CFATS would bring some
           continuity to the process.

           Recommendation

           We recommend that the Director of the Infrastructure Security Compliance
           Division:

           Recommendation #11:

           Develop a strategy and implement a plan to work with Congress and private
           industry to ensure long-term authorization for the CFATS Program.

      Management Comments and OIG Analysis
      B4




      Management Response to Recommendation #11: NPPD officials concurred
      with Recommendation 11. In its response, NPPD said the long-term
      authorization of CFATS remains a top priority for NPPD. Over the past few
      months, ISCD has worked closely with the DHS Office of Legislative Affairs to
      proactively engage Congress and reinforce the message that long-term
      authorization is a Departmental priority. The Department has advocated for
      long-term authorization in congressional testimony and has worked with its
      interagency partners to ensure that Congress receives a consistent message.
      Additionally, NPPD stands ready to provide whatever technical assistance or
      other input congressional members request in regards to CFATS reauthorization.

      NPPD leadership believes there is nothing more critical to achieving long-term
      authorization of CFATS then the successful implementation of CFATS and
      recognition that the program is headed in the right direction. NPPD leadership is
      proactively sharing these success stories with members of Congress.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 11,
      which is resolved and open. This recommendation will remain open pending
      receipt of documentation showing continued congressional engagement
      regarding the long-term authorization for the CFATS Program.




www.oig.dhs.gov                               43                                 OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      DHS OIG Provided Limited Oversight of the CFATS Program

      From 2008 to 2012, DHS OIG received several allegations regarding IP and ISCD
      employees and the CFATS Program. The allegations related to cronyism, misuse
      of Government equipment, unprofessional relationships, the leaked internal
      ISCD memorandum, and issues with contracts, ethics, and mismanagement. DHS
      OIG accepted one allegation for investigation and referred the other allegations
      to NPPD or DHS’ Office of Management for investigation and action. Many of
      these investigations are still open and pending resolution.

      Although DHS OIG’s Office of Investigations determined that most of these
      allegations did not warrant its investigation, the number and severity of
      complaints should have prompted DHS OIG to initiate a review of CFATS Program
      activities. It was only after DHS OIG received multiple congressional requests
      that we initiated a program review.

      The Inspector General Act, as amended, requires DHS OIG to keep both the DHS
      Secretary and Congress fully informed of problems and deficiencies relating to
      DHS programs and operations. OIG is responsible for conducting and supervising
      audits, inspections, and investigations related to DHS programs and operations.
      DHS Management Directive Number 0810.1 (MD 0810.1), The Inspector General,
      issued on June 10, 2004, requires DHS employees to report suspicions of
      violations of law or regulation to DHS OIG or the appropriate DHS operational
      elements.

      According to MD 0810.1, allegations received by OIG can be retained or referred
      to DHS operational elements. Also, operational elements are required to
      transmit all allegations immediately upon receipt to OIG. The operational
      elements should not investigate allegations prior to OIG referral unless failure to
      do so would pose an imminent threat to human life, health or safety, or result in
      the irretrievable loss or destruction of critical evidence or witness testimony.

      The DHS OIG Hotline is a resource for Federal employees and the public to report
      allegations of criminal and noncriminal activity associated with waste, abuse, or
      fraud affecting DHS programs and operations. DHS OIG’s Office of Investigations
      maintains the hotline and processes complaints and allegations received for
      acceptance or referral. The DHS OIG Hotline received complaints from NPPD
      employees, but hotline staff could not provide us an accurate count of the
      complaints received. This is because DHS OIG’s Office of Investigations uses a
      database that is name or case number driven, and it is not searchable by topic or
      beyond a DHS component level. To determine the number of complaints, we



www.oig.dhs.gov                            44                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      met with hotline staff to query the database based on NPPD, IP, and ISCD
      employee and contractor names.

      IP Leadership Efforts To Request DHS OIG Assistance

      In December 2010, IP senior leadership drafted a letter to the DHS Inspector
      General requesting OIG assistance regarding potential deficiencies identified
      within ISCD. The potential deficiencies identified in the letter concerned
      Government vehicles, time and attendance, travel, equipment, and the ISCD
      internal management control processes. The letter requested OIG support in
      selecting a qualified contract audit company to perform an audit of ISCD. IP
      would fund the audit activities and designate a contact person to work with OIG
      to specify the tasks, scope of work, and deliverables.

      IP senior leadership wanted concurrence from NPPD’s Under Secretary before
      sending the request for assistance letter to the DHS Inspector General; however,
      the Under Secretary did not concur. The Under Secretary felt the areas were not
      criminal in nature and did not warrant OIG assistance. In discussion with the
      Under Secretary, he said it was part of NPPD’s long-term strategic vision to
      establish an internal investigations program.

      On April 14, 2011, the Under Secretary realigned the operational responsibilities
      for fact-finding and inquiry responsibilities within NPPD to its OCS. OCS’
      Compliance Investigations Division is responsible for providing fact-finding for
      NPPD programs and misconduct allegations, as listed in MD 0810.1, which DHS
      OIG declines to investigate. OCS would report directly to the Under Secretary
      and be staffed with personnel from NPPD’s Federal Protective Service (FPS).

      DHS OIG was contacted in June 2011 regarding the possibility that leadership did
      not disclose flawed tiering methodology when it was initially discovered. DHS
      OIG’s Office of Special Investigations concluded that no formal investigation of
      the complaint was warranted, and forwarded the complaint to NPPD’s OCS for
      whatever action was deemed appropriate. As of October 2012, the results of
      OCS’ investigation were pending.

      As of January 2013, DHS OIG is developing an internal review process to evaluate
      whether reported allegations should be referred to components for investigation
      and action or addressed by the OIG. This process will determine whether DHS
      OIG non-investigatory offices should conduct reviews of reported allegations
      prior to OIG referral to a component.




www.oig.dhs.gov                           45                                  OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      Overall Coordination, Communication, and Actions Taken To Address Facility
      Tiering Methodology Errors Were Ineffective, and Concerns Remain That
      Tiering Is Still Flawed

      Several staff involved in CFATS development said that ISCD was under great
      pressure to begin tiering facilities. Therefore, the Top Screen and SVA tiering
      engines were created quickly, which left limited time for quality assurance and
      internal control. When an error was identified in December 2009 and January
      2010 with the data used for final tiering, ISCD employees thought they had fixed
      the error in June 2010 and continued with facility tiering. In November 2010,
      ISCD staff identified an issue with the earlier approach taken to address the
      tiering error and reported these concerns to ISCD leadership in January 2011.
      This resulted in retiering facilities at all tier levels. However, as of October 2012,
      concerns remain that the tiering methodology is flawed. Appendix E provides a
      timeline of events surrounding the tiering methodology errors.

      Tiering Engines Used by ISCD Contained Faulty Data

      ISCD uses two tiering engines, one for Top Screen data that generates the
      preliminary tier and one for SVA data that generates the final tier. Argonne
      National Laboratory developed the original versions of these engines, which
      were later deployed in a classified information technology environment at Oak
      Ridge National Laboratory. The tiering engine algorithms are unclassified, but
      deaths and injuries calculated by these engines are classified. Some of the input
      factors are also classified, such as F1. The F1 Factor is used in tiering toxic COIs
      in both engines and also contributes to the tiering of sabotage COIs in the SVA
      engine.

      Proxy data is used in the startup, development, and testing of a risk engine in an
      unclassified environment. Once the risk engine is ready for use, it is moved to a
      classified environment and proxy data is to be replaced with real data. The use
      of the unclassified environment accelerated risk engine development time. In
      December 2009, ISCD staff responsible for tiering said they observed anomalies
      in final facility tiering. However, it was in January 2010 that Oak Ridge National
      Laboratory determined that proxy data, not real data, was used in the F1 Factor
      final tiering and formally notified ISCD staff. ISCD told the laboratory to continue
      sending tier notification letters to facilities.

      Starting in January 2010, ISCD staff held monthly tiering meetings. During the
      May 2010 meeting, ISCD leadership expressed concern with tiering results, which
      showed approximately 35 facilities potentially moving from a preliminary Tier 4
      level to a final Tier 1 determination. Shortly after this meeting, a limited number


www.oig.dhs.gov                             46                                    OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      of ISCD staff discussed the F1 Factor issue, but did not immediately notify the
      acting ISCD Director. The acting ISCD Director relied on this group of subject
      matter experts and generally followed their advice on technical issues.

      Initial Actions To Address F1 Factor Tiering Error

      This group developed steps to address the F1 Factor problem. ISCD directed Oak
      Ridge National Laboratory to temporarily halt tiering activities and suspend
      distribution of the May 2010 facility tier notification letters. ISCD’s Director
      notified IP leadership and NPPD staff of this action in a May 28, 2010, email
      message, as shown in appendix F. The IP’s Assistant Secretary, Deputy Assistant
      Secretary, Chief of Staff, and Legislative Affairs, and NPPD’s OGC and Principal
      Deputy Chief of Staff received the message.

      ISCD officials decided that tier levels should not be revised for the estimated
      3,800 facilities tiered before ISCD notified IP and NPPD leadership of the F1
      Factor issue, even if the revised SVA risk engine would indicate a different tier
      result for those facilities. All facilities evaluated subsequent to May 31, 2010,
      would be tiered using the revised SVA risk engine. ISCD resumed distributing tier
      notification letters to facilities in June 2010. ISCD’s Director provided IP
      leadership and NPPD staff with this update in a June 18, 2010 email, as shown in
      appendix F.

      The F1 Factor Issue Was Raised Again and Resulted in Hundreds of Facility Tier
      Reassignments

      In November 2010, while conducting a review of redetermination requests at the
      national laboratories, a new ISCD senior official noticed that many facilities
      experienced a tier change even though there was no change in the quantity of
      COIs. As a result, Chemical Security Inspectors were directed to suspend Pre-
      Authorization Inspections until ISCD assessed the tiering changes in early 2011.
      In December 2010, ISCD leadership changed, and staff provided briefings on
      their respective branches and activities. A Compliance Branch status paper
      discussed the F1 Factor tiering issue, and new ISCD leadership gave the paper to
      all ISCD senior staff for a response. Some senior staff were upset that the tiering
      error was brought up again and prepared a presentation to demonstrate that the
      F1 Factor issue had already been addressed. Another senior staff member said
      the presentation did not accurately convey the F1 Factor issue and suggested
      that ISCD leadership conduct further analysis.

      As a result, ISCD leadership formed a group in February 2011, to work with the
      national laboratories and research the F1 Factor issue. Ultimately, ISCD retiered


www.oig.dhs.gov                           47                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      facilities that received tier determinations prior to May 2010. ISCD determined
      that 501 facilities were potentially affected. On June 27, 2011, ISCD distributed
      new tiering notification letters to the affected facilities.

      Ineffective Coordination, Communication, and Actions Taken To Address the F1
      Factor Issue

      Several ISCD staff said that they wished they had more time and resources to
      conduct manual reviews of all tiering determinations. One staff member said
      that since retiering facilities affected by the F1 Factor, few SVA tiering letters
      have been distributed. Some ISCD staff said that it appeared that IP leadership
      was not concerned about the issue until rumors about media attention started.
      Then there was a push to fix the error, which some felt limited their ability to
      research and address the issue fully. The F1 Factor tiering error was not leaked
      to news media at this time; however, a June 30, 2011, internet chemical security
      blog posted that facilities were receiving retiering letters.

      When IP leadership and NPPD staff were informed of the F1 Factor tiering error
      in June 2010, staff and leadership at all levels did not adequately report or take
      responsibility or corrective action. Communication to leadership within ISCD, IP,
      and NPPD in 2010 did not articulate clearly the severity of the F1 Factor tiering
      issue. Given the importance of final tiering determinations in the CFATS process,
      leadership should have requested further information. When the issue was
      presented again in June 2011, some IP and ISCD leaders denied receiving prior
      notification of the F1 Factor tiering error.

      In retrospect, NPPD’s Under Secretary told us that June 2011 was the first time
      he realized how badly managed CFATS was, because “by reading the emails, you
      would believe that the issue had been fixed, you would have to ask about the
      context to find out more....” and the Under Secretary “regrets that questions
      weren’t asked at the time.”

      Additional Tiering Methodology Challenges Remain Concerning the V Factor

      In February 2012, anonymous “concerned” ISCD staff notified Congress that
      there was an additional flaw in the risk engine methodology. The problem is
      called the V Factor. In structuring the tiering engine, ISCD did not have an
      appropriate way to reflect vulnerability in the risk equation for individual
      facilities. Risk is commonly defined as follows:

      Threat x Vulnerability x Consequence = Risk.



www.oig.dhs.gov                           48                                   OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        In lieu of an acceptable option to reflect vulnerability, the CFATS Program set
        vulnerability at a constant for all facilities, regardless of tier. Mathematically,
        this makes vulnerability inconsequential in determining risk, because the CFATS
        methodology is labeling all regulated facilities as equally vulnerable, without
        considering the specific situation at each facility or security programs the
        facilities have in place. As a result, the risk engine is based only on Threat and
        Consequence, which is inconsistent with ISCD’s intention of developing a risk-
        based program.

        ISCD leadership said that while the V Factor is held as a constant in the risk
        engine equation, vulnerabilities are factored into the CFATS process, as facilities
        have to submit SVAs. However, because of the limited instructions provided in
        the SVA process, vulnerability assessment results were not considered valid. As
        a result, ISCD determined that it was not appropriate to allow vulnerability
        estimates to affect final tiering. ISCD leadership said although SVA vulnerability
        results are part of the CSAT data for each facility, the risk values used in the
        tiering analyses assumed that any facility could be attacked by an adversary and
        all would be equally vulnerable. This is why individual facilities were not
        assigned different vulnerability values.

        ISCD leadership said that facilities have been retiered, and ISCD has moved on
        from the F1 Factor issue. Following the F1 issue, ISCD implemented a three-
        phase plan: ISCD ensures that (1) the methodology is fully documented; (2)
        there is an internal review of the methodology; and (3) an external peer review
        takes place. The first and second phases of the plan uncovered some potential
        anomalies with approximately 20 toxic and inhalation chemicals, which may
        cause tiering changes for 34 facilities.

        In September 2012, ISCD contracted with the Homeland Security and Studies
        Analysis Institute to perform the external peer review. 29 ISCD leadership expects
                                                                          29 F




        a report with possible recommendations in spring 2013. ISCD leadership said
        that the external peer review may provide additional input on the Department’s
        approach to vulnerability in the CFATS risk methodology.




29
  The Homeland Security Studies and Analysis Institute is a federally funded research and development
center operated by Analytic Services Inc., on behalf of DHS. It delivers independent, objective analysis
and specialized technical expertise.


www.oig.dhs.gov                                     49                                         OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Director of the Infrastructure Security Compliance
           Division:

           Recommendation #12:

           Develop a methodology and reporting process to identify and address errors and
           anomalies that arise in the CFATS tiering methodology and risk engine.

           Recommendation #13:

           Provide the external peer review results, including comments on the V Factor,
           and ISCD’s action plan to implement external peer review recommendations.

      B5   Management Comments and OIG Analysis

           Management Response to Recommendation #12: NPPD officials concurred
           with Recommendation 12. In its response, NPPD said even though the
           anomalies occurred only with the tiering of sabotage and release chemicals of
           interest, which accounts for less than 15 percent of the CFATS regulated
           community, ISCD is undertaking a three-phased approach to review the tiering
           process. This three-phased approach, which is reflected in Action Item 94 of
           ISCD’s current Action Plan, includes the following activities:

                1. 	Thoroughly document all processes and procedures relating to the
                    tiering methodology;
                2. 	Conduct an internal DHS review of the complete tiering process; and
                3. 	Conduct an external peer review of the risk-based tiering methodology.

           The first two phases were completed by NPPD in 2012, during our review. The
           third item, the external peer review, began in January 2013. The peer review
           panel has been tasked with reviewing the existing CFATS risk methodology to see
           whether it is a justifiable and reasonable approach for tiering high risk chemical
           facilities. The results of the peer review are expected to be provided to the
           Department in the third quarter of FY 2013.

           In addition to this formal review, the SVA and SSP review processes have been
           developed in a manner that requires multiple subject matter expert reviews of
           facility submissions. If at any point in time a subject matter expert identifies a
           potential anomaly in a facility’s tiering, that anomaly is investigated to determine
           if it was a facility data error, an error within the tiering engine or risk


www.oig.dhs.gov                                 50	                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      methodology, or not an anomaly at all. This supports a continuous improvement
      process, which ISCD has in place for all of its processes and methodologies.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 12,
      which is resolved and open. This recommendation will remain open pending our
      receipt of ISCD’s process for investigating identified potential anomalies.

      Management Response to Recommendation #13: NPPD officials partially
      concurred with Recommendation 13. In its response, NPPD said that ISCD
      supports the notion of acting appropriately on the external peer review findings
      and would be pleased to share those findings with appropriate entities.

      OIG Analysis: Although NPPD partially concurred, we consider NPPD’s actions
      responsive to Recommendation 13, which is resolved and open. This
      recommendation will remain open pending our receipt of the external peer
      review results and ISCD’s plans to address the review’s recommendations.


      Pressure To Implement the CFATS Program Led ISCD To Rely on Contractor
      Support

      In 2006, there were only a few Federal employees and several contractors in
      what would become ISCD. Some contractors were later converted to full-time
      Federal Government employees and served or continue to serve in leadership
      positions within IP and ISCD. Some ISCD employees were concerned that
      contractors were performing inherently governmental functions. They also said
      that some contractors were privy to critical program information and did not
      share it with colleagues once they were converted to Federal service.

      Industry representatives were also concerned with the limited number of
      qualified chemical and physical security specialists within ISCD. Representatives
      said that ISCD became too reliant on contractors to develop the CFATS Program.
      For example, ISCD has contracts to handle the CFATS call center, support
      inspector operations, and provide policy, budget, and information technology
      assistance. In addition, multiple Department of Energy laboratories support the
      CFATS Program. Argonne National Laboratory has the technical engineering
      contract, Oak Ridge National Laboratory hosts and provides maintenance and
      operations of the CFATS information technology infrastructure, Sandia National
      Laboratory is used for economic modeling, and Idaho National Laboratory
      provides inspectors with cyber training.




www.oig.dhs.gov                           51                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Reliance on Contractors Contributed to F1 Factor Resolution Challenges

      Dependence on contractors contributed to challenges when trying to diagnose
      and resolve the F1 Factor tiering error. IP dismissed the initial contracting firm
      that provided the factors for the Top Screen, because both could not come to a
      mutually acceptable agreement as to what mitigation actions were needed to
      avoid the potential for a conflict of interest. The documentation for the logic
      behind the tiering engine equations was not provided to ISCD when this
      contractor departed. The national laboratories supporting CFATS were unable to
      locate any direction or guidance related to creating and populating the classified
      environment for the SVA tiering engine. Further, ISCD subject matter experts
      reviewed submissions from the highest-tiered facilities, while contractors
      reviewed the lower-tiered facilities. However, current ISCD compliance
      employees said that the Federal employees and contractors are treated and
      assigned work equally.

      Possible Conflict of Interest Between IP/ISCD Leadership and Contractors

      ISCD’s early reliance on contractors contributed to concerns regarding possible
      conflicts of interest and favoritism, which hinder proper contract selection and
      renewal. Several ISCD employees said that its contracts are not always awarded
      competitively. For example, in late 2010, the FRC contract to review SSPs was in
      the selection process. ISCD created a technical evaluation panel to review and
      award the FRC contract. Although three bidders were determined suitable, IP
      leadership instructed ISCD to suspend the contracting process, alleging that the
      technical evaluation panel was “corrupt.” However, IP leadership should never
      have known the identities of personnel on the evaluation panel, nor the bidders.

      Many interviewees with knowledge of the FRC contract said that the selection
      process was ultimately canceled in January 2011 due to concerns that multiple
      members of IP leadership had improper links to the bidders. However, ISCD
      leadership told employees that the division was “rescoping” and that no
      selection would be made on the FRC contract. Employees were concerned that
      no SSP reviews would be conducted for 1 year because the contract would have
      to start from the beginning of the contracting process. Despite the cancellation
      of the FRC contract award, ISCD has relied on separate contract services to
      provide subject matter expertise for SSP reviews since 2008.




www.oig.dhs.gov                           52                                  OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


        A Perception Exists that Contractors May Be Performing Inherently
        Governmental Functions

        Although we were unable to substantiate whether contractors were performing
        inherently government functions, a perception exists in ISCD. In addition,
        analysis of ISCD documentation demonstrates that contractors are performing
        closely associated governmental functions that have a high “direct impact” on
        ISCD’s critical mission.30 ISCD does not always have the minimum percentage of
        Federal employees needed to perform or oversee these functions. In multiple
        ISCD branches, contractors outnumber Federal employees. For example, one
        employee estimated that contractors currently perform 70 percent of CFATS
        Program functions. Several ISCD officials said that much of the work is
        outsourced because contractors have been better performers and are more
        skilled in technical subject areas. Contractors also develop training material, and
        designed new training for the Chemical Security Inspectors.

        Former ISCD leadership proposed an organizational realignment of ISCD in spring
        2012, which it claimed would help reduce reliance on contractors, though a
        contractor assisted in developing the realignment. Multiple ISCD employees said
        ISCD should not have paid $301,500 for contract support and should have
        explored whether IP or NPPD had internal resources to assist with the
        realignment.

        ISCD intends to federalize more positions in the Compliance Branch, although
        contractors will still be used. However, we are concerned with the appearance
        that contractors may have been and are performing inherently governmental
        functions and closely associated governmental functions, as defined in the
        Federal Acquisition Regulation, Subpart 7.5 – Inherently Governmental
        Functions. Specifically, contractors appear to have performed the following
        functions listed in 7.503(c) Policy:

            (5) The determination of agency policy, such as determining the content and
            application of regulations, among other things, and
            (6) The determination of Federal program priorities for budget requests, and
            (7) The direction and control of Federal employees.

        In addition, 7.503(d) provides examples of certain services and actions that are
        not considered to be inherently governmental functions. However, these

30
  DHS components are required to assess the degree to which accomplishing functions have a direct
impact on the component’s critical mission(s), according to the October 31, 2011, DHS Balanced
Workforce Strategy Guidance.


www.oig.dhs.gov                                   53                                       OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      services and actions may approach being in that category because of the nature
      of the function, the manner in which the contractor performs the contract, or
      the manner in which the Government administers contractor performance.
      Contractors appear to have performed the following functions in this category:

          (1) Services that involve or relate to budget preparation, including workload
          modeling, fact finding, efficiency studies, and should-cost analyses, etc.
          (2) Services that involve or relate to reorganization and planning activities.
          (3) Services that involve or relate to analyses, feasibility studies, and strategy
          options to be used by agency personnel in developing policy.
          (4) Services that involve or relate to the development of regulations…
          (6) Services in support of acquisition planning.
          (7) Contractors providing assistance in contract management (such as where
          the contractor might influence official evaluations of other contractors)…
          (9) Contractors providing assistance in the development of statements of
          work…
          (11) Contractors working in any situation that permits or might permit them
          to gain access to confidential business information and/or any other sensitive
          information (other than situations covered by the National Industrial Security
          Program described in Federal Acquisition Regulation 4.402(b)).
          (12) Contractors providing information regarding agency policies or
          regulations, such as attending conferences on behalf of an agency,
          conducting community relations campaigns, or conducting agency training
          courses.
          (13) Contractors participating in any situation where it might be assumed
          that they are agency employees or representatives…
          (18) Contractors providing legal advice and interpretations of regulations and
          statutes to Government officials.

      Recommendation

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #14:

      Reduce overall ISCD reliance on contract personnel to avoid the appearance that
      contractors may be performing inherently governmental functions and closely
      associated governmental functions.




www.oig.dhs.gov                             54                                    OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Management Comments and OIG Analysis
      B6




      Management Response to Recommendation #14: NPPD non-concurred with
      Recommendation 14. In its response, NPPD said to ensure that ISCD has the
      appropriate mix of Federal and contractor skills, expertise, experience, and other
      assets necessary to effectively achieve the Department’s mission, each new and
      recompeted contract is analyzed using the DHS Balanced Workforce Strategy
      tool to assess risk, ability to provide adequate oversight, and cost. Based on the
      analyses done to date, NPPD does not believe that ISCD is overly reliant on
      contract personnel, nor does NPPD believe that any contractors are performing
      inherently governmental functions or inappropriately performing closely
      associated governmental functions.

      NPPD said that there is no substantiating evidence for any of the allegations
      made by us regarding contractors performing inherently governmental
      functions, or any specific examples of activities that give the perception of such
      prohibited activity. Nevertheless, ISCD, in conjunction with NPPD Finance, will
      perform an assessment of ISCD’s current level of contract personnel to confirm
      that there is not an overreliance on contract personnel. Additionally, NPPD and
      ISCD will continue to review all new ISCD procurements under the DHS Balanced
      Workforce Strategy to ensure the Scopes of Work for contractors do not include
      any inherently governmental functions.

      OIG Analysis: Although NPPD did not concur, we consider NPPD’s actions
      responsive to Recommendation 14, which is resolved and open. This
      recommendation will remain open pending our receipt of ISCD’s assessment of
      the current level of contract personnel.


      ISCD Struggles To Provide Employees With Appropriate Training

      When establishing the CFATS Program, ISCD leadership envisioned an academy
      to train Chemical Security Inspectors to enforce the CFATS regulation across
      regulated industry. However, this academy began training personnel before
      ISCD issued the CFATS Interim Final Rule, developed a program vision, or defined
      inspector roles and responsibilities. Recognizing the ineffectiveness of early
      training sessions, ISCD leadership developed a new inspections training course in
      June 2012. By focusing training efforts on Chemical Security Inspectors, ISCD has
      provided limited guidance to headquarters staff on responsibilities and career
      development. Most headquarters staff do not have formalized training, and
      frequently have to learn critical position duties and functions on the job with
      little guidance.


www.oig.dhs.gov                           55                                   OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


        Chemical Security Academy Was Lengthy, Premature, and Provided Only a
        Basic Introduction

        Legislation and departmental pressure gave IP officials the impression that
        CFATS was a fast-moving program. As a result, IP leadership accelerated
        inspector hiring and training before establishing a framework for the program.
        IP decided that the FPS inspector cadre would be a good resource for
        implementing the program quickly. FPS inspectors did not have regulatory
        enforcement experience or chemical experience, but did have physical security
        training. In March 2007, IP signed a memorandum of agreement with U.S.
        Immigration and Customs Enforcement to detail six Area Commanders and 30
        GS-0080 Law Enforcement Security Officers (Inspectors) from FPS to provide full-
        time support to IP. 3130 F




        The Chemical Security Academy was developed on the premise that a sustained,
        effective training program would ensure that inspectors and staff execute a
        uniform and fair enforcement of the CFATS regulation. The first Chemical
        Security Academy, referred to at the time as the Field Inspection Operations
        Training Program, began in February 2007 and had a curriculum that spanned 7
        weeks. It consisted of 2 weeks of Hazardous Material Tech Training in Kansas
        City, MO; 4 weeks of coursework in Louisville, KY; and 1 week of site visits in
        Freeport, TX. The first three academies trained approximately 60 inspectors.

        Former ISCD leadership believed that as inspectors were being trained, CFATS
        appendix A would be finalized, the Top Screen developed, and preliminary tier
        determinations made. However, SVA approval and appendix A finalization took
        longer than anticipated, and many interviewees said that ISCD leadership hired
        inspectors too soon. Additional materials and tools were integrated into
        academy trainings as developed and finalized. Overall, most inspectors thought
        the academy training provided a basic introduction to CFATS, but little or no
        insight into position duties or responsibilities, because the organization was
        developing. As a result, ISCD leadership stopped the Chemical Security Academy
        and stopped performing Authorization Inspections in July 2011. In addition, ISCD
        formed an inspector tools working group to conduct a review of all procedures,
        processes, and training for the inspector cadre.

        The new training program started in June 2012, and ISCD resumed Authorization
        Inspections in July 2012. Overall, Chemical Security Inspectors said the new
        course was valuable because the CFATS Program is closer to full implementation.

31
  In 2007, FPS was placed organizationally within U.S. Immigration and Customs Enforcement. In October
2009, FPS was transferred to NPPD.


www.oig.dhs.gov                                   56                                       OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           However, some inspectors said it was a refresher course emphasizing
           consistency before Authorization Inspections were reinitiated and was a waste
           of time because it did not address the issues CFATS is experiencing.

           ISCD Headquarters Does not Have Structured Training

           Because it focused on training Chemical Security Inspectors, ISCD management
           did not develop structured employee training at headquarters. As a result, new
           employees often learn position roles and responsibilities on the job. For
           example, reviewing SSPs for authorization or approval is critical to the CFATS
           Program, but no structured training is provided for this review process.
           Although employees generally have Individual Development Plans, ISCD
           headquarters staff has limited opportunities for professional development due
           to funding constraints or a perception by management that employees are too
           busy to attend training.

           Some staff said the inability to receive training has complicated their job
           performance and capabilities. Other employees expressed discomfort in
           performing duties assigned because of insufficient training. While field
           personnel are required to complete training prior to conducting a CAV or
           inspection, headquarters employees are not.

           Recommendation

           We recommend that the Director of the Infrastructure Security Compliance
           Division:

           Recommendation #15:

           Develop and implement a learning curriculum that (1) describes position roles
           and responsibilities clearly; (2) provides comprehensive training plans to prepare
           employees to perform assigned duties; and (3) communicates measures to
           assess performance.

      Management Comments and OIG Analysis
      B7




      Management Response to Recommendation #15: NPPD officials concurred
      with Recommendation 15. In its response, NPPD said that in 2012, ISCD
      conducted human resources planning to determine and identify the human
      resources and the necessary skill sets required for program success. Based on
      these activities, ISCD realigned its organization on a functional basis and clarified
      functional unit roles and responsibilities. Using this and other information as a


www.oig.dhs.gov                                 57                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      baseline, ISCD is developing a Human Resource Plan which will include a staffing
      management plan and identification of training needs for all staff. ISCD is using a
      workforce analysis methodology to complete this Human Resources Plan. This
      workforce analysis will include:
             •	 Conducting a job analysis for each position;
             •	 Creating new/revised position descriptions and job/task analysis
                  worksheets for each position;
             •	 Identifying required skills and competencies for each job;
             •	 Creating new performance plans and standards by job; and
             •	 Implementing new Individual Developmental Training plans targeted
                  at developing and/or maintaining required skills and competencies.

      After completing the Human Resources Plan, ISCD intends to develop and
      disseminate an ISCD Employee Handbook that describes for all staff various
      aspects of the Human Resources Plan.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 15,
      which is resolved and open. This recommendation will remain open pending
      documentation that the ISCD Employee Handbook has been developed and
      disseminated to all ISCD employees.


      Inability To Follow Sound Government Practices Has Resulted in
      Noncompliance and Wasted Resources

      Since its inception in 2007, ISCD has struggled with applying sound Government
      practices to human capital issues, pay administration, and resource allocation. In
      addition, ISCD was often led by acting leadership, which complicates its ability to
      address these challenges. Time served in acting positions often exceeded
      allowable timeframes and was not always documented in employee personnel
      records. Some ISCD employees have moved into acting positions where they
      serve as supervisors without appropriate position descriptions, which
      complicates the performance review and rating process. ISCD field personnel
      were assigned to nonexistent regional offices and received incorrect locality pay
      and inappropriate Administratively Uncontrollable Overtime (AUO). ISCD
      purchased equipment and leased vehicles excessively. In addition, ISCD built
      open secret storage office space for its headquarters that was not needed.




www.oig.dhs.gov                           58	                                  OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           ISCD Personnel Challenges Highlight the Need for Human Capital Changes

           When the CFATS Program was established in 2007, DHS’ Office of Human Capital
           handled all NPPD human resource issues. In November 2009, NPPD received
           delegated examining authority, which enabled it to hire personnel and make
           human capital decisions for ISCD and other offices within NPPD. In December
           2009, NPPD created its Office of Human Capital. Employees from IP’s Director of
           Management Office serve as liaisons to NPPD’s Office of Human Capital and ISCD
           to facilitate human resource functions. Within ISCD, IP liaisons assist the
           Business Support Team to manage divisional human resource needs.

           Although NPPD’s Office of Human Capital is structured to encourage
           collaboration, human capital employees at all levels said ISCD leadership did not
           consult the Office of Human Capital as the authority for personnel issues, and
           that ISCD leadership refused to cooperate on human capital issues.

           In addition, ISCD has not always notified NPPD’s Office of Human Capital when
           personnel are placed in acting or detailed positions. According to Office of
           Personnel Management (OPM) regulations, a non-Senior Executive Service
           Federal employee may be temporarily detailed to a Senior Executive Service
           position in no more than 120-day increments. However, when the temporary
           detail exceeds 240 days, an agency must use competitive procedures for the
           individual to remain in the temporary position. 32 Several ISCD acting Directors
                                                          31 F




           and Deputy Directors were in these positions more than 240 days without a
           competitive process, as shown in tables 7 and 8. Director C served in this
           position on three occasions, twice as acting and once as permanent Director.




32
     5 CFR § 317.903.


www.oig.dhs.gov                                59                                   OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


        Table 7: Chronology of ISCD Directors 

                ISCD Director                           Dates
         Director A                   October 2006–March 2007

         Director B (Acting)
         March 2007–July 2008

         Director C (Acting)
         July 2008–November 2008

         Director D
                  November 2008–November 2008 

         Director C (Acting)
         November 2008–July 2009

         Director C 
                 July 2009–September 2009 

         Director E (Acting)
         September 2009–December 2010 

         Director F (Acting)
         December 2010–July 2011

         Director G
                  July 2011–July 2012 

         Director H
                  July 2012–Present 

        Source: ISCD program data.


       Table 8: Chronology of ISCD Deputy Directors
             ISCD Deputy Director                         Dates
        Deputy Director A (Acting)       Date Unknown–November 2008 

        Deputy Director B
               November 2008–November 2008 

        Deputy Director A (Acting)
      November 2008–September 2009 

        Deputy Director C (Acting)
      September 2009–June 2010 

        Deputy Director D (Acting)
      June 2010–August 2010

        Deputy Director C (Acting)
      August 2010–December 2010 

        Deputy Director E (Acting)
      December 2010–April 2011 

        VACANT
                          April 2011–July 2011 

        Deputy Director F
               July 2011–July 2012 

        Deputy Director G (Acting)
      July 2012–Present 

       Source: ISCD program data.


      ISCD is not required to inform NPPD’s Office of Human Capital when appointing
      an acting supervisor for less than 120 days; as a result, Human Capital cannot
      maintain appropriate personnel records. For example, employees who have
      served in acting positions may not receive a Notice of Personnel Action
      (Standard Form 50), which is the official documentation of Federal employment
      and reflects appropriate credit for time served in positions. However, ISCD is
      required to notify NPPD’s Office of Human Capital when appointing an acting
      supervisor for more than 120 days.

      When an employee is on a detail assignment, the employee’s position is still
      considered permanently occupied. The detailed employee cannot be officially
      replaced with a permanent employee. NPPD’s Office of Human Capital officials
      said that a valid, classified position description must be used to officially
      document temporary personnel actions such as details or temporary


www.oig.dhs.gov                            60                               OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      promotions. NPPD’s Office of Human Capital does not have written policy
      requiring acting supervisors to have a supervisory position description. ISCD
      personnel in acting supervisory positions said they have either not had
      supervisory position descriptions or have gone for significant periods of time
      without one, receiving the documentation only after numerous requests.

      Acting Management Has Hindered ISCD’s Ability To Evaluate Employee
      Performance Effectively

      ISCD acting management has not provided sufficient monitoring of employee
      performance. NPPD’s Human Resources General Instruction Guide, Performance
      Management Program for Non-Senior Executive Service Employees, establishes
      employee appraisal procedures. An appraisal is the process used to review and
      evaluate employee performance. Supervisors must monitor employee
      performance against performance expectations and apprise employees of their
      performance. Progress reviews are also required to be conducted and
      documented at approximately the midpoint in the rating cycle. NPPD’s guide
      also requires that supervisors complete ratings of record within 30 days after the
      appraisal period concludes.

      In addition, an interim rating should be prepared whenever an employee’s
      supervisor leaves before the last 90 days of the rating period. When this occurs,
      the current supervisor should consider any interim rating when preparing the
      employee’s annual rating of record. However, documentation we received
      demonstrates that not all employees received interim ratings. NPPD’s guide also
      states that when a supervisor has not supervised an employee for a period of
      time to provide sufficient familiarity with the employee’s performance, the
      rating period may be extended up to 90 days. However, rating documentation
      provided did not include any requests for extension, even though some acting
      supervisors said they do not have enough interaction with employees to conduct
      performance reviews and the rating process properly.

      Further, NPPD’s guide states that employees have the option to provide written
      self–assessments of performance. Some ISCD employees said they wrote their
      own performance reviews, which were then approved by acting supervisors with
      few or no changes.

      Recommendations

      We recommend that the Director of NPPD’s Office of Human Capital:




www.oig.dhs.gov                           61                                   OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      Recommendation #16:

      Develop NPPD-wide policy regarding appointment of acting management in
      accordance with Office of Personnel Management guidelines.

      Recommendation #17:

      Ensure that all employees serving in an acting supervisory capacity have a
      supervisory position description in accordance with Office of Personnel
      Management requirements.

      Recommendation #18:

      Ensure that all employees receive performance reviews according to NPPD’s
      General Instruction Guide on performance management.

      Management Comments and OIG Analysis

      Management Response to Recommendation #16: NPPD officials concurred
      with Recommendation 16. In its response, NPPD said it has already developed
      and issued an NPPD Merit Promotion Plan that states requirements for details
      and temporary promotions that are consistent with OPM requirements. To
      ensure that NPPD managers and human capital staff at all levels of NPPD
      understand the policies surrounding the appointment of acting management,
      NPPD Human Capital intends to provide training on the topic to appropriate
      individuals.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 16,
      which is resolved and open. This recommendation will remain open pending
      receipt of the NPPD Merit Promotion Plan and training curriculum for
      appropriate individuals.

      Management Response to Recommendation #17: NPPD officials non-concurred
      with Recommendation 17. In its response, NPPD said the term “acting” does not
      have a formal definition under OPM guidelines, nor does OPM require that
      employees performing supervisory duties in an acting capacity always have a
      supervisory position description. The term acting may be used to cover anything
      from full assumption position duties, to temporarily covering 1 day absences, to
      serving as a point-of-contact but not covering all aspects of the position.
      However, it is important that managers are diligent in applying the rules for
      details when temporarily assigning employees to other duties. To alleviate any



www.oig.dhs.gov                           62                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      misunderstanding, NPPD is exploring developing Human Resources training for
      managers that specifically address these topics.

      OIG Analysis: Although NPPD did not concur, we consider NPPD’s actions
      responsive to Recommendation 17, which is resolved and open. The number of
      persons in acting supervisory positions and the duration of these assignments in
      ISCD frequently went against the intent of OPM guidelines. This
      recommendation will remain open pending our receipt of documentation that
      ISCD leadership positions are filled with permanent, qualified individuals and
      receipt of the Human Resources training curriculum to address rules for
      temporarily assigning employees to other duties.

      Management Response to Recommendation #18: NPPD officials concurred
      with Recommendation 18. In its response, NPPD said that on
      December 31, 2012, NPPD’s Employee and Labor Relations Office issued a
      memorandum on Performance Management guidance that requires all non-
      Senior Executive Service employees to receive at least one formal documented
      progress review throughout the performance cycle. A signed acknowledgement
      form, to include feedback from the supervisor, is to be provided to the
      employee. This memorandum also addressed a new requirement for the
      subcomponent Chiefs of Staff to document and validates dates each employee
      signed a progress review by using the NPPD Performance Plan and Appraisal
      Report Certification. This report is to be submitted to NPPD for progress reviews
      by March 15, 2013, and close-out reviews with summary ratings by August 9,
      2013. Due to the new requirements implemented by NPPD, ISCD is on track to
      ensure all employees receive both a midyear and a closeout review, which will
      ensure that supervisors actively engage with employees on their progress
      throughout the performance cycle. Going forward, ISCD intends to use the
      Performance Plan and Appraisal Report Certification to track ISCD’s completion
      of all required performance reviews.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 18,
      which is resolved and open. This recommendation will remain open pending our
      receipt of the NPPD Performance Plan and Appraisal Report Certification and
      evidence that all ISCD employees receive progress and closeout reviews.


      ISCD Leadership Assigned Field Personnel to Nonexistent Regional Offices and
      Provided Incorrect Locality Pay

      Federal guidance for location-based pay entitlements, commonly referred to as
      locality pay, resides in 5 CFR § 531.601-611. Entitlement pay is based on an


www.oig.dhs.gov                           63                                  OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           employee’s duty location or worksite and offsets the higher cost of living in some
           areas of the United States. For example, the cost of living in New York City, NY,
           is higher than in Buffalo, NY, so the Federal Government offers a salary
           supplement to employees. Federal employees working in Buffalo get a 16.98
           percent supplement to their base salary, while employees in New York City get a
           28.72 percent supplement. 33 According to 5 CFR § 531.605, an employee’s duty
                                          32 F




           location or worksite, as documented in the employee’s Standard Form 50,
           should always be the place where the employee regularly performs work.

           When ISCD hired permanent field personnel from August 2008 through
           November 2010, duty stations and locality pay adjustments were based on the
           planned location of 10 regional field offices. The regional offices were to be
           established in Seattle, WA; Los Angeles, CA; Denver, CO; Houston, TX; St. Louis,
           MO; Chicago, IL; Atlanta, GA; Philadelphia, PA; Mercer, NJ; and Boston, MA. A
           regional office in Washington, DC, was added but later dropped. Locations were
           selected because of proximity to a large number of chemical facilities regulated
           by CFATS. Appendix D shows the number of regulated facilities by region. As of
           October 2012, ISCD has temporary offices in Houston, TX, and Philadelphia, PA,
           and a permanent office in Los Angeles, CA. Additional expansion to planned
           regional offices has been put on hold indefinitely by NPPD’s Under Secretary to
           identify opportunities to consolidate field locations.

           Acting ISCD Leadership Assigned Locality Pay Improperly

           Because field office employees were hired before regional offices were
           established, ISCD leadership allowed inspectors to work from home under a
           Flexible Work Environment Standard Operating Procedure, which was signed by
           the acting ISCD Director in October 2008. We were unable to determine
           whether the acting ISCD Director coordinated with NPPD OGC officials or DHS
           Office of Human Capital before issuing this procedure. Under the procedure, a
           Chemical Security Inspector living in Tulsa, OK, could be assigned a duty location
           in the Houston, TX, regional office. As the regional office in Houston did not yet
           exist, the employee would be allowed to work from home in Tulsa. The
           employee’s duty location remained Houston for pay purposes, although the
           work was not regularly performed in Houston. Tulsa is approximately 500 miles
           from Houston and has a lower cost of living. If an employee who lives in Tulsa
           was hired at a base salary of $71,674, the Houston locality pay adjustment of
           28.72 percent would raise the salary to $92,259. 34 The locality pay adjustment
                                                                   3 F




           for Tulsa is 14.16 percent, meaning that the employee should receive $81,823.

33
     OPM 2012 General Schedule Locality Pay Table.

34
     OPM 2012 General Schedule Locality Pay Table, based on General Schedule-13, Step 1.



www.oig.dhs.gov                                      64                                     OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           As a result of the incorrect locality area assignment, the employee would receive
           $10,436 more per year.

           Job offer letters sent to field office personnel did not differentiate between base
           salary and locality pay adjustment; letters listed only the General Schedule (GS)
           grade with step and total salary. During the hiring process, several inspectors
           recognized that they were being offered the incorrect locality pay and contacted
           NPPD’s Office of Human Capital and ISCD leadership to question the salary in the
           job offer letter. NPPD’s Office of Human Capital representatives repeatedly told
           them that the locality pay offered in the letters was correct.

           NPPD, IP, and ISCD Efforts To Resolve Incorrect Locality Pay

           In February 2010, ISCD leadership began learning about improper locality pay
           assignments when several Chemical Security Inspectors complained about owing
           taxes to States in which they did not live. In July 2010, ISCD leadership went to
           NPPD’s Chief of Staff, DHS’ OGC, and Office of Human Capital for assistance with
           determining an action plan. After these consultations, ISCD leadership decided
           to change the duty location to the employee’s residence to reflect where the
           employee was regularly working. On July 21, 2010, NPPD’s Director for Resource
           Administration sent an email message to all ISCD field employees explaining the
           decision.

           On September 29, 2010, IP’s Assistant Secretary established an ISCD task force to
           review the locality pay issue. The task force studied inspector records to identify
           where each lived, traveled, and performed the majority of work; it determined
           that OPM guidelines do not set a definitive threshold that must be met for an
           employee to receive a particular locality pay. The only statement in the
           guidelines is that employees are entitled to locality pay in the area where the
           employee “regularly performs work.” 35 In a 2011 memorandum to NPPD’s
                                                 34 F




           Under Secretary, ISCD defined regularly worked as having spent at least 10
           percent of nontravel, nonleave workdays in the employee’s assigned locality.
           Employees who met this threshold were not overpaid and therefore would not
           have to repay the Federal Government.

           The task force results divided the field personnel into three groups: those not
           affected because locality was assigned correctly; those who met the definition of
           regularly working and did not owe overpayment; and those who did not meet
           this definition and owed overpayment. Of the 117 Chemical Security Inspectors
           in FY 2010, 43 did not reside within assigned locality pay areas. However, 21 of

35
     5 CFR § 531.605.


www.oig.dhs.gov                                 65                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      these employees met the definition of having regularly worked in the assigned
      locality pay area, and 22 did not meet this definition. In November 2010, ISCD
      officially changed all field personnel duty stations to reflect home addresses and
      corrected locality pay where necessary.

      Overpayments were calculated from the time the employee entered on duty
      until the overpayment ceased. Most employees were notified of the potential
      overpayment in NPPD’s Director for Resource Administration July 21, 2010,
      email message. The July 21, 2010, email message date was then used in
      determining the period for which those employees’ debt would be waived.
      The National Finance Center manages Federal employee debt collection for
      NPPD. On December 2011, the center sent official notification of overpayment
      to affected employees, as well as an explanation of employee rights concerning
      salary offset repayment agreements, rights to a hearing, and the waiver request
      process. As of October 2012, 22 employees have been determined overpaid, for
      a total of $143,760.40.

      ISCD field employees were frustrated at not obtaining clear, straightforward
      answers from NPPD’s Office of Human Capital concerning the locality pay issue
      and resulting overpayments, which negatively affected field employee morale.
      Chemical Security Inspectors said the locality pay issue was a major factor in the
      decision to unionize in March 2011.

      Unionization In Part as a Result of Locality Pay Issues

      Chemical Security Inspectors chose to unionize in part because of how NPPD’s
      Office of Human Capital handled locality pay issues. It is also believed that ISCD
      detailees from FPS led efforts to unionize, as they were union members while at
      FPS.

      Under the 2011 Master Agreement between NPPD and the American Federal
      Government Employees Union, ISCD Chemical Security Inspectors are
      represented by Local 918. An FPS employee leads Local 918, which has five IP
      vice presidents, one of whom is an ISCD employee. All Chemical Security
      Inspectors may have union representation, whether or not they pay dues.
      However, field leaders do not have union representation because they hold
      supervisory positions.

      NPPD’s Employee Labor and Relations Office handles most union interactions.
      When ISCD leadership determines it is operationally necessary to make a change
      in working conditions, it has an obligation to provide the union with an
      opportunity for pre-decisional involvement. Subsequently, once ISCD leadership


www.oig.dhs.gov                           66                                   OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           finalizes a draft of the new policy or process concerning these changes, it has an
           obligation to provide the union with notification and an opportunity to bargain
           the proposed change. The union may also meet with ISCD leadership regarding
           employee issues such as discipline, where both sides discuss potential personnel
           actions.

           The ISCD internal memorandum leaked in December 2011 negatively portrayed
           the union’s effect on the division. While this initially damaged the relationship
           between ISCD and the union, both have made efforts to improve interactions.
           For example, ISCD leadership meets with union representatives weekly to
           discuss ongoing personnel issues. Overall, ISCD leadership and the union’s
           relationship is cooperative and has improved.

           ISCD Has Used Administratively Uncontrollable Overtime Inappropriately

           ISCD Chemical Security Inspectors receive the maximum AUO allowable by OPM
           regulations; however, we were unable to determine a definitive rationale for
           why inspectors receive AUO. AUO usage reviews were not conducted as
           required, and activities to support AUO receipt have not been performed. As a
           result, inspectors were inappropriately paid approximately $2 million in AUO for
           FY 2012.

           AUO is a form of premium pay used to compensate employees who occupy
           positions that require substantial amounts of irregular, unscheduled overtime
           work that cannot be controlled administratively and cannot be scheduled in
           advance of the workweek. AUO pay is calculated as a percentage of an
           employee’s base pay and can range from 10 percent to 25 percent. 36 The rate of
                                                                               35 F




           AUO authorized for a position is based on the average number of irregular or
           occasional overtime hours worked per week. Table 9 shows the number of
           hours required to receive the corresponding AUO percentage.




36
     5 CFR § 550.151.


www.oig.dhs.gov                                67                                     OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


      Table 9: Hours Required To Earn AUO 

           Hours Required per Week                 AUO Percentage Earned
                      3.1–5                                10%

                      5.1–7                                15%

                      7.1–9                                20%

                   9.1 or More                             25%
      Source: 5 CFR § 550.154.

      Rationale for Awarding AUO to Field Personnel Could Not Be Determined

      NPPD policy requires that a certifying official submit a Personnel Action Initiator
      form to the Office of Human Capital to initiate the payment of AUO. The request
      must include a certification that work assigned to the employee is expected to
      meet the requirements for AUO premium pay, and that the position to which the
      employee is assigned is approved for AUO premium pay. NPPD Office of Human
      Capital and ISCD leadership were unable to provide us with documentation of
      AUO authorization for ISCD.

      Former ISCD officials said that AUO was provided to Chemical Security Inspectors
      initially because of the anticipated accelerated CFATS Program implementation.
      The original job announcements for field personnel posted in August 2008
      included the potential authorization of AUO, and offer letters stated that
      inspectors would be eligible for an AUO differential of 25 percent. A former ISCD
      leadership official said that AUO should have been made available, but not paid
      until inspection activities began, and should have started at 10 percent and
      progressed to 25 percent as necessary. Instead, ISCD inspectors were offered
      the maximum AUO before roles and responsibilities were defined or workload
      warranted the extra pay.

      AUO Reviews Were Not Conducted as Required

      NPPD’s OCS began an AUO audit in April 2011 as part of its larger ISCD
      inspection. After OCS determined that there were irregularities with AUO
      reporting, it decided that AUO needed a more in-depth review, because each
      NPPD office with employees receiving AUO managed it differently.

      According to OPM regulations, a Federal agency providing AUO must review the
      percentage and verify that it matches the number of hours worked “at
      appropriate intervals.” OPM recommends that these reviews occur every 3 to 6


www.oig.dhs.gov                               68                               OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        months. When the result of an AUO review demonstrates that an employee is
        not completing required hours of irregular overtime, the rate of AUO should be
        adjusted or, if appropriate, discontinued. 37 NPPD’s AUO Policy, dated
                                                         36 F




        September 4, 2012, requires that all certifying officials review the time and
        attendance and related records for all employees receiving AUO premium pay to
        ensure that employees meet payment requirements for rates authorized.
        According to the policy, periodic reviews are to take place in January, April, July,
        and October each year.

        ISCD’s AUO Policy Was Applied Inconsistently

        As there was no formal NPPD AUO policy until September 2012, ISCD’s January
        2009 AUO policy was an adaptation of U.S. Immigration and Customs
        Enforcement policy. ISCD’s policy does not define qualifying tasks clearly,
        leaving AUO policy implementation to regional commanders. Inspectors did not
        receive adequate training, which led to insufficient understanding of AUO
        requirements. Most AUO guidance came from branch chiefs or regional
        commanders in ad hoc emails. Some regions provided Chemical Security
        Inspectors with additional guidance on how to claim AUO hours, and provided
        examples for each AUO category as listed in Chemical Facility Management
        System. 38 However, this led to inconsistencies in how inspectors across the 10
                  37 F




        regions report AUO.

        Activities Conducted Do Not Support AUO Pay at the Maximum Percentage

        AUO requires employees to recognize circumstances when they must remain on
        duty. These circumstances must be a definite, official, and special requirement
        of the position. An employee must remain on duty because of compelling
        reasons related to continuing position duties. The need to function outside
        normal duty hours must be so compelling that the employee’s failure to do so
        would constitute negligence in performing such duties. 39 However, according to
                                                                         38 F




        the categories in the Chemical Facility Management System, all inspector
        activities qualify for AUO hours.

        Several ISCD employees questioned how Chemical Security Inspectors can justify
        claiming AUO for inspections that can be scheduled during normal business

37
   5 CFR § 550.161(f). 

38
   DHS established the Chemical Facility Management System as a tool to verify data submissions provided 

by industry to identify any areas of noncompliance. The Chemical Facility Management System extracts 

facility information from the CSAT. The system also supports inspection activities, including inspection

schedules, assignments, plans, trip planning, disposition, and findings/options for consideration.

39
   5 CFR Part 550.153.



www.oig.dhs.gov                                    69                                        OIG-13-55

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


      hours, and how inspectors were justifying AUO when no inspections were taking
      place. Supervisors told inspectors that they had to get the required hours of
      AUO or it would be cut. This practice led inspectors to claim AUO hours for work
      that does not meet OPM guidelines.

      In June 2012, ISCD completed an internal audit of AUO. ISCD’s AUO audit team
      reviewed each Chemical Facility Management System AUO entry from January
      2011 to March 2012. The audit determined that ISCD has not been reviewing
      AUO in accordance with OPM policy. In addition, hours of AUO claimed by
      inspectors did not match hours meeting AUO requirements. Table 10 shows that
      not all inspectors met the hourly requirements for 25 percent AUO they were
      paid. In addition, the table demonstrates the discrepancy between what
      employees reported and what actually qualifies as AUO.

      Table 10: First Quarter FY 2012, Claimed AUO Hours and Qualifying AUO Hours
                           Number of Personnel       Number of Personnel With
           AUO
                       Claiming Hours Toward AUO     Hours that Qualify for AUO
           Level
                                  Level                         Level
           25%                     24                             4
           20%                     31                             9
           15%                     23                            26
           10%                     15                            21
           0%                      22                            55
      Source: OIG analysis of ISCD AUO audit.

      The average grade level of an ISCD Chemical Security Inspector is GS-13. In FY
      2012, the base salary (excluding locality area adjustments) for a GS-13, Step 1,
      was $71,674. A 25 percent AUO level of premium pay would therefore add
      $17,918.50 to the base salary. Based on ISCD’s AUO audit results, of the 115
      inspectors claiming AUO in the first quarter of FY 2012, only 4 qualified for 25
      percent AUO. In addition, approximately 50 percent of field personnel did not
      meet hourly requirements for any AUO level. Assuming that all Chemical
      Security Inspectors receive 25 percent AUO, this would result in approximately
      $2 million spent on AUO in FY 2012 for inspectors who did not meet these
      requirements.

      One reason for the discrepancy between hours reported and AUO qualifying
      hours is confusion over what qualifies as AUO activity. AUO pay cannot be
      provided for work that has been regularly scheduled. Regularly scheduled work
      is defined as work that is scheduled in advance of an administrative workweek.
      Work performed in a supervised office environment that does not require



www.oig.dhs.gov                                 70                                OIG-13-55

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           independent investigative or other administratively uncontrollable work should
           not be counted as AUO. For example, some inspectors temporarily working at
           headquarters still claimed AUO. Also, hours that are clerical, administrative in
           nature, or easily scheduled in advance should not be counted for AUO. The ISCD
           AUO audit determined that several inspectors claimed AUO for training. The
           audit report offered next steps for consideration, including the elimination of
           AUO. As of September 30, 2012, ISCD leadership was still considering options.

      Recommendation
      B8




      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #19:

      Eliminate the authorization and payment of Administratively Uncontrollable
      Overtime for all ISCD personnel.

      Management Comments and OIG Analysis

      Management Response to Recommendation #19: NPPD officials non-concurred
      with Recommendation 19. In its response, NPPD acknowledged that there
      previously were some issues related to the application and management of AUO
      within ISCD, these issues are being addressed. Moreover, based on the findings
      of an internal audit of the ISCD AUO program, there are legitimate justifications
      supporting the use of AUO by ISCD Chemical Security Inspectors. Based on that
      audit, ISCD leadership has determined that the more appropriate path regarding
      AUO for ISCD Chemical Security Inspectors is to continue to permit AUO in a
      manner that evolves consistently with AUO rules and regulations, and that is
      supported by greater oversight, increased training, documented policies and
      procedures, and greater management controls.

      To ensure that all components within NPPD follow proper AUO protocols better,
      in September 2012 NPPD issued an NPPD AUO Instruction, which established
      policies and procedures for the approval, certification, and payment of AUO.
      That document requires all employees occupying positions that have been
      approved for AUO, as well as the supervisors of those employees, complete
      training on AUO regulations, policies, roles, and responsibilities. Under that
      policy, NPPD is in the process of conducting a review to ensure that all positions
      within NPPD for which AUO is currently being claimed are appropriate for AUO.




www.oig.dhs.gov                               71                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      Additionally, ISCD has recently completed draft division-level AUO guidance to
      expand on the guidance provided by NPPD. This draft guidance will enumerate
      specific CFATS-related activities that are and are not AUO eligible and will
      describe and detail the frequency of both supervisory reviews and formal audits
      (i.e., Periodic Reviews). This draft guidance is anticipated to be completed and
      signed by ISCD leadership by the end of April 2013.

      OIG Analysis: We consider NPPD’s actions non-responsive to Recommendation
      19, which is unresolved and open. AUO is a form of premium pay used to
      compensate employees who occupy positions that require substantial amounts
      of irregular, unscheduled overtime work that cannot be controlled
      administratively and cannot be scheduled in advance of the workweek.
      According to the Interim Final Rule, the Department will conduct audits and
      inspections at reasonable times and in a reasonable manner, providing covered
      facility owners and operators with advance notice before inspections, with
      limited exceptions. Therefore, inspectors schedule their work in advance,
      eliminating the need for AUO. This recommendation will remain open pending
      our receipt of documentation showing that AUO payments to inspectors are
      supported and justified by current and long-term activities.


      ISCD Provided Unnecessary Equipment to Inspectors

      ISCD officials identified and purchased equipment for Chemical Security
      Inspectors to perform inspection duties, and procured more than $1.8 million in
      equipment, as shown in figure 5. However, CFATS Program progress was slow,
      and the roles and responsibilities of inspectors changed throughout
      implementation. As a result, ISCD later transferred approximately $700,000 in
      equipment because it was unnecessary.




www.oig.dhs.gov                           72                                 OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


      Figure 5: ISCD Purchases by Fiscal Year





      Source: OIG analysis.

      Initial purchase requests in FY 2007, FY 2008, and FY 2009 were for inspector
      equipment such as Toughbook™ laptop computers, docking stations, and global
      positioning system devices. Purchase justifications stated in part that field
      conditions include a wide range of weather and environmental elements. The
      equipment requested was to allow Chemical Security Inspectors to respond to
      critical situations and communicate with Federal Government entities, State and
      local law enforcement, and other team members and allow for the continuity of
      information technology capabilities.

      ISCD ordered equipment to ensure that Chemical Security Inspectors would be
      equipped once hired and trained. According to an ISCD action memorandum to
      the IP Assistant Secretary in 2010, initial equipment requirements were based on
      ISCD staffing projections, as well as estimates of equipment replacement.
      Equipment projections were generally made 8 months prior to when the
      equipment was needed to account for the lengthy procurement timeline. This
      timeline includes market research and developing purchase requests for each
      item, approval by the ISCD Director, a bidding process, selecting a vendor,
      shipping, and receipt. As a result, and in part due to the pressure to implement
      the CFATS Program and the procurement timeline, ISCD ordered additional
      equipment before personnel were hired and trained.

      CFATS Program Progress Was Slow, and the Roles and Responsibilities of
      Chemical Security Inspectors Changed

      When FPS detailed inspectors to ISCD in 2007, the CFATS Interim Final Rule was
      still being written. According to several IP and ISCD officials, the CFATS mission



www.oig.dhs.gov                             73                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      was not fully understood nor the inspectors’ roles and responsibilities clearly
      defined. Initially, a first-responder role was envisioned. ISCD staff suggested
      that the concept of the first-responder role was a result of FPS’ response
      activities after Hurricane Katrina in August 2005 and was incorporated into ISCD
      when FPS detailed personnel to the CFATS Program. This vision of inspectors as
      first responders resulted in ISCD ordering equipment such as hazardous material
      gear, spotlights, and rescue ropes.

      ISCD’s Excessive Purchases Resulted in Wasted Funds

      When the procurement process was finished and purchased items delivered,
      ISCD leadership had changed, and the vision for CFATS had changed from a first-
      responder organization to regulatory enforcement. As items arrived, storage
      became an issue, and equipment was stored in office space and around
      workstations, which created a potential safety and fire hazard. In Summer 2010,
      an IP official was tasked with reviewing the amount of equipment being stored
      and determined that ISCD was “stockpiling” fire-retardant suits, uniforms,
      laptops, printers, and flashlights, as well as other items. The justification given
      to this official by ISCD was to have new inspectors equipped when hired. The IP
      official said that it would be impossible to recruit enough inspectors at one time
      to use all the equipment and supplies, and was concerned that the equipment
      might expire or become obsolete before ISCD could assign it.

      In Spring 2011, ISCD began transferring unnecessary, excessive, or outdated
      equipment to other offices within NPPD or the Department. Approximately
      $700,000 in equipment and uniforms was transferred in FY 2011 and FY 2012.
      However, ISCD did not receive any compensation for transferred items. Most
      transfers were informally initiated and confirmed through email messages to
      specify types and quantity of equipment needed. In some instances, the
      equipment was ordered, received, and transferred in its entirety. For example,
      one complete purchase request for hazardous material equipment ordered
      August 2, 2010, was transferred to FPS on May 2, 2011. The value of that order
      was $165,072.25.

      ISCD’s Vehicle Leases Led to Possible Misuse and Wasted Funds

      ISCD Chemical Security Inspectors use leased vehicles to conduct site visits,
      inspections, outreach, enforcement, and other compliance-related activities.
      Similar to the justification for equipment purchases, ISCD obtained leased
      vehicles through the General Services Administration in large numbers to ensure
      that inspectors would have a vehicle when hired.



www.oig.dhs.gov                            74                                  OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      In August 2009, however, concerns were raised within IP and NPPD about the
      number of vehicles leased by ISCD. ISCD received an email message from NPPD’s
      Office of Budget stating,

             You currently have 84 vehicles, and are requesting 70 additional vehicles
             in FY 2010 and 70 in FY 2011. While the additional 70 in FY 2010 makes
             sense compared to the number of inspectors requested in the budget,
             the additional 70 in FY 2011 does not, because you did not request
             additional staff for ISCD.

      In 2010, IP again raised concerns when ISCD was planning to move its
      headquarters to a new location and requested a large number of vehicle parking
      spaces. In June 2010, the IP Assistant Secretary established a centralized fleet
      management task force within IP to ensure that specific usage controls and
      reporting requirements were being followed. Monitoring and oversight of ISCD’s
      vehicles led to the prohibition of headquarters staff using vehicles for home-to-
      work purposes and eliminated the headquarters pool of vehicles.

      In 2011, ISCD transferred 33 leased vehicles to U.S. Citizenship and Immigration
      Services, FPS, and another departmental office because ISCD no longer needed
      the vehicles. These were transfers of accountability without an exchange of
      funds. However, the lease cost to ISCD for the 33 vehicles was more than
      $108,000 annually. As of October 2012, ISCD has 104 leased vehicles assigned to
      field personnel only. In July 2012, NPPD issued the Motor Vehicle Fleet
      Management Program directive and manual to all employees.

      ISCD Initially Requested Open Secret Storage Space but Determined It Was
      Unnecessary

      ISCD’s initial headquarters location provided it with access to classified space.
      When ISCD relocated in 2010, it requested that similar access be built into new
      office space. In early 2012, however, ISCD determined that the office
      classification level exceeds work area requirements, limits its ability to interact
      with industry partners, and hinders coordination necessary to conduct
      compliance reviews.

      ISCD officials said employees require regular access to classified information to
      fulfill its mission effectively. This includes access to various classified information
      and analysis, infrastructure tier and priority lists, and other classified products
      appropriate to IP’s missions. As a result, ISCD requested that its space be open
      secret storage to house classified systems at the secret level as well as to house



www.oig.dhs.gov                             75                                    OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


              a Sensitive Compartmented Information Facility. 40 DHS Management Directive
                                                                  39 F




              11046 defines open secret storage as a room or area constructed and operated
              for the purpose of safeguarding national security information that, because of its
              size or nature, or operational necessity, cannot be adequately protected by the
              normal safeguards or stored during nonworking hours in approved containers.
              The office was built in 2010 to ISCD requirements for approximately $5.5 million.
              This included $2.4 million in physical upgrades, $1.2 million for additional guard
              service, and $1.9 million for information technology costs associated with the
              build-out.

        In early 2012, after occupying the new space for less than 2 years, ISCD officials
        B9




        determined that only one of three floors should remain classified space. Several
        ISCD employees said the space should not have been classified, as they never
        handle classified material. The estimated cost to declassify the open storage
        space is $122,000, which includes removing and replacing desktops, performing
        data migration, reconfiguring telephones, and removing and relocating network
        equipment.

        Recommendation
        B10




        We recommend that the Assistant Secretary for Infrastructure Protection:

        Recommendation #20:

        Establish internal controls to ensure accountability for all ISCD appropriated
        funds and that sufficient justification exists for all procurements.

        Management Comments and OIG Analysis
        B1




        Management Comments to Recommendation #20: NPPD officials concurred
        with Recommendation 20. In its response, NPPD said that ISCD has established
        several internal controls and approval forms to ensure appropriate funding
        accountability. Within the Annual Operating Plan, ISCD has established metrics
        that allow for ISCD leadership to see quarterly updates on the division’s progress
        towards meeting this accountability objective. As the owner of the Annual
        Operating Plan, the ISCD Program Management Office has developed formal
        objectives to help ensure the appropriated funds are accounted for and

40
  A Sensitive Compartmented Information Facility is an accredited area, room, group of rooms, buildings,
or installation where Sensitive Compartmented Information may be stored, used, discussed, and/or
processed. Sensitive Compartmented Information is classified information concerning or derived from
intelligence sources, methods, or analytical processes.


www.oig.dhs.gov                                    76                                        OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      expended as necessary. ISCD works to ensure less than or equal to a 10 percent
      variance between appropriated funding and obligated funding within the current
      fiscal year. Working under 1 year funds, ISCD ensures procurements are
      executed as planned and within the funding limits. The procurement
      administrative lead timelines are also tracked, and ISCD works to achieve a 95
      percent or higher completion rate of procurements within the Office of
      Procurement Operations procurement administrative lead timelines guidelines.

      ISCD also recently implemented an Acquisition Justification Form to be used
      internally for funding requests for approval. The form includes requirement
      descriptions, funding amounts, and mitigation strategies in the event of
      disapproval. The form ensures execution alignment with the ISCD fiscal year
      spend plan in coordination with IP. The spend plan is a tracking means for the
      division as well as IP to properly fund each quarter based on requirement needs.
      Contractor performance and fund expenditure rates are closely monitored via
      cost and schedule reports, and periodic project and technical management
      reviews. In addition, billing submissions are scrutinized and planned
      performance objectives are compared with actual results.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 20,
      which is resolved and open. This recommendation will remain open pending our
      receipt of ISCD’s procurement administrative lead timelines reporting and the
      Acquisition Justification Form.




www.oig.dhs.gov                          77                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Dysfunctional Culture Contributed to Perceptions of Retaliation and
      Suppression of Nonconforming Opinions Within ISCD

      Although we were unable to substantiate any claims of retaliation or suppression
      of nonconforming opinions, the ISCD work environment and culture cultivates
      this perception. Constant turnover in leadership, reorganizations, and
      personality conflicts impair effective work relationships. In addition, the
      negative tone of the leaked internal ISCD memorandum decreased morale within
      the division.

      Revolving Leadership Resulted in Constant Program Changes

      Since 2006, ISCD has had eight directors, resulting in constant changes to CFATS
      Program processes, procedures, oversight, and implementation. Several ISCD
      staff said that it can potentially take more than 5 months to acclimate new
      leadership to ISCD and the CFATS Program. Both ISCD Director and Deputy
      Director positions, as well as branch chief and deputy branch chief positions,
      have been filled by acting personnel. Appendix G shows a 2009 memorandum to
      all IP employees, which illustrates the cascading effect that IP leadership
      vacancies has had on IP divisions such as ISCD. Multiple permanent branch
      chiefs were appointed to acting Director or Deputy Director positions, requiring
      some employees to perform both acting and permanent leadership position
      duties and responsibilities.

      Several ISCD employees cite limited transparency and poor communication
      across the division, and limited communication within and between branches at
      headquarters. For example, there is little guidance on processes and
      procedures, primarily because acting managers do not want to make decisions.
      As a result of the multiple reorganizations and high attrition, several ISCD
      employees are not always certain of the supervisory reporting structure.

      Some ISCD employees said reorganizations were often executed for
      nonprogrammatic reasons. Employees perceived cliques forming, which led to
      favoritism and placing people in positions without merit or qualification. ISCD
      employees said that the work culture within the division was frequently
      combative because there was confrontation among division leaders. As a result,
      employees frequently did not want to voice nonconforming opinions. In
      addition, employees complained of unprofessional senior staff behavior, such as
      use of profanity, inappropriate relationships, and violent outbursts. Many ISCD
      employees felt that there was little accountability in the division and that people
      who performed poorly were often rewarded with better positions, details, and
      educational opportunities.


www.oig.dhs.gov                            78                                  OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      ISCD has placed lower-graded personnel into acting positions, which may require
      them to supervise higher-graded personnel. While we were unable to determine
      what restrictions may apply to this type of assignment, it is sound business
      practice that a supervisor’s grade should be equal to or greater than that of
      subordinates. In addition, such situations have fostered resentment among
      employees.

      After the memorandum release, some ISCD employees said that it was “a slap in
      the face” and they felt insulted, degraded, and betrayed by their portrayal in the
      memorandum. Many Chemical Security Inspectors said they were targeted by
      ISCD leadership and offended by how inspectors were portrayed as being
      unprofessional and unqualified. In addition, inspectors said their image had
      been tarnished within the chemical industry. ISCD staff asked to see the
      memorandum, but were denied. Since the memorandum was not distributed to
      all employees, knowledge of its content was limited to what they learned from
      news reports and subsequent congressional hearings. Many ISCD employees
      expressed frustration that news media and chemical industry representatives
      obtained copies but employees did not.

      During our fieldwork, ISCD leadership proposed another realignment that would
      change position job series for some employees. Employees said this would
      require recompetition for their jobs, with the possibility that they might not
      qualify. Also, several ISCD management officials in acting positions said they
      would not apply for their positions when advertised as permanent, for either
      professional or personal reasons.

      Recommendations

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #21:

      Advertise and select permanent ISCD leadership with demonstrated
      qualifications and skills at all levels, to include Division Director, Deputy Division
      Director, branch chiefs, deputy branch chiefs, and section chiefs.

      Recommendation #22:

      Develop and disseminate an ISCD organizational and reporting structure to all
      ISCD staff.



www.oig.dhs.gov                             79                                     OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      Management Comments and OIG Analysis

      Management Response to Recommendation #21: NPPD officials concurred
      with Recommendation 21. In its response, NPPD said they agree that having a
      permanent, qualified ISCD leadership team is critical to the long-term success of
      the CFATS Program, and have been working towards that end over the past few
      months. ISCD has filled or is in the process of filling all ISCD leadership positions
      with permanent, qualified individuals.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 21,
      which is resolved and open. This recommendation will remain open pending our
      receipt of documentation that ISCD leadership positions are filled with
      permanent, qualified individuals.

      Management Response to Recommendation #22: NPPD officials concurred
      with Recommendation 22. In its response, NPPD said the ISCD Director
      disseminated on January 14, 2013, an ISCD organizational chart to all ISCD staff
      that included the ISCD reporting structure.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 22,
      which is resolved and open. This recommendation will remain open pending
      dissemination of the ISCD organizational and reporting structure to all ISCD staff
      once leadership positions have been filled with permanent, qualified individuals.


      NPPD Has a Process To Report Allegations, but DHS OIG Contact Information Is
      Outdated

      In November 2011, NPPD’s Under Secretary sent a memorandum to all
      employees explaining how they should report misconduct allegations. The
      memorandum was also a reminder that all NPPD employees have a responsibility
      to report misconduct allegations and described the types of allegations that
      employees must report to DHS OIG or OCS, as well as allegations that supervisors
      should handle. Contact information for reporting matters to OIG or OCS was
      included, and contained an email address for the DHS OIG Hotline.

      However, DHS OIG no longer uses an email address to receive reports. Some
      ISCD employees said that they sent email messages to the hotline and did not
      receive a response. These employees assumed the hotline had received their
      allegations, but DHS OIG had no record of those complaints. We tested the
      email address and did not receive a reply confirming receipt or that the email
      address is no longer valid. Nor did we receive a response redirecting us to the


www.oig.dhs.gov                             80                                    OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      DHS OIG website to report allegations. According to the DHS OIG website,
      reports can now be made by completing the OIG allegation form, calling a toll-
      free number, faxing, or mailing the allegation information as indicated.

             Online: Allegation Form (Recommended) 

             Call: 1-800-323-8603 toll free

             Fax: 202-254-4297 

             U.S. Mail: DHS Office of Inspector General

             Attention: Office of Investigations Hotline 

             B12




             245 Murray Drive SW 

             Building 410/Mail Stop 2600 

             Washington, DC 20528


      Despite receiving guidance on how to report misconduct allegations to OIG or
      OCS, many ISCD employees said they did not know how to report a complaint.

      To address issues with reporting misconduct allegations, DHS OIG will
      disseminate to all DHS employees current procedures for reporting misconduct
      allegations to the DHS OIG within 30 days of the issuance of this report.

      Recommendation

      We recommend that NPPD’s Under Secretary:

      Recommendation #23:

      Reiterate to all NPPD employees the process for reporting misconduct
      allegations.

      Management Comments and OIG Analysis

      Management Response to Recommendation #23: NPPD officials concurred
      with Recommendation 23. In its response, NPPD said the Under Secretary
      disseminated on January 16, 2013, a message to all NPPD employees announcing
      the implementation of the Principles of Integrity and Professional Responsibility
      Management Directive. Included in that message were the reporting procedures
      for employees to submit allegations of misconduct. Additionally, the NPPD OCS
      has updated its website to include the proper procedures and contact
      information for reporting allegations of misconduct. NPPD intends to continue
      to reiterate regularly the reporting procedures to its employees and NPPD OCS is
      working with the Public Affairs Office to draft an updated memorandum or
      message to all employees.


www.oig.dhs.gov                           81                                 OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      OIG Analysis: We consider NPPD’s actions responsive to Recommendation #23,
      which is resolved and open. This recommendation will remain open pending our
      receipt of the January 16, 2013, message disseminated to all NPPD employees
      and updated memorandum or message drafted by the Public Affairs Office.


      Industry Supports the CFATS Program, but Challenges Remain and Corrective
      Action Is Necessary

      The regulated chemical industry has embraced the RBPS approach and the
      flexibility it allows; however, constant ISCD leadership changes have strained its
      relationship with the regulated community. In addition, challenges remain with
      CSAT tools and limited feedback is provided to facilities following submissions of
      SVAs and SSPs. While the industry has applauded ISCD leadership for identifying
      programmatic issues, additional efforts are necessary. Industry officials support
      the CFATS Program but are concerned about industry resources and funds spent
      to meet program requirements without a clear path forward.

      Excessive Leadership Changes Have Strained ISCD’s Relationship With the
      Regulated Community and Impede CFATS Program Progress

      Industry officials said when ISCD and IP established the CFATS Program, it was
      overly dependent on a small group of IP officials, detailees, and contractors. In
      addition, continuous turnover throughout ISCD requires industry officials to
      repeatedly engage new leadership and program staff to convey industry needs,
      concerns, and expectations. Because of extensive turnover, industry officials
      said CFATS is no closer to implementation, and most of the ISCD senior officials
      with whom industry worked during CFATS Program development are no longer
      with the program, making it difficult to build relationships and impedes program
      progress. Industry officials also expressed concern over the small number ISCD
      employees possessing chemical industry knowledge.

      Industry officials are encouraged, however, to have a permanent ISCD director as
      of July 2011, and said current leadership appears capable and willing to work
      with the industry, though this varies at the ISCD staff level.

      Industry Is Concerned by Limited Transparency and Slow Implementation of
      the CFATS Program

      There has been limited communication from ISCD to industry regarding how
      facilities are tier assigned, and comments from ISCD on submitted materials has
      not been timely. Most industry officials we spoke with are confused by how


www.oig.dhs.gov                           82                                   OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      ISCD assigns risk-based tiers to their facilities, as some are higher and others
      lower than expected. ISCD does not share the calculations used for facility
      tiering with industry officials. This is contrary to many security vulnerability
      assessment practices, where this information is transparent and used to inform
      decision makers of the best steps to take to manage risk. Additionally, industry
      decision makers often require a risk analysis to justify budget requests for those
      risk-reduction measures. In the CFATS process, the facility is not aware of how:

             •	 Information submitted to DHS relates to actual security posture or
                potential gaps in security at the facility level;
             •	 DHS is analyzing the information provided by facilities;
             •	 Tiering decisions are made; and
             •	 Any changes that might be made to the facility would affect tier level.

      Unlike many industry vulnerability assessment methods, the CFATS model is
      mostly a data collection step for DHS’ use and does not directly provide useful
      information to the facility on threats, vulnerabilities, consequences, or assist in
      identifying additional security needs. As a result, the SVA does not provide
      chemical facilities meaningful information for planning and executing an overall
      site security plan with a coherent resource estimate. Industry does not
      understand the secrecy behind the CFATS model or its CSAT tools.

      Industry officials said it seemed that people developing the CFATS Program
      thought chemical facilities were simple; as though each facility had one plant
      and required one fence. In reality, there are sites that encompass 10,000 acres,
      with multiple plants making a variety of products with multiple chemicals.
      Industry representatives were concerned whether CFATS has enough qualified
      personnel to review SSPs.

      While industry representatives generally support the CFATS Program, its slow
      implementation has caused additional concern. Industry views the CFATS
      Program as excessive paperwork and resource intensive. SSPs can range from
      300 to more than 1,000 pages and take a facility days to weeks to complete,
      even with multiple staff involved. There are deadlines for industry; however,
      DHS has not met its deadlines as stated in the CFATS regulation. For example, an
      industry official said a facility has removed its COI and requested
      redetermination from the Department 2 years ago, but has not received a
      decision, even though a decision should be provided within 45 days.

      Some industry security representatives thought that the CFATS Program would
      be implemented on an aggressive timeline and obtained corporate support to
      invest in facility upgrades. Security officials have lost momentum in securing


www.oig.dhs.gov                            83	                                  OIG-13-55

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      corporate funds for facility upgrades because of the slow implementation of the
      CFATS Program.

      After the internal ISCD memorandum was leaked to news media in December
      2011, Congress provided some industry members with copies. Overall, industry
      representatives were not surprised by the results, nor did their perspective of
      the program change. Industry representatives have testified before Congress
      that the reported issues in the leaked internal memorandum are not
      insurmountable.

      Recommendation

      We recommend that the Director of the Infrastructure Security Compliance
      Division:

      Recommendation #24:

      Improve the clarity of guidance provided to the CFATS-regulated industry so that
      it can benefit from regular and timely comments on facility submissions.

      Management Comments and OIG Analysis

      Management Response to Recommendation #24: NPPD officials concurred
      with Recommendation 24. In its response, NPPD said that as part of its efforts to
      improve the CSAT, ISCD intends to update its guidance materials for the Top-
      Screen, SVA, and SSP. ISCD is also in the process of developing updated guidance
      related to its Chemical-terrorism Vulnerability Information Program, and intends
      to release guidance specific to the CFATS Personnel Surety Program when the
      CFATS Personnel Surety Program is launched. Finally, ISCD intends to routinely
      update its website and Frequently Asked Questions page based on user feedback
      to provide clear guidance and assistance to the regulated community.

      OIG Analysis: We consider NPPD’s actions responsive to Recommendation 24,
      which is resolved and open. This recommendation will remain open pending our
      receipt of its guidance materials for the Top-Screen, SVA, SSP, Chemical-
      terrorism Vulnerability Information Program, and the CFATS Personnel Surety
      Program.




www.oig.dhs.gov                          84                                  OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Conclusion
DHS established the CFATS Program as required by the Department of Homeland
Security Appropriations Act of 2007, to regulate chemical facilities that may present a
high-level security risk. NPPD’s ISCD is responsible for implementing the CFATS
Program. ISCD’s action plan addressed some issues contained in the December 2011
leaked internal memorandum; however, challenges remain. For example, ISCD needs to
improve program-related tools and processes, reduce reliance on contractors, eliminate
program waste and duplication, follow proper hiring practices, and provide sufficient
training to personnel at all CFATS Program levels. ISCD can enhance program efficiency
and effectiveness by addressing these challenges.




www.oig.dhs.gov                           85                                  OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

DHS regulates chemical facilities that may present a high-level security risk through the
CFATS Program. ISCD, within NPPD, is responsible for CFATS implementation. In
December 2011, an ISCD limited distribution memorandum was leaked to news media.
This memorandum disclosed allegations of employee misconduct and inadequate
performance, as well as misuse of funds and ineffective hiring within the CFATS
Program. In February 2012, former Chairman Lungren, of the House Committee on
Homeland Security, Subcommittee on Cybersecurity, Infrastructure Protection and
Security Technologies, requested that we review these issues. In April 2012, Ranking
Member Waxman, of the House Committee on Energy and Commerce, also requested
that we review the challenges facing the CFATS Program. We consolidated both
requests into one review.

Our objectives were to determine whether: (1) management controls are in place and
operational to ensure that the CFATS Program is not mismanaged; (2) NPPD and ISCD
leadership misrepresented CFATS Program progress; and (3) nonconforming opinions of
CFATS Program personnel have been suppressed or met with retaliation.

We reviewed relevant legislation, regulations, directives, policies, strategic plans, annual
reports, and congressional testimony, and collected program documents, including
budgets, official guidance and emails, training materials, performance metrics,
guidelines, operating procedures, and human resources documents. We also studied
work previously performed by our office and the Government Accountability Office
(GAO).

We interviewed NPPD, IP, and ISCD personnel responsible for CFATS Program
implementation and oversight. We also interviewed union and industry officials to gain
their perspectives on the CFATS Program. To develop an understanding of similar
programs, we interviewed USCG officials to discuss challenges and best practices they
experienced in implementing the Maritime Transportation Security Act of 2002.




www.oig.dhs.gov                              86                                   OIG-13-55

                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Our fieldwork began in May 2012 and concluded in October 2012. We conducted this
review under the authority of the Inspector General Act of 1978, as amended, and
according to the Quality Standards for Inspections issued by the Council of the
Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                         87                               OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix B
Recommendations
We recommend that the Director of the Infrastructure Security Compliance Division: 


Recommendation #1: 


Modify Chemical Security Assessment Tools to capture facility data efficiently and 

25H




ensure that the tools provide meaningful end products for industry users and ISCD. 


Recommendation #2: 


Document engagement with Office of Infrastructure Protection and DHS regulatory and 

26H




voluntary programs to identify and implement existing tools and processes that can be
leveraged to make Top Screen, Security Vulnerability Assessments, and the Site Security
Plan tools more efficient, effective, and easier to use for the CFATS Program.

Recommendation #3:

Provide evidence of how the revised long-term Site Security Plan review process has 

27H




reduced the Site Security Plan backlog for all tiers. 


Recommendation #4: 


Define, develop, and implement processes and procedures for Compliance Inspections, 

28H




and train CFATS personnel to conduct Compliance Inspections.


Recommendation #5: 


Identify and implement a process to improve the timeliness of ISCD determinations for 

29H




all facility submissions.


Recommendation #6: 


Develop a strategy and implement a plan to address facility resubmissions and requests 

30H




for redetermination as prescribed in the CFATS regulation. 





www.oig.dhs.gov                            88                                  OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


      Recommendation #7:

31H   Limit funding for Personnel Surety Program vetting until the Office of Management and 

      Budget has approved the program’s Information Collection Request. 


      Recommendation #8: 


32H   Develop an action plan and guidance for implementing the Ammonium Nitrate Program, 

      which incorporates lessons learned from CFATS Program challenges. 


      Recommendation #9: 

             3H




      Develop and implement a curriculum and timeline for training inspectors to perform
      both Ammonium Nitrate and CFATS Program duties and responsibilities.

      Recommendation #10: 


34H   Develop and implement program metrics that measure CFATS Program value accurately 

      and demonstrate the extent to which risk has been reduced at regulated facilities. 


      Recommendation #11:

35H   Develop a strategy and implement a plan to work with Congress and private industry to 

      ensure long-term authorization for the CFATS Program. 


      Recommendation #12: 


36H   Develop a methodology and reporting process to identify and address errors and 

      anomalies that arise in the CFATS tiering methodology and risk engine. 


      Recommendation #13: 


37H   Provide the external peer review results, including comments on the V Factor, and 

      ISCD’s action plan to implement external peer review recommendations. 


      Recommendation #14: 


38H   Reduce overall ISCD reliance on contract personnel to avoid the appearance that 

      contractors may be performing inherently governmental functions and closely
      associated governmental functions.



www.oig.dhs.gov                                  89                                 OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


      Recommendation #15: 


39H   Develop and implement a learning curriculum that (1) describes position roles and 

      responsibilities clearly; (2) provides comprehensive training plans to prepare employees 

      to perform assigned duties; and (3) communicates measures to assess performance.


      We recommend that the Director of NPPD’s Office of Human Capital: 


      Recommendation #16: 


40H   Develop NPPD-wide policy regarding appointment of acting management in accordance 

      with Office of Personnel Management guidelines. 


      Recommendation #17: 


41H   Ensure that all employees serving in an acting supervisory capacity have a supervisory 

      position description in accordance with Office of Personnel Management requirements. 


      Recommendation #18: 


42H   Ensure that all employees receive performance reviews according to NPPD’s General 

      Instruction Guide on performance management. 


      We recommend that the Director of the Infrastructure Security Compliance Division: 


      Recommendation #19: 


43H   Eliminate the authorization and payment of Administratively Uncontrollable Overtime 

      for all ISCD personnel. 


      We recommend that the Assistant Secretary for Infrastructure Protection: 


      Recommendation #20: 


4H    Establish internal controls to ensure accountability for all ISCD appropriated funds and 

      that sufficient justification exists for all procurements. 





www.oig.dhs.gov                                   90                                   OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


      We recommend that the Director of the Infrastructure Security Compliance Division: 


      Recommendation #21: 


45H   Advertise and select permanent ISCD leadership with demonstrated qualifications and 

      skills at all levels, to include Division Director, Deputy Division Director, branch chiefs, 

      deputy branch chiefs, and section chiefs. 


      Recommendation #22: 


46H   Develop and disseminate an ISCD organizational and reporting structure to all ISCD staff. 


      We recommend that NPPD’s Under Secretary: 


      Recommendation #23: 


47H   Reiterate to all NPPD employees the process for reporting misconduct allegations.


      We recommend that the Director of the Infrastructure Security Compliance Division: 


      Recommendation #24: 


48H   Improve the clarity of guidance provided to the CFATS-regulated industry so that it can 

      benefit from regular and timely comments on facility submissions.





www.oig.dhs.gov                                     91                                     OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Appendix C
Management Comments to the Draft Report

                                                                                  Office u/lht Under Secretory
                                                                                  "'",iooQI ProtectiOIl Imd Pr,gru,u Direclorutt
                                                                                  U.S. Dtplrlment I)f Homel.nd S«'lrily
                                                                                  Wubington. DC 20521



                                                                     ~. Homeland
                                                                        Security
                                                                     'i!,..
                                   UAR 142013

        Mr. Clwles K. Edwards
        Deputy Inspector General
        Office of Inspector General
        U.S. Department of Homeland Security
        Washington, DC 20528

        Dear Mr. Edwards:

        Re: Office of Inspector General Report, Effe ctiveness o/lire Injrastrtjcture Security Ccmpliance
            Division 's Management Practices to Implement rhe Chemical Facility Anti·Terron·sm
            Standards Program (OIG Project No. 12-1 39-ISP-NPPD)

        Thank you for the opportunity to review and comment on the draft Office of Inspector General
        Report, Effectiveness o/the In[rastnlcture Security Compliance Division's Management
        Practices 10 Implementlhe Chemical Facility Anti-1'errorism Standards Program (DIG Project
        No. 12- 139-ISP-N PPD) (hereafter referred to as the "OIG Report" or the " Report"). The U.S.
        Department of Homeland Security (DHS) National Prot«;tion and Programs Directorate
        (NPPD), Office of Infrastructure Protection (IP), and Infrastructure Security Compliance
        Division (ISCD) [hereinafter collectively referred to as NPPDJ acknowledge the significant
        effort undertaken by the Office of Inspector General (DIG) in planning and conducting its review
        and issuing this report. The success of the Chemical Facility Anti-Terrorism Standards (CFATS)
        Program is a top priority for NPPD, and we welcome external perspectives on how to improve
        this important homel and security program .

        We understand that an already difficult task ofr~vi~wing a complex: program was mad~ mun:::
        challenging by the effort of the OIG to dc-conflict its assessment with two rcv1Cws of the same
        program that Congress had asked the Government Accounting Office (GAO) to undertake. As a
        result of thi s potential conflict, the 010 Report states that the scope oftheir review was to the
        end of fi scal year 20 12 only. In addition, the DIG explained that they did not attempt to include
        progress made on the Action Plan that ISCD leadership had developed in late 2011 and has
        nearly completed . Unfo rtunately, the decision to undertake what is now an hi storical review,
        along with the admitted lack of balance, necessarily dimi nishes the val ue and relevance of man y
        of the issues and findings discussed in the Report.

        NP PD has already taken many steps to address the issues and concerns raised in the Report,
        nearly all of whi ch were first raised in an internal memorandum prepared in 2011 by ISCD
        leadership. Indeed, as part of the 20 11 memorandum. ISCD leadership developed a
        comprehensive Actiun Plan that addressed the issues they had identified. Of the 95 items in the
        ISCD Action Plan designed to address these issues, 88 have already been implemented, leading




www.oig.dhs.gov                                           92                                                            OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        to significant ilTlprovernenl~ in tht;; managt;;mt::nL ofCfATS. This impurtant prugJt:s~ is not
        acknowledged in the Report.

        For example, the Report does not mention that the proh'Tam has implemented a revised Site
        Security Plan (SSP) rcview proccss that has significantly incrcascd thc pace of SSP rcviews, and
        re-trained inspectors on updated inspection protocols, which has led to a dramatic increase in the
        Authorization Inspection pace. In addition, ISeD has doclU11ented many critical processes
        through Standard Operating Procedures (SOPs). As described in greater detail below, as of
        March 8, 2013, these efforts have enabled ISCD to authorize 263 SSPs, conduct 13 1
        Authorization Inspections, and approve 47 SSPs, including AlternatiYe Security Programs
        (ASP). ISCD is now on pace to authorize, inspect, and approve between 30 and 50 SSPs per
        month, and is continuing to explore ways to further increase the pace of perfonnance as we move
        into Tier 3 and Tier 4 SSP reviews.

        Given the alignment of many of the issues discussed in the OIG Report and the 201 1 Action
        Plan, NPPD agrees with a majority of the DIG recommendations and, in fact, has already taken
        action to close six recommendations. NPPD does not concur with four of the recommendations
        and will address them below. Moreover, NPPD has significant concerns with the accuracy of
        several of the OIG findings , the unsubstantiated nahlre of many ofthe allegations contained
        within, and the OIG's failure to interview key personnel on issues within their portfolios during
        the period under review. Each of thcsc concerns will bc discussed in greatcr dctai I.

        OIG Recommendations Already Addressed in the ISeD Action Plan

        Many of the OIG concerns and recommendations are addressed, in whole or in part. by items in
        the 2011 ISCD Action Plan. Below is a list of Action Plan tasks that have been completed, with
        the relevant OIG recollUllendatioll included in a parenthetical after each action item.

            •   Initiate the hiring process to fill gaps in required skill sets and experience (OIC
                Recommendation 21)
            •   Engage the IP Director of Management's Office and NPPD Office of Human Capital to
                expedite the vacancy announcements for Branch Chief positions (OlG Recommendation
                2/)
            •   Implement a series of all-hands meetings within ISCD to provide the team with clarity
                concerning priorities, to lay the groundwork for a change in culture, and to involve the
                team in solving challenges facing the Division (.4ddresses concerns regarding
                effectiveness o!internal communications and Division culture)
            •   Cullt:d :surveys fcom aLtendees at all-hands meetings identifying perceptions of our
                greatest strengths, our greatest challenges, and recommendations for the way forward;
                analyze the result,; of the employee surveys to identify the major themes; and develop a
                plan to address them (Addresses concerns regarding effectiveness olinternul
                communications and Division culture)
            •   Establ ish transparent and effective communication with the workforce on important
                issues such as program changes, promotions, projects, and simil ar items (GIG
                Recommendation 22)




                                                          2




www.oig.dhs.gov                                             93                                               OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




           •   Communicate DHS policy with regard to perfonnance management to all employecs and
               appropriately address any reports of poor perfonnance (DIG Recommendation 18)
           •   Improve messaging about the current status of the program, using consistent tenninology
               to avoid confusion (Addresses concenl about use 0/ cOfifusing terminology Ieadiflg to
               misunderstandings)
           •   Codify the inspection methodology and associated procedures, appropriate fonns and
               reporting methods, associated IT tool s, equipment, guidance materials, and functional
               inspector training (OIG Recommendations / , 4, 9, /5)
           •   Develop and implement an effective basic inspector training course; ensure all inspectors,
               currcnt and new hires. attend the course; and ensure all inspectors receive updated
               trainillg for inspections and an inspector training program is devdopeJ for new hires
               (OIG Recommendations 4, 9, 15)
           •   Develop and implement a plan to improve the Site Security Plan (SSP) review process
               (OIG Recommendation 3)
           •   Revise criteria for the scheduling of compliance inspections (OIG Recummenduliun 4)
           •   ReYlse the Chcmicc.l Security Assessment Tool (CSAT) to create a more efficient and
               effective tool for both industry and ISCD based on industry engagement (DIG
               Recommendation 1)
           •   Evaluate all current and planned contracts using the DRS Balanced Workforce Strategy
               and develop a plan to transition to Federal employees as appropriate (OIG
               Recommendatio n 14)
           •   Establish and implement a process for assessing Contracting Officer's Representative
               performance of contract administration responsibilities to ensure that contracts will
               continue to be developed, implemented, and overseen in a manner consistent with policy
               and law (DIG Recommendation J4)
           •   Engage NPPD amllP Offices of Human Capital concerning responsi veness to human
               capital issues and propose a bi-weekly meeting among lSCD and NPPD and rP Offices of
               Human Capital to ensure etTective communications and visibility on issues (UiG
               Recommendalions 17. /8)
           •   Effectively communicate to supervisors and managers the importance of compliance with
               the NPPD Perfonnancc Management Program; establish a tracking mechanism to ensure
               compliance. and hold supervisors and managers accountable for non-compli ance with
               established standards for performance management (DIG Recommendation 18)
           •   Establish a process to evaluate any new requirements (DIG Recommendation 20)
           •   Review whether and to what extent the use of Administratively Uncontrollable Overtime
               (AUO) is appropriate within ISCD (OIG Recommendation 19)


        Specific Areas of Greatest Concern with the OIG Report

        The following arc three areas contained in the OIG Report which NPPD believes are not
        supported by evidence and with which we strongly disagree.




                                                       3




www.oig.dhs.gov                                            94                                               OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




               Unsubstantiated Allegations of Suppression and Retaliation

        The OIG Report ul:knowledges that it was unable to ~ubslanliale any (;hlirn~ orretalialion and
        suppression of nonconfonning opinions. Despite this, the Report alleges, without supporting
        evidence, that the [SeD "work environment and culture cultivates this perception." Given the
        unsubstantiated nature of this conclusion, it is difficult to assess. After identifying this as a
        potcntial issue in the 2011 internal memorandum, ISCD leadership has undertaken concerted
        efforts to provide an envirorunent of openness and transparency, where individuals at all levels
        within the Division are encouraged to provide their opinions to ISCO leadership. In addition,
        Nrro has consistently worked to communicate to employees that leadership welcomes all view
        points and affinnatively encourages reporting of bad news to ensure that problems can be
        addressed in an appropriate and timely manner. The ISCD Director has taken steps to ensure
        that employee views and opinions are solicited and heard, including instituting an "open door"
        policy, conducting frequent all-hands meetings, and establishing a Director's Advisory Working
        Group composed of staff-level employees from throughout the Division. Further, NPPD has
        established a "Suggestions" email inbox and periodically reminds employees of the avenues
        available to them to report allegations of misconduct and potential cases of fraud , waste and
        abuse, including the issuance of a Principles of lntegrity and Professional Responslbility
        Management Directive in January 2013. NPPD will wnlinue to work on litis wiUI the aim of
        assuring each and every employee that nonconfonning opinions will not face suppression or
        retaliation .

               Personnel Surety Program

        In its review of the CF A TS Personnel Surety Program, the OIG did not interview either the
        CF A TS PersOIU1e1 Surety Program Manager or representatives of the Department's Screening
        Coordination Office (SCO) responsible for coordinating with IS CD on the development of the
        CFATS Personnel Surety Program. NPPD has offered to make the CFATS Personnel Surety
        Prugram manager availablt: ror interview to discuss the issues raised in the Repolt. The OIG
        elected not to do so.

        The OIG Report suggests lhallhe Terrorist Saeening Center (TSC) can provide the same
        services as TSA and C BP through a no-cost detailee. In actuality, the services being procured by
        l'\PPD from TSA are much hroader than basic TSDB vetting. For instance, TSA supports
        recurrent vetting, which is a DHS best practice, because it has substantially mort: ~ecuri t y value
        than point-in-timc vetting. TSC does not support recurrent vetting. TSA also can verify an
        individual ' s enrollment in the Transportation Worker Tdentification Credential (TWIC) program
        or the Hazardous Materials Endorsement (HME) program , whereas TSC cannot. Similarly, only
        COP can verify an individual's enrollment in the Trusted Traveler Programs . Accordingly,
        NPPD has established an agreement with CBP to provide that service.

        The: 010 Re:port also states "Some ISCD staff said they wanted to identify alternate ways to
        conduct TSDB searches, but were prohibited from doing so." In fact, as acknowledged in the
        Report, ISCD, IP, and NPPD have repeatedly explored alternatives to using TSA for TSDB
        vetting. On several u(';l:asiuns over the past llu'ee years, the CF ATS Personnel Surety Program
        Manager was tasked by Division leadership with reviewing available alternatives and




                                                         4




www.oig.dhs.gov                                              95                                                OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




        encouraged to seek other options. In doing so, the CFATS Personnel Surety Program Manager
        met with the TSC, Federal Protective Service. US-VISIT, and the Nuclear Regulatory
        Commission, among others. Each time the analysis supported the selection ofTSA as the best
        vetting solution for NP PD.

        Finally, tht: OIG Rt:port uocs not admowhxlge the DHS-wide effort, with which NPPD has
        aligned, to facilitate OHS mission-related functions, such as counterterrorism, law enforcement,
        horder ~ecuri t y, and in~pection activjtie~ related to screening activities involving the TSDB. In
        particular, the 010 Repon omits that DHS and TSC have established a process for transmitting
        TSOB data from TSC to DI-IS through a service called the "OHS Watchlist Scrvicc" (WLS).
        Coder the WLS , TSC, who remains the authoritative source of watchlist data, provides DHS
        with near real-time synchronization of the TSDB. DHS then uses the data in the WLS to support
        DHS TSDB screening activities. As a result, the statement that [SeD "cannot identify
        individuals with terrorist ties without TSC infonnation" is somewhat misleading. Rather, the
        Department has made substantial investments to make available a copy of the TSDB for use by
        DI--IS components, and thus those components do not need to go directly to TSC for that
        infonnation.

        Overall, the Personnel Surety Program discussion in the 010 RepOlt has a !lumber of
        inaccuracies and fails to discuss various considerations, factors, and constraints that influence
        how, when, and to whom funding for the CF ATS Personnel Surety Program historically has been
        allocated and will be allocated in the future. Consequently, NPPD cannot support the
        rccommcndation related to thc CF ATS Personnel Surety Program.

                Inherentl~'   Governmental Functions

        The DIG Report states that IG was ''unable to substantiate whether contractors were perfonning
        inherently governmental functions." The Report enumerates a number of categories of activities
        that genetically meet the definition of inherently governmental functions and closely associated
        governmental functions, but the tG did not find any activities that were actually performed by
        JSCO contractors that would meet the definition of an inherently governmental function. The
        Repon notes that contractors developed training material, which is not an inherently
        governmental function.

        The DIG Report similarly fails to proviut: any spt:cific t:xamples of closely associated
        governmental functions perfonned by ISCD contractors. The OIG does assert that ISCD does
        not always ha ve the minimum percentage of Federal empl()yee~ needed to perform or oversee
        these functions, although it does not provide any examples. Rather, the 010 cites the perception
        of insufficient Federal supervision on a single, anonymous employee.

        The DIG Report also fails to acknowledge the mechanisms that NPPD has in place to ensure that
        its contractors do not perform inherently governmental functions and, thereby, to ensurc
        compliance with applicable laws and regulations. For example, all NPPD contracts are vetted
        lUlder the Department's Balanced Workforce Strategy. This process includes a review of all
        Statemtmts ufWork (SOW) to ens ure that no work contained in the SOW is inherently
        governmental.




                                                         5




www.oig.dhs.gov                                           96                                                  OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




        Response to Recommendations

        f\PPD previously provided teclmical comments and corrections of factual errors to 010 under
        separate cover. With regard to recommendations, we agree in whole or in part with all hut four
        of the 24 recommendations. Notably. ISCD identified similar action items nearly 18 months ago
        and included them in the Action Plan. NPPD has already taken actions that complete six of the
        recommendations, and has made significant progress towards completion of a number of other
        recommendations as well. Below are NPPD's detai led responses to the 24 recommendations
        contained in the OIG Report.

        Recommendation 1: Modify Chemical Security Assessment Tools to capture facility data
        efficiently and ensure that the tools provide meaningful end products for industry users and
        (SeD .

        Response: Concur. Improving the Chemical Security Assessment Tool (CSAT) is one of
        IseD's top priorities for tiscal years (FY) 20 13 and 2014. Based on input received to date from
        both the regulated community as well as internal ISCD users oflhe OUlputs of the CSA T
        applications, IS CD has identified a number of potential improvements that should help make all
        three of the primary CSAT applications- the Top-Screen, the Security Vulnerabi lity Assessment
        (SYA), and the SSP-more user-friendly, more efficient, and more effective. Some of the
        currently envisioned changes to the CSAT tool includc improvcd question quality and question
        flow; pre-population of data within the tool to reduce the burden on industry users and minimize
        the likelihood of data entry errors; dynamic lists of options and forced selections to expand pre-
        defined responses to questions to reduce the collection of unstructured text in "other" fields; and
        preparation of a CSA T tool lexicon and on-screen (i.e., contextual) help to better lead and
        instruct CSAT users.

        In order to revalidate and fonnalize those suggestions for improving CSAT as well as identify
        any additional potential improvements, ISCD launched a "CSA T re-engineering and
        uplimi:latiun" errort in 20 12. TIlis effon was broken into four tasks: fonnally engage the
        regulated community to solicit industry feedback and increase stakeholder involvement and buy-
        in; refine and document the process model for the Ii fecycle of a facility subm1ssion; document
        functional requirements to address industry com.:ems and information technology (IT)
        architecture inefficiencies; and revise and implement the modified IT system.

        ISCD has already initiated discussions regarding this effort and is soliciting input from rnembc.-rs
        of the regulated community with which ISCD interocts on 11 regular basis. In order to expand the
        pool of entities providing feedback to better ensure all elements of the regulated community have
        a chance to contribute, the Department has scheduled three roundtables with members of the
        regulated community in various locations around the United States.

        Recommendation 2: Document engagement with Office of Infrastructure Protection and DHS
        rebrulatory amI voluntary programs to identify and implement existing tools and processes that
        can be leveraged to make Top Screen, Security Vulnerability Assessments, and the Site Security
        Plan tools more efficient, etfective, and easier to use for the CF ATS Program.




                                                         6




www.oig.dhs.gov                                           97                                                   OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




        Response: Concur. NPPD agrees that documenting engagement between DHS rebTUlatory and
        voluntary programs to identify and, where appropriate, implement existing tools and processes
        that can be leveraged to make the CF ATS program more efficient and effective is a worthwhile
        goal and we are committed to doing so. We do, however, strongly disagree with the OIG
        implication that the voluntary and regulatory programs have not previously collaborated and the
        OIG claim that ISCD managcmcnt has scparated the IP voluntary and regulatory programs in a
        manner that impedes ISC D's (1bility to identify and ~pply best practices for its program.

        While it is correct that lSCD leadership has strived to ensure that there is a bright line
        demarcating the regulatory and voluntary efforts, as is appropriate, ISCD leadership has also
        worked diligently through the years to ensure cross-Divisional awareness of efforts,
        collaboration across the voluntary and regulatory programs, and leveraging of tools and best
        practices where appropriate. This collaboration has occurred in a number of ways since the
        inception of IS CD.

        For ~xampl~, the information h....dlllology syslern used by lSCD to support the assessment of
        CF ATS Site Security Plans is based on the system previously developed and still used by the
        Protective Security Advisors (PSAs) within IP 's Protective Security Coordination Division
        (PSCD) to conduct vulnerability assessments. In fact, to best leverage the previous experiences
        gained in developing the tool used by the PSAs, ISCD hired primarily the same staff at Argonne
        National Laboratory to develop the CFATS SSP scoring too\. Similarly, when developing its
        cyber security standards in support of Risk-Based Perfonnance Standard 8, ISCD established a
        team of cyber security experts led hy representatives from the National Cyber Security Division
        (a predecessor to the Offi!';c of Cybt:rsecuri Ly and Communications). Third, when ISCD was
        determining how to incorporate threat into the CFATS risk methodology, IseD consulted with
        the risk experts located in IP's HITRAC.

        Throughout its history, ISCD also has worked routinely with lP's Sector Outreach and Programs
        Division (SO PD), in panicular their Chemical Sector Specific Agency (SSA) and Oil & Natural
        Gas SSA. For instance, on numerous occasions throughout its history, various members of
        ISCD's leadcrsl1ip team have received briefings on the Chemical SSl\'s Voluntary Chemical
        Assessment Toul with an ey~ Lowards how it might be utilized to improve the CFATS
        assessment processes. Similarly, ISCD and PSCD leadership have met on a number of
        occasions to discuss how ISCD Chemical Security Inspectors and PSCD PSAs could collaborate
        better and how activities perfonned by each could be used to support efforts by thc other's
        Division. For example, in April 20 12, ISCD and PSCD leadership jointly met with a grOll["l of
        ISCD Field Commanders and PSCD SupelVisory PSAs to discuss continul,..-u inl~radioll between
        the two Divisions' field cadres and to identify opportunities for leveraging each cadre's activities
        throughout IP.

         ISCD leadership and staff also participate in various recurring meetings with representatives
         from other IP divisions to, among other things, exchange ideas and best practices, discuss joint
         activities and programs, and provide status updates on Divisional activities. This includes a
         weekly lP leadership meeting involving the Assistant Secretary for Infrastructure Protection and
         Directors and/or Deputy Directors from all IP Divisions, and bi-weekly SOPD-Ied calls that
         focus on activities underway in the various critical infrastructure sectors.




                                                         7




www.oig.dhs.gov                                           98                                                   OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        Recommendation 3: Provide evidence of how the revised long-tenn Site Security Plan review
        process has reduced the Site Security Plan backlog for all tiers.

        Response: Concur/Completed. The utxiated SSP authorization, inspection, and approval rates
        currently occurring, which are described below, demonstrate that the current updated SSP review
        process is reducing the SSP backlog for all tiers, beginning with Tiers I and 2.

        During tht: fir~t hal r urzo 12, ISCD p~rrl)rm~d a number or al:tiYitic:~ that havt: signifir.;antly
        improved the pace of SSP reviews and inspections and reduced the SSP backlog. These
        activities include clarifying some of the policies regarding SSP reviews. finalizing the
        development of a new SSP review process, training SSP reviewers on the new process,
        developing a CFATS Inspections Standard Operating Procedure (SOP), and training the entire
        CF ATS Chemical Security Inspector Cadre on the new inspections SOP. As a result of these
        ood other complementary activities, the rate of SSP reviews, authorizations, and approvals, as
        well a" the rate of conduct of Authorization Inspections, has signiticantly increased.

        Specifically, as of September 1, 2012 , IS CD had only authorized 60 SSPs, conducted 19
        Authorization Inspections, and had not approved any SSPs. From October ZO 12 through January
        2013, however, ISCD completed its review of all Tier I facility SSPs and authorized an avcrage
        of36 SSPs per month, with a high total of 47 authorizations in January 20 13 . ISCD is projecting
        authori zations to hold steady at this pace, with beh'leen 40 and 50 authorizations expected each
        month for the remainder of the fi scal year. With the number of authorized SSPs increasing, the
        numher of Authorization inspections being conducted is steadily increasing as well. ISCD
        (;ompl~ttxl26 Autbori:laliun Im:iper.;liun.s in January 2013 aud 48 Authorization [nspections in
        February 2013. ISCD is projecting that 40 o r more Authorization Inspections will be conducted
        each month for the remainder of FY 20 13. SSP Approvals have also increased, and as of March
        5,2013, ISCD has approved SSPs (or ASPs submitted in lieu of SSrs) for 40 facilities. ISCD is
        projecting a steady increase in the number of approvals going forward as well , with between 30
        and 50 pcr month expected to become the nonn starting in March 2013.

        ISCD intends to oontinue to track and report on these statistics, and believes they clearly
        demonstmte th~ rcvist:d SSP process and other improvements have dramatically increased SSP
        throughput and are reducing the SSP backlog.

        Recommendation 4: Define, develop, and implement processes and procedures for Compliance
        Inspections, and train CFATS personnel to conduct Compliance Inspections.

        Respunse: Concur. NPPD agrees that it is imperative to ensure that processes and procedures
        for scheduling and perfonning all CF ATS inspections, including Compliance Inspections, are
        well documented and that CFATS personnel who conduct inspections are trained on how to
        properly conduct them. To that end, lSCD has developed a Standard Operating Procedure for
        Inspections ofCFATS Covered Facilities, which defines the different types of insrections
        conducted by ISCD, enumerates roles and responsibilities related to inspel:tions, and details
        processes and standard operating procedures for pre-inspection, inspection, and post-inspection
        activi ties.

         During the summer of20 12, all ofISCD's CFA TS lnspectors participated in one of five two-
         week training sessions on the new. documented lSeD Inspection protocols. Thcse training




                                                          8




www.oig.dhs.gov                                             99                                                 OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




        sessio ns enabled ISe D to resume Authorization Inspections in July 2012. Many of the lessons
        taught during these two-week sessions are equally applicable to Compliance Inspections.
        Ncverthelcss, it is lSe D 's intention to providc additional training morc specific to Compliance
        Inspections to all of its Chem ical Security In spectors prior to their beginning to conduct those
        inspections in September 2013 .

        Recommendation 5: Identify and impleme nt a process to improve the timeliness of [SCl)
        detem1inations for all facility submi ssions.

        Response: Concur. NPPD recognizes that responding to facility submissions in a timely
        fashion is important for the credibility of the p rogram and continues work to reducc rcsp~nsc
        times. It is worth noting, however, that the O IG Report overstates the current average time
        frame it is taking lSCD to issue detenninations based on Top-Screen and SVA submissions.
        Oyer the last three-month period measured, the average time from the facility's submission of an
        initial Top-Screen to ISCD's notification o f a preliminary tier or non-regulated status is 64 days
        (not 4. 8 months), the average time from the submission of an updated Top-Screen to notification
        of a revised tier or non-regulated slatus is 60 days (not 6.9 months), and the average time from
        the submi ss ion of an SVA to notification o f a final tier o r non-regulated status is 101 days (not
        7.5 months).

        Recommendation 6: Develop a strategy and implement a plan to address facility resubmissions
        and requests for rcdetenn ination as prcscribcd in the CF ATS rcgulation.

        Response: Concur. ISCD has established draft procedures and policies for receiYing,
        reviewing, and responding to facility resubmi ssions and requests for redetennination. lSCD also
        has provided guidance to facilities on how to properly request a redetennination and fi le a
        resubmission, established criteria for how to effectively process the requests, and detennined
        appropriate review and analysis channels. Each request is reviewed to detennine if the
        resuhmi ssion significantly atlects the facility's processes and chemicals or only has minor
        impacts. Th is determination allows ISCD to identify tbe appropriate next steps involving the
        facility, which may include a Compliance Assistance Visit, new tiering detennination, updated
        SVA, updated SSP, and/or other action.

         Recommendation 7: Limit fundi ng for Personne l Surety Program vetting until the O ffice o f
         ManagcmtmL and Budget has approved the program's Infom1ation Collection Request.

        Response: Non-Con cur. As noted earlier, the Personnel Surety Program discussion in the OIG
        Report contains a numbcr ufinal;Curacit:s an d fails to d iscuss many of the various considerations,
        factors, and constraints that influence how, when, and to whom funding for the CFATS
        Personnel Surety Program hi storicall y has been allocated and will be allocated in the future. As
        NPPD has done in the past, we will continue to perfonn careful and deliberate analysis prior to
        the expenditure of any funds re lated to thc CF ATS Personnel Surety P rogram and will only
        allocate funding when deemed appropriate given all relevant factors. The status of the
        Infonnation Collection Request is simply one of those factors, albeit an important one.
        Consequently, the Departm ent cannot concur with limiting fund ing to the Personnel Surety
        Program based so lel y on the status of the Infonnation Collection Request witho ut considering all
        of the other factors that go into the detennination o f how and when to fund the CF ATS Personnel
        S urd)' Program.




                                                          9




www.oig.dhs.gov                                           100                                                   OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        Recommendation 8: Develop an action plan and guidance for implementing the Ammonium
        Nitrate Program, which incorporates lessons learned from CfATS Program challenges.

        Response: Concur. As the Ammonium Nitrate (AN) Security Program is a proposed regulatory
        program, its development is guided in large part by the regulations and prot.:t...·uure:s :sel forLh in
        the Administrative Procedure Act, the authorizing statute, and Office of Management and Budget
        (OMB) guidance with respect to rulemaking activities. I\ PPD has been working within the
        paramel ~ established by those items to uevdop a final rule anu an action plan and guidance for
        implementation of the final rule. NPPDiIP has recently [lSsigned a member of the Senior
        Rxecutive Service (SES) to oversee the development and impl ementation of the proposed
        Ammoni um Nitrate Security Program.

        Throughout the nJlemaking and planning process, ISCD has been evaluating lessons learned
        from the CFATS Program and incorporating them into the development of the Ammonium
        1\itrate Security Program rulemaking activities and implementation planning. In particular,
        ISCD believes there are a number of programmatic similarities between the proposed
        Ammonium Nitrate Security Program and the proposed CF ATS Personnel Surety Program.
        NPPD intends not only to apply lessons leamed from CF ATS Personnel Surety cfforts to the
        Ammonium Nitrate Securi ty Program, but also to take advantage of relationships, processes,
        information technology, and other aspects of the CFATS Personnel Surety Program to the
        maximum t;X lerll possihk.

        Recommendation 9: Develop and implement a curriculum and timeline for training inspectors
        to perform both Ammonium Nitrate and CF A TS Program duties and responsibilities.

        Response : Concur. ISCD is committed to ensuring that all personnel receive and maintain the
        appropriatc level and scope of mission-specific training in support of CFAT S and AN
        implementation_ Thi s includes training not only for inspectors, but also for those individual s
        performing compliam;t:, polit,;y amJ olher acti vities in support o f C FATS. Training for these
        personnel will be developed and executed over the next two years in a prioritized manner that
        best ensures our ability to complete our mission. In order to achi eve this. among other things,
        ISCD intends to (a) analyze employee training needs and review, anal yze, and update existing
        curriculum to improve leaming content and outcomes ; (b) assess and implement, as appropriate,
        blended learning technologies and curricula to include both Web-based I Distance Learning!
        cClassroom solutions and traditional classrooms utilizing a variety of multi-media tools,
        including, but not lim ited to, wehinars, training videos, and SharePoint collaboration tools; (c)
        design, develop, ami deli ver instructional content for alllSCD persolUlel based on roles,
        competencies, and learning objectives; and (d) evaluate training courses, curriculum and learning
        outcomes to ensure alignment with organizational priorities and enhance future training offered
        to ISCD employees.

        In support of this effort, ISCD will develop, implement, update, and maintain training prognuns
        as rcquircd, using the Analysis, Design, Development, Implementation, and Evaluation (ADDIE)
        model of Instructional System Design (ISO) as the baseline framework. This framework will
        ensure that any training L:onlent is instruclionall y sound and adheres to DHS and federally
        approved technology standards and regulations (e.g., Sharable Content Object Reference Model




                                                          10




www.oig.dhs.gov                                            101                                                    OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        (SCORM), Section 508, MlL-HDBK-29612). Courses currently planned for
        developmentfimprovement. along with their expected date of completion. include the following:

               •   CFATS Course for New Inspectors (FYI3)
               •   AUO Training (FYI3)
               •   Risk Based Perfonnance Standard 8 Cybcr Security Inspections (FY13)
               •   Regulatory / Compliance Review [raining courses for all IS CD personnel (FYI4)
               •   Basic level trainings specific to various job series (FY 14)
               •   Updated training on Federal, State, local and private sector outreach (FY 14)
               •   Advanced level trainings specific to various job series (FYI5)
               •   Training on Ammonium Nitrate for Inspectors and other selected personnel (TBD
                   based on timing of issuance of Ammonium Nitrate Security Program final rule)

        Recommendation 10: Develop and implement program mctrics that measure CFATS Program
        value accurately and demonstrate the extent to which risk has been reduced at regulated
        facilities.

        Response: Concur/Completed. During FY 2012, the ISCD Program Management Office
        developed an Annual Operating Plan (AOP) containing CFATS program perfonnance metrics
        for FY 13 and beyond, including defined mi lestones, perfonnance measures, and data points that
        will be tracked to monitor program perfonnance. The subj ect listings are extensive and cover the
        full gamut ofCFATS program execution including business support activities. The AOP is an
        lSCD Direl.:tor approveu UOl.:umenL TIlt: perfonnance melrics recognize both current and
        projected measurement start dates as some business processes do not start until FYl4 or later.
        As of the fi rst quarter of FY 13, there are 38 listed milestones, 73 perfonnance measures, and 73
        key data tracking elements. These measures are subject to quarterly reviews anu upuah:s.

        Additionally, ISCD recently updated its Government Perfonnance and Results Act (GPRA.)
        metric to better reflect program progress. Specifically, the CPATS program developed a
        perfonnance measure based on its Risk-Based Perfonnanee Standards (RBPS) with defined
        fiscal year (FY) perfonnance targets that measure the degree of covered facilities ' compliance
        with the CF ATS regulation. The new GPRA measure uacks and reports on the percentage of
        applicable RBPS that are confinned through the SSP!ASP approval process as having been met
        by Tier 1 ::md Tier 2 covered facilities. Tier 3 and Tier 4 targets are planned to be defined in late
        FY 13. This perfonnance measure is reflective of tht: CFATS ~gulation's value and impact 011
        regulated facilities' ri sk reduction. This measure has been approved as the reporting metric for
        GPRA by both DRS leadership and the White House's Office of Management and Budget.

        Recommendation II: Develop a strategy and implement a plan to work with Congress and
        private industry to ensure long-tenn authorization for the CF ATS Program.

        Response: Concur. The long-teon authorization of CF ATS remains a top priority for NP PD.
        Over the past few months, ISCD has worked closely with the DHS Office of Legislative Affairs
        (aLA) to proactively engage Congress and reinforce thc message that tong-tenn authorization is
        a Departmental priority. The Department has advocated for long tenn reauthorization in
        congressional testimony and has worked with our interagency partm:rs to ensure that Congr~s
        receives a consistent message. Additionally, NPPD stands ready to provide whatever technical
        a,,~i~tance or other input Congressional members request in regards to CFATS reauthorization.




                                                          11




www.oig.dhs.gov                                           102                                                   OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




        Perhaps most importantly, as described above, ISCl> has signifi cantly increased the pace at
        which it is review ing, authorizing, inspecting, and approving SSP!>; rl;!(.;cntly approveU it!> fir~t
        Alternative Security Programs (ASP); successfully assisted an industry association's efforts to
        develop an ASP template tor use by its members; engaged industry in ways to improve the
        information technology systems supporting the implementation ofCF ATS; and achieved a
        number of other programmatic successcs and milestones. NPPD leadership believcs therc is
        nothing more critical to achieving long-term authorization of CF ATS then the successful
        implementation of CF ATS and recognition that the program is headed in the right direction.
        NPPD leadership is proactively sharing these success stories with members of Congress .

        Recommendation 12 : Develop a methodology and reporting process to identify and address
        errors and anomalies that arise in the CFATS tiering methodology and risk engine.

        Response: Concur. Even though the anomalies occurred only with the tiering of sabotage and
        release chemicals o f interest, which aCCowlts for less than 15 percent of the CFATS regulated
        community, ISCD is undertaking a three-phased approach to review the tiering process. This
        three-phased approach, which is reflected in Action Hem 94 of ISCD's current Action Plan,
        indutles the fullowing ar.;livilies:

                    1. Thoroughl y document all processes and procedures relating to the tiering
                       methodology,
                    2. Conduct an internal DHS review of the complete tiering process; and
                    3. Conduct an external peer re\'iew of the risk-based tiering methodology.

        The first two phases were completed by NPPD in 2012 while the OIG review was underway.
        The third item, the external peer review, began in January 2013 . It is being led by a non-profit
        Federally Funded Research and Development Center and involves experts from Govermnent,
        industry, am.I at.:auemia. TIle peer review panel has been tasked with reviewing the existing
        CFATS risk methodology to see ifit is a justifiable and reasonable approach for tiering high risk
        chemical facilities. While the peer review has the ability to look at any and aJl aspects of the
        existing risk methodolugy, the Departmenl did pruvide the peer review panel with a list of
        potential areas for improvement that the Department identified in the first two phases of its three-
        phased review of the risk methodology. The results of the peer review are expected to be
        provided to the Depanment in the third quarter ofFY 20 \ 3.

        In addition to this fonnal review, the SV A and SSP review processes have been developed in a
        manner that requires multiple subject matter expert (Sl\1"E) reviews of facility submissions. If at
        any point in time an SME identifies a potential anomaly in a faci lity's tiering, that anomaly is
        investigated to determine if it was a facility data error, an error within the tiering engine or risk
        methodology, or not an anomaly at all. This supports a continuous improvement process which
        ISCD has in place for all of its processes and methodologies.

         Recommendation 13 : Provide the external peer review results, including comments on the V
         Factor, and ISCD' s action plan to implement external peer review recommendations.




                                                           12




www.oig.dhs.gov                                             103                                                  OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




        Response: Partially Concur. While ISCD supports the notion of acting appropriately on the
        external peer review findings and would be pleased to share those findin gs with the appropriate
        entities, it is unclear with whom the OIG is recommending IseD share those results. Given the
        lack of clarity, NPPD cannot concur in full with the recommendation. [n addition, while all
        recommendations from the peer review will be considered. the Department cannot commit to
        implementation of the recommendations until the Deportment knows what the recommendations
        are. it should also be noted that the CF ATS risk methodology's treatment ofwlnerahility (i.e.,
        the "V Factor") is one of the specific areas that ISCD in fonlled the peer revic.::w ptll1c1ISCD is
        particularly interested in receiving feedback from the peer review panel on.

        Recommenda tion 14: Reduce overalllSCD reliance on contract persolUlei to avo id the
        appearance that contractors m ay be perfonning inherently governmental functions and closely
        associated governmental function s.

        Response: Non-Concur. To cnsure that ISCD has the appropriate mix of Federal and contractor
        skills, expertise, experience, and other assets necessary to effectively achieve the Department 's
        mission, each new and re-competed contract is analyzed utilizing the DBS Balanced Workforce
        Strategy tool to assess risk, ability to provide adequate oversight, and cost. Based on the
        analyses done to date, we do not believe that IS CD is overly reliant on contract personnel, nor do
        we believe that any contractors nre perfonning inherently governmental functions or
        inappropriately performing closely associated governmental functions (which, the OIG Report
        fails Lo not!;, (';ontractors are allowed to perform so long as they do so wi th proper supervision by
        a Federal employee).

        NPPD also notes that there is no substantiating evidence for any of the allegations made by the
        O IG regarding contractors perfonning inherentl y governmental functions, nor any specific
        examples of activities that gi .....e the perception of such prohibited activity. Ne . . .ertheless, ISCD,
        in conj unction with NPPD Finance, will perform an asse5stnent of ISCD's current lc. . .el of
        contract personnel to confi nn that there is not an overrel iance on contract personnel.
        Additionally, NPPD and ISCD will wnLinue to revic.::w all new lSCD procurements under the
        DHS Balanced Workforce Strategy to ensure the Scopes of Work for contractors do not include
        any inherently governmental functions.

        Recommendation 15: Develop and implem en t a learning cuni culum that (1) de ~crihes
        position roles and responsibilities clearly; (2) provides comprehensive training plans tu prep<lre
        empl oyees to perform assigned duties; and (3) communicates measures to assess per formance.

        Response: Cum:ur. In 2012, ISCD conducted human resources pl anning to detem1ine and
        identify the human resources and the necessary skill sets required for program success. Based on
        these activities, ISeD realigned its organization on a fimctional basis and clarified fu nctional unit
        roles and responsibilities. Using this and other information as a baseline, l SCD is developing a
        Human Resource Plan which will include a staffing management plan and identification of
        training needs for all staff. ISeD is utilizing a workforce analysis methodology to complete this
        Human Resources Plan. This workforce analysis will include:

               •    Conducting ajob analysis for each position;
               •    Creating new/revised position descriptions and job./task analysis worksheets for each
                    positlon;




                                                            13




www.oig.dhs.gov                                              104                                                     OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




               •   Identifying required skills and competencies for each job;
               •   Creating new performance plans and standards by job; and
               •   Implementing new Individual Developmental Training plans targeted at developing
                   and/or maintaining required skills and competencies.

        Following thc completion of the Human Resources Plan, ISCD intends to develop and
        disseminate an ISCD Employee Handbook that describes for all staff various aspects o f the
        Human Resources Plan.

        Recommendation 16: Develop NPPD-wide policy regarrling appointment of acting
        management in accordance with Office of Personnel Managemem guidelines.

        Response: Concur/Completed. NPPD already has developed and issued an NPPD Merit
        Promotiun Plan that states n:::ljuin:ments fur details and temporary promotions that are consistent
        with OPM requirements. To ensure that NPPD managers and human capital staff at all levels of
        NPPD understand the policies surrounding the appointment of acting management, NPPD
        Human Capital intends to provide training on the topic to appropriate individuals.

         Recommendation 17: Ensure that all employees serving in an acting supcrvisory capacity
         have a supervisory position description in accordance with Offiee of Personnel Management
         requirements.

        Response: Non-Concur. The term "acting" does not have a formal definition under Office of
        Personnel Management (OPM) guidelines nor does OPM require that employees perfonning
        supen1isor)' duties in an "acting" capachy aJways have a supervisory position description. The
        term "acting" may be used to cover anything from full assumption of duties of a position, to
        temporarily covering one-day absences, to ser\'ing as a point-of-contact but not covering all
        aspects of the position. However, it is important that managers are diligent in applying the rules
        for details when temporarily assigning employees to other duties. To alleviate any
        misunderstanding, we are exploring developing Human Resources (HR) training for managers
        that specifically address these topics.

        Recommendation 18: Ensure that all employees receive performance reviews according to
        NPPD's General Instruction Guide on performance management.

        Response: Concur. On December 31, 2012, NPPD's Employee and Labor Relations Office
        issued a memorandum on Performance Management guidance that requires all non-SES
        employees to receive at least one rormal d(J(.;umentoo Prub'Tt:SS review throughout the
        perfonnance cycle. A signed acknowledgement form , to include feedback from the supervisor,
        is to be provided to the employee. This memo al so addressed a new requirement for the
        subcomponent Chiefs of Staff to document and validate dates each employee signed a progress
        review by utilizing the NPPD Pcrfonnancc Plan and Appraisal Report Certification (PPARC).
        This report is to be submitted to NPPD for progress reviews by March 15, 2013, and close-out
        reviews with summary ratings by August 9, 2013. Due to the new requirements implemented by
        NPPD, ISCD is on track to ensure all employees receive both a mid-year and a close-out review,
        which will ensure that supervisors actively engage with employees on their progress tmoughout




                                                        14




www.oig.dhs.gov                                          105                                                  OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




        the perfonnance cycle. Going forward, (SCD intends to use the PPARC to track ISCO's
        completion of all required perfonnance reviews.

        Recommendation 19: Eliminate the authorization and payment of Administratively
        Uncontrollable Overtime for all ISCD personnel.

        Response: Non-Concur. While NPPD acknowledges that there previously were some issues
        related to the application and management of AUO within lSCD, these issues are being
        addressed. Moreover, based on the findings of an internal audit of the IS CD AUO pro!,'fam,
        there are legitimate justifications supporting the use of AUO by (Set> Chemical Security
        Inspectors. Based on that audit, ISCD leadership has detenllined that the more appropliate path
        regarding AVO for ISeD Chemical Security Inspectors is to continue to pennit AUO in a
        manner that evolves consistently with AUO rules and regulations, and that is supported by
        greater oversight, increased training, documented policies and procedures, and greater
        management controls. Pertinent details on the {Sen audi t and other AUO related developments
        an.~ providL"'li bduw.


        In May 20 J 2, ISCD initiated a follow-on audit to look in greater detail at IseD's management of
        AUO, including, among other things, an examination of what each AUO-authorized individual
        claimed as AUO, what percentage of those claims were and were not justified under AUO
        regulations, what management controls regarding AUO were in place, and what improvements
        could be made by IseD to better manage AVO. To better ensure that all components within
        NPPD follow proper AUO protoc(ll~ , in Septemher 2012, NPpn is~ued an NPPD Al JO
        Instruction, which established policie:s and prOl.:edun:s fur tht: approval, I.:enifi(.;ation, and
        payment of AUO. That document requires all employees occupying positions that have been
        approved for AUO. as well as the supervisors of those employees, complete training on AVO
        regulations, policies, roles and responsibilities. The NPPD lluman Capital Office monitors the
        training to ensure that all affected employees have completed it. The guidance also requires that
        certifying officials review all AUO authorized position descriptions to ensure that the work
        assigned to thc employee is expected to meet the requirements for payment of AUO premium
        pay. Certifying officials must review the accuracy of and approve/disapprove weekly AVO
        reports for each employee, ami four times ea1.:h yt:ar, lhey must review the lime and attendance
        and related records for all employees receiving AUO premium pay to ensure they meet the
        requirements for payment of the rates authorized and make adjustments when necessary.
        Records of these reviews are to be maintained by certifying officials/first-line supervisors of
        employees receiving AUO for six years and be available for review andior inspection. Under
        that policy, NPPD is in the process of conducting a revi ew to ensure that all positions within
        NPPD for which AUO is eurrently being claimed are appropriate for AUO.

        Additionally, lSCD has recently completed draft Division-level AVO guidance to expand on the
        guidance provided by NPPD. This draft guidance will enumerate specific CFATS -related
        activities that are and are not AVO eligible and will describe and detail the frequency of both
        supervisory reviews and fonnal audits (i.e., Periodic Reviews). This draft guidance is
        anticipated to be completed and signed by IS CD leadership by the end of April 2013.

        Recommendation 20: Establish internal controls to ensure accountability for all TSCD
        appropriated funds and that sufficient justification exists for all procurements.




                                                       15




www.oig.dhs.gov                                         106                                                  OIG-13-55

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        Response: Concur/Completed. IseD has establi shed several internal controls and approval
        fOnTIS in order to ensure appropriate funding accountability. W ithin the AOP, ISCD has
        established metri cs that allow for ISCD leadership to see quarterly updates on the Division's
        progress towards meeting this accountability objective. As the owner of the AOP, the ISCD
        Program Management Office has developed fonnal objectives to help ensure the appropliated
        funus art:: W,,:I,;Ullnteu fur ami expendoo as necessary. ISCD works to ensure less than or eq ual to a
        10 percent valiance between appropriated funding and obligated funding within ihe c urrent fiscal
        year. Working under one year funds, Iscn ensures procurements are executed as planned and
        wiiliin the funding limi[s. The procuremen[ admini strative lead timelines (PALT) are also
        tracked, and ISCD works to achieve a 95 percent or highcr completion rate of procurements
        within the Office of Procurement Operations PALT guidelines.

        ISCD also recentl y implemented an Acquisition Justification Fonn to be used internally for
        fu ndi ng requests for approval. The fonn includes requirement descriptions, fund ing amounts, and
        mitigation strategies in the event of disapproval. The form ensures execution alignment with the
        ISCD fiscal year spendplan in coordination with IP. The spendplan is a tracking mechanism for
        the Division as well as IP to properly fu nd each quarter based on requirement needs.

         Contractor perfomlance and fund expenditure rates are closely monitored via cost and schedule
         reports, and periodic project and technical management reviews. In addition, hilling submissions
         are scrutinized and plaJUled performance obj ectives are compared with actual results.

         Recommendation 21: Advertise and select perm anent ISCD leadership with demonstrated
         quali fi cations and skills at alll evds, to induue Division Din:l:tor, Deputy Division Director,
         branch chiefs, deputy branch chiefs, and section chiefs .

         Response; Concur. NPPD agrees that having a permanent, qualified ISCD leadership team is
         critical to the long-tenn success of the CF ATS program, and we collectively have been diligently
         working towards that end oyer the past few months. ISCD has fill ed or is in the process of
         filling alllSCD leadership positions with pcnnancnt, qualificd individuals. ISCD currentl y has a
         pennanent Director, Deputy Director and Chief of Staff. Ofthe five Rranch O1ief positions in
         ISCD, one is filled, two additional individual s have accepted pennam.,..l
                                                                                  .. oLTers ami will be
         moving in to those positions in the near future, and selections will soon be made for the
         remaining two positions. Of the five Deputy Branch Chief positions, one is fi lled and the
         interviews are being scheduled or have been completed for the other four positions. Eight of the
         twelve Section Chief positions are filled with permanent Section Chiefs, two additional
         individuals have accepted offers to be permanent Section Chiefs, and interviews are being
         schedulcd for the fi nal two Section Chi ef positions. In regard to field leadership positions, all
         but two ofthe thirteen Oistrict and Regional Commander positions are filled with permanent
         leadership, and the vacam:y anlloum;ement for the remaining two positions dosed on February 5,
         2013.

        Recommendation 22; Develop and uis:seminate an ISCD organizational and repol1ing structure
        to alll SCD staff.

         Response: Concur/Completed. On January 14,2013 , lhe ISCD Director disseminated an ISCD
         organizational chart to al l ISC D staff that included the ISCD reporting structure.




                                                          16




www.oig.dhs.gov                                            107                                                    OIG-13-55

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




        Recommendation 23: Reih::ratt: tu all )lPPD employees the process for rcponing misconduct
        allegations.

        Response: Concur/Completed. On January 16, 2013 , NPPD Under Secretary Beers
        disseminated a message to all NP PD employees announcing the implementation of the Principles
        of Integrity and Professional Responsibility Management Directive. Included in that message
        were the reporting procedures for employees to submit allegations of misconduct. Additionally,
        the NPPD Office of Compliance and Security (OeS) has updated its web site to include the
        proper procedures and contact information for reporting allegations of misconduct. NPPD
        intends to continue to regularly reiterate the reponing procedures to its employees and NPPD
        OCS is working with the Public Affairs OfIice to draft an updated memorandum or message to
        all employees.

        Recommendation 24: Improve the clarity of guidance provided to the CF ATS-regulated
        industry so that it C(l.1l benefit from regular and timely comments 011 facility submissions.

        Response : Concur. As part of its efforts to improve the Chemical Security Assessment Tool,
        ISCD intends to update its guidance materials fortheTop-Screcll, SVA, and SSP. ISCD is also
        in the process of developing updated guidance related 10 its Chemical-terrorism Vulnerabi lity
        In formation program. and intends to release guidance specific to the CFATS Personnel Surety
        Program whcn the CFATS Pcrsonnel Surety Program is launchcd. Finally, IS CD intcnds to
        routinely update its website and Frequently Asked Questions page based on user feedback in
        order to provide clear guidance and assistance to the regulated community.



                                               Sincerely,



                                               Rand Beers
                                               Under Secretary




                                                            17




www.oig.dhs.gov                                             108                                          OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix D
ISCD Field locations, Staff, and Regulated Facilities




Source: OIG analysis as of October 23, 2012. 





www.oig.dhs.gov                                  109                 OIG-13-55

                         OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix E
F1 Factor Timeline of Events
            Date                                      Activity
May 2009                   ISCD begins issuing final tier assignments
December 2009              Anomalies observed in final facility tier determinations
January 2010               Initial F1 Factor error identified
May 25, 2010               ISCD leadership observed anomalies in the May 2010 tiering
                           run of facilities and requested that staff review the issue
May 27, 2010               ISCD subject matter experts developed an action plan to
                           address F1 Factor problem and briefed ISCD leadership
May 28, 2010               ISCD leadership emailed IP leadership regarding the
                           postponement of the May 2010 tier notification letters
June 2010                  National laboratories’ report on F1 Factor delivered to ISCD
June 18, 2010              Tier notification letters mailed to facilities; ISCD leadership
                           informs IP leadership and NPPD representatives
November to                ISCD subject matter experts identified inconsistencies in
December 2010              tiering levels in the review of Tier 1 SSP redeterminations
January 25, 2011           ISCD subject matter experts brief new ISCD leadership about
                           the unresolved F1 Factor problem
February 4, 2011           ISCD subject matter experts notify ISCD leadership of number
                           of affected facilities; ISCD leadership notifies IP leadership
February to March 2011     ISCD leadership convenes F1 Factor problem working group
April 8, 2011              ISCD receives results of tiering run with correct F1 Factors for
                           facilities tiered before June 2010
May 2011                   ISCD F1 Factor problem working group finalizes and presents
                           recommendations to ISCD leadership
June 1, 2011               ISCD leadership informs IP leadership of findings
June 2, 2011               IP leadership briefs NPPD’s Under Secretary
June 27, 2011              ISCD contacted the affected facilities in writing to advise
                           them of a revision to the original SVA risk engine data
June 28, 2011              IP leadership misconduct allegation to DHS OIG, noting the
                           failure of IP officials to provide timely and sufficient
                           notification
June 30, 2011              Blog posting regarding rumored retiering notification letters
                           sent to approximately 400 CFATS-covered facilities
July 5, 2011               Statement on DHS website on revised tier assignments
October 1, 2011            OCS assigned investigation to one of its senior special agents
Source: OIG analysis.




www.oig.dhs.gov                         110                                   OIG-13-55

                              OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix F
F1 Communication to IP leadership and NPPD Staff
Sent: Fri May 28 09:39:01 2010
Subject: CFATS May Tier Notification -- DELAY TO JUNE

All,

For your information, I have decided not to move forward with the 425+ facility batch of
final tier notification for May which was previously scheduled to go out today.

This batch is focused on preliminary tier 4 release-toxic facilities and we are seeing some
unexpected results. ISCD will take 1-2 weeks to analyze & understand what we are
seeing and why, and push forward from there.

Longer term, the path forward from here is to issue a June tier notification batch (prior
to or in conjunction with the Chemical Security Summit), then a late July batch, and then
an August batch. This will still allow us to meet our commitment for completing all final
tiering by end of Summer 2010.

I’ll keep you posted. I am not advising the Sector Coordinating Council and do not think
this requires congressional notification. Let me know if you have a differing opinion.

Sent: Friday, June 18, 2010 12:14 PM
Subject: FW: CFATS June Tier Notification Batch

I wanted to send a quick follow-up note regarding the May tier notification (or lack
thereof). We figured out that the May tier notification batch (tier 4 release toxic
facilities) had test data rather than real data in the geospatial population calculation
algorithm (“F1”). This caused the numbers to skew. We use test data to ensure the
tools are working properly, ironically. This has not been a problem in the past (this was
the first batch of tier 4 release toxic facilities) and the problem was relatively easy to fix
once identified. We just had to take the time to find which factor was off and why.

Source: ISCD program files.




www.oig.dhs.gov                               111                                    OIG-13-55

                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



Appendix G
Designation of Leadership Positions in IP




Source: ISCD program files.





www.oig.dhs.gov                             112                   OIG-13-55

                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix H
Major Contributors to This Report
Marcia Moxey Hodges, Chief Inspector
Angela Garvin, Lead Inspector
Katherine Yutzey, Senior Inspector
Amy Tomlinson, Inspector
Adam C. Brown, Inspector
Matthew Salaga, Inspector




www.oig.dhs.gov                        113                   OIG-13-55

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix I
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Acting General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
NPPD Audit Liaison
IP Audit Liaison
Director of Local Affairs, Office of Intergovernmental Affairs
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate
Chairman, House Committee on Homeland Security, Subcommittee on Cybersecurity,
Infrastructure Protection and Security Technologies
Ranking Member, House Committee on Energy and Commerce




www.oig.dhs.gov                             114                         OIG-13-55

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
